<html>
<title> - S. 1941, A BILL TO AMEND THE FEDERAL FIRE PREVENTION AND CONTROL ACT OF 1974</title>
<body><pre>[Senate Hearing 106-1132]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1132

S. 1941, A BILL TO AMEND THE FEDERAL FIRE PREVENTION AND CONTROL ACT OF 
                                  1974

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 25, 2000

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



83-607              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                  Mark Buse, Republican Staff Director
               Ann Choiniere, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 25, 2000....................................     1
Statement of Senator McCain......................................     1
Statement of Senator Hollings....................................     2
    Prepared statement...........................................     2
Statement of Senator Kerry.......................................    50

                               Witnesses

Dodd, Hon. Christopher J., U.S. Senator from Connecticut.........     3
DeWine, Hon. Mike, U.S. Senator from Ohio........................     7
    Prepared statement...........................................     9
Fincher, Jr., Chief Luther L., President, International 
  Association of Fire Chiefs (IAFC)..............................    19
    Prepared statement...........................................    21
Monihan, E. James, Former Chairman, Current Director, State of 
  Delaware, National Volunteer Fire Council (NVFC)...............    27
    Prepared statement...........................................    29
Pascrell, Jr., Hon. Bill, U.S. Representative from New Jersey....    10
    Prepared statement...........................................    12
Shields, Billy, Vice President, Professional Fire Fighters of 
  Arizona........................................................    31
    Prepared statement...........................................    33
Weldon, Hon. Curt, U.S. Representative from Pennsylvania.........    15
Whitworth, James H., Chief, Miami Township Fire & Emergency 
  Medical Service, Clermont County...............................    37
    Prepared statement...........................................    39

                                Appendix

DiPoli, Robert A., Chief, Needham Fire Department, Needham, 
  Massachusetts, prepared statement..............................    66
Response to written questions submitted by Hon. John McCain to:
    Chief Luther L. Fincher, Jr..................................    57
    E. James Monihan.............................................    58
    Billy Shields................................................    61
    Chief James Whitworth........................................    63
The Proof Is In--Thermal Imagers Save Lives!.....................    67

 
S. 1941, A BILL TO AMEND THE FEDERAL FIRE PREVENTION AND CONTROL ACT OF 
                                  1974

                              ----------                              


                         TUESDAY, JULY 25, 2000

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.
    Staff members assigned to this hearing: Robert Taylor, 
Republican Counsel; Jean Toal Eisen, Democratic Professional 
Staff Member.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. All right. We will begin, since it is 9:30. 
This morning the Committee will hear testimony regarding S. 
1941, the Firefighter Investment and Response Enhancement Act. 
I welcome my colleagues and look forward to their testimony, as 
well as the testimony from the members of the fire and 
emergency services.
    I also want to thank Senators DeWine and Dodd, and House 
Members, including Congressman Pascrell here, for their efforts 
on this matter.
    The fire and emergency services are central to the 
protection of life and property in our Nation. They are often 
the first to arrive on the scene of any emergency, and 
inevitably some are called upon to make the ultimate sacrifice 
in the performance of their duties.
    As Chairman of this Committee and Cochairman of the 
Congressional Fire Service Caucus, I am committed to 
understanding and effectively responding to the needs of the 
fire and emergency services. In recent years, I have worked 
with the national fire organizations to ensure that valuable 
spectrum is available for use by the fire and emergency 
services, and fought to ensure that vehicles carrying dangerous 
chemicals are properly marked. I believe Government must take 
appropriate action to protect members of the fire and emergency 
services from injury and ensure that they have the capability 
to perform their duties.
    As it is currently drafted, the FIRE act would create a $5 
billion grant program administered by FEMA. The grants could be 
used for a variety of activities, including hiring personnel, 
training, wellness and fitness programs, purchasing equipment, 
and to modify fire stations.
    Due to the traditional responsibility of State and local 
governments for funding fire and emergency services programs 
and equipment, legitimate issues exist about the creation of a 
Federal grant program to fund local fire services. For example, 
are State governments unable to meet funding needs for the fire 
services? It is my understanding that collectively since fiscal 
year 1998 State governments have reported surpluses of $35 and 
$27 billion respectively for each year. Have the members of the 
fire services sought to use these funds and, if so, what was 
the response? How do we target the funds to ensure that they 
are directed to the neediest departments? Finally, what are the 
true needs of the fire services? Has a study been done to 
determine the unmet needs of the fire service?
    I am hopeful the witnesses will be able to answer some of 
these questions. I look forward to hearing your testimony.
    Senator Hollings.

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. Thank you very much, Mr. Chairman, for 
calling this hearing. The United States has the worst fire 
record of any industrialized nation. According to a survey of 
nearly 1,400 professional fire departments, 77 percent of the 
fire departments operate with inadequate staff, 43 percent lack 
the necessary gear, 70 percent of the fire departments do not 
have adequate maintenance for their gear, 66 percent need 
better communications, and 66 percent lack training.
    Last August I was unfortunately subject to these very 
statistics. I had to wait one hour for my house to catch fire. 
It started down the street three doors, and across the street, 
and the equipment came but the manpower did not. The manpower 
was inadequate in the sense that they did not get downwind, 
just upwind, and they went from one house to the other house to 
the next house.
    Mine was the fourth one across the street to catch and had 
it not been for the city fire department coming some 17 miles 
through the City of Charleston, Mount Pleasant, and Isle of 
Palms, it would have burned the beach front down.
    What happens is that rural areas develop into urban areas, 
and the urban strategy is to overwhelm. I know in the city 
itself, even if an automobile catches fire they send no less 
than 10 to 12 firefighters to overwhelm it. They cannot afford 
for the fire to spread, so overwhelming them is the first order 
of business, to make certain.
    I understand that Senator Dodd is with us today. I commend 
the Senator from Connecticut on his leadership on this 
particular score, because these grants are needed all over the 
country.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Hollings follows:]

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina

    Good morning. I want to thank Senator McCain for holding this 
hearing on the FIRE Act, S. 1941. I, along with 31 other Senators, am a 
co-sponsor of this bill which was introduced by Senators Dodd and 
DeWine on November 17, 1999.
    The United States currently has one of the worst fire records of 
any country in the industrial world. More than 2 million fires are 
reported in the United States every year. These fires annually result 
in approximately 4,000 deaths, 24,000 civilian injuries, more than $8 
billion in direct property losses, and more than $50 billion in costs 
to taxpayers.
    In addition, the fire service--80% of whom are volunteers--is 
stretching to meet its new challenges. As first responders, 
firefighters now can be faced not only with fires but also with medical 
emergencies, hazardous spills, and even acts of terrorism.
    These numbers are not just statistics to me, for I know how tragic 
a fire hazard can be. As many of you know, I lost my home in 
Charleston, South Carolina, last year to fire. A lifetime of memories 
went up in smoke. I cannot help thinking that if the local fire 
departments had more support of resources, some of that loss may have 
been prevented. Moreover, if a program such as the one proposed by the 
Fire Act were in place, the Isle of Palms Fire Department they have had 
more efficient fire trucks, more well-trained personnel, and better 
communications.
    But while my loss was personally devastating, I know it is nothing 
compared to the losses of the families involved in that great fire in 
Worcester, Massachusetts last year, where six firefighters died in the 
line of duty.
    I am glad to have our other distinguished witnesses here today to 
tell why this Act is so important. S. 1941 would authorize $1 billion 
annually through fiscal year 2005 for the Federal Emergency Management 
Agency to make competitive grants to fire departments for a variety of 
improvements including safety equipment, training, and fire prevention.
    This is an extremely important matter for the Commerce Committee to 
examine. Thank you again, Mr. Chairman, for holding this hearing today. 
I hope that we will be able to send this legislation to the full Senate 
before the end of the session.

    The Chairman. Thank you, sir. I would like to thank the 
Senator from Connecticut and the Senator from Ohio----
    Senator Hollings. From Ohio, too. Excuse me.
    The Chairman. Senator DeWine, I understand you have another 
hearing right as we speak. Senator Dodd has graciously----
    Senator DeWine. No, Mr. Chairman, I am going to defer to my 
senior colleague here.
    Senator Hollings. Let me thank Congressman Pascrell also.
    The Chairman. I will let you decide who wants to start.

            STATEMENT OF HON. CHRISTOPHER J. DODD, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Dodd. Briefly, Mr. Chairman, we thank you immensely 
for the hearing this morning, and I am pleased to be joined in 
this effort with Mike DeWine of Ohio and with our House 
colleagues, Bill Pascrell and Curt Weldon.
    Actually, you are going to hear from Congressman Pascrell 
in a minute and Curt Weldon. I do not know if Curt is coming 
over or not. He said he would be here, but the Congressman is a 
former mayor of Paterson, New Jersey, and can speak very first-
hand about the difficulties of local communities, obviously, 
and raising the resources today to have the capacity to respond 
to the kinds of tragedies we see occur every single day across 
our country.
    As we are sitting here this morning--obviously different 
circumstances, but we are looking at Colorado, a massive blaze, 
one of maybe the 10 worst fires in the history of the country, 
according to firefighters out there. Las Vegas hotels, where 
people come from all over the country, certain places there, it 
is becoming--toxic sites and wastes that--tragedies, accidents 
that occur on the interstate highways of our country, the first 
vehicles to respond almost invariably are fire departments, or 
emergency medical services, so it is a changing situation.
    If we are kind of caught in a way of sort of thinking about 
fire departments as the old hook-and-ladder company of almost a 
century ago, even the earliest part of this century, I think we 
can end up with one sort of set of conclusions. If you begin to 
see this today with the kinds of problems--with the World Trade 
Center situation, the first vehicles there to respond were fire 
vehicles, to respond to that situation, again, an incident that 
has international ramifications, so beyond the kind of local 
problems here this issue has taken on much broader questions 
than historically is the case.
    In the case of Curt Weldon you will hear from someone who 
was a firefighter himself, and so can speak very personally 
about this issue.
    Well, there are roughly a million men and women every 
single day who put on the equipment of firefighters across the 
United States, and who put their lives on the line to protect 
each and every one of us and our property, our valuables. More 
than 100 of these million people lose their lives every single 
year, a husband or wife, extraordinary role models.
    We only recall vividly just a few months ago in Worcester, 
Massachusetts, where six firefighters lost their lives in that 
blaze, and there you had a department, by the way, that came 
not just from Massachusetts but from Connecticut, Rhode Island 
and other places, responding to that, again an example of how 
people responding--it is a local issue, but people came from 
across State lines to respond to these problems.
    My job today, I would say to you, Mr. Chairman, is to try 
and not to describe what others can do a much better job of, 
and that is talking personally about their problems as the 
mayor, firefighters, and of course you will hear from our 
witnesses who very directly every day deal with these issues, 
but I want to try and briefly talk about this bill, explain to 
the Committee what I believe are the imperatives for a Federal 
role here, not a dominant role, not the only role, but a 
partnership role with local and State Governments.
    America's fire service, nearly our entire emergency 
response system has truly grown from the grassroots up. Local 
needs and local resources have driven the developments of fire 
departments since Benjamin Franklin set up the first fire 
department, organized the department of Philadelphia in the 
late 1730's.
    This history of local control has brought with it certain 
strengths and certain weaknesses. On the one hand, local needs 
are extremely well-understood, obviously. Our local 
firefighters know what their immediate communities need, and 
they know how to meet those needs as the emergency medical 
services do as well.
    On the other hand, local departments are not necessarily 
well-equipped to address essentially nonlocal problems, like 
interstate highway accidents, airplane crashes, or acts of 
terrorism. Many local governments do not have the financial 
resources they need to meet all of the nonlocal challenges they 
now face as new demands are made of local fire departments. The 
gaps between what we expect from firefighters and the resources 
we are providing them is getting wider and wider, and the case 
of our colleague from South Carolina makes that case in his own 
personal situation.
    The high cost of modern equipment and increased training 
demands make it impossible to continue to rely 100 percent on 
local financing. This is especially true in small towns and 
poorer jurisdictions, poor neighborhoods of our larger cities.
    Local firefighters are dealing with a much broader range of 
issues than ever before, and many of the new challenges they 
face have been imposed on them by the Federal Government. Every 
town that has an interstate highway running through it must be 
prepared for an accident involving hazardous materials, or has 
to be as ready as it can be to deal with the multicar pile-ups.
    That is true for large cities and even large towns with 
volunteer fire departments, and small annual budgets. Every 
city that boasts a Federal office building or Federal 
courthouse or a military armory or barracks has got to be 
prepared to respond to an act of terrorism.
    Firefighting is not just about dousing flames, it is about 
being on the ground and being able to respond to whatever 
catastrophe may occur, and that state of preparedness is one 
that serves all of us, not just the local populations.
    It is time for us to establish a sound basis for building a 
solid working relationship between the Federal Government and 
local firefighters, a relationship that recognizes that local 
officials are in the best position to identify and address 
local conditions, but a relationship that also recognizes that 
all Americans, wherever they may live, deserve a reliable 
emergency response system.
    Departments are deferring new purchases, training, and even 
new hires. Many departments simply cannot buy new equipment or 
hire new firefighters to replace those who have been injured or 
have retired. Obviously, a lack of equipment, coupled with 
decreased manpower, places both firefighters and the public in 
great danger. In 1998 alone, 44,000 firefighters were injured 
on the job, many because they did not have the right equipment.
    In fact, in Worcester, that tragedy, some of the modern 
equipment that would have been available to determine the 
intensity of the heat inside that inferno might have, in fact, 
saved those lives, just that kind of basic equipment, but it is 
expensive equipment, I might point out.
    I know that there is a concern about the cost of this bill. 
The Chairman has made that point, and I respect that immensely, 
and I agree that we cannot ignore the budgetary limitations, 
obviously, on the Federal Government, but we also cannot use 
the Federal deficit, in my view, as an excuse for being blind 
to the obvious and pressing needs of America's fire service.
    I also believe that it is not enough for us to say that the 
State government should pick up the slack. Not every State is 
running budget surpluses. In fact, we may have noticed that 
just in the last week a certain large State in the Southwest 
was reported to be in deficit, and if we believe that domestic 
security is important, and we believe that every American 
deserves to be safe in his or her home and on the highways, 
then our level of security should not depend on the budgetary 
status of the city or State where she lives, or she may happen 
to be traveling through.
    I come from a State with a very long tradition of local 
control. The New England town meeting is in many ways the 
absolute epitome, the archetype of local self-determination, as 
you see throughout our six New England States. Connecticut does 
not have a strong county system. Instead, we have 169 cities 
and towns, no county government, that are fairly autonomous, 
with their own budgets and direct relationships, 
responsibilities of providing a wide range of services, 
including firefighting and emergency medical services.
    If anybody understands the virtue of local participation 
solving local problems, it is the people of the New England 
States, so when I talk about a new Federal partnership, it is 
that history and that tradition and the experience of 
Connecticut's towns that guides me.
    Back in November, when Senator DeWine and I introduced the 
Senate version of the Firefighter Investment Response 
Enhancement Act, we did so because we recognize that local 
communities and their firefighters are struggling to make ends 
meet. This bill would authorize FEMA to make grants to local 
fire departments to buy the equipment they need and to hire new 
firefighters to eliminate dangerous understaffing.
    At its core, the bill recognizes that firefighters cannot 
do their job safely if they do not have the men and equipment 
they need. Mr. Chairman, we do not ask members of our Armed 
Forces to go into battle without the right equipment. It would 
be most egregious for us to ask firefighters to battle fires or 
hazardous materials or bomb debris without the proper tools and 
training that exist today, and that are available, but are 
very, very costly, and we should not ask them to do it with 
local tax dollars when the benefits accrue to the Nation as a 
whole, exclusively.
    The fire bill authorizes the Federal Government to provide 
up to $1 billion a year to support local departments. Local 
fire departments will write proposals to address local needs. 
FEMA will evaluate each proposal and provide funding.
    If every fire department in the country made a request it 
would be about $32,000 per department. Now, obviously, we know 
that $5 billion bill is a target. It has been pared back 
significantly. There is $100 million. We are talking about an 
appropriation process today, so we are talking about a much 
smaller beginning here to try and provide some assistance to 
these departments.
    $1 billion, as I said, is a lot of money. There are about 
31,000 local fire departments in the country, and $32,000 to a 
department is not exactly going to wipe out this problem, but 
it could begin to develop that partnership that I talked about.
    Let me conclude with one last thought, if I can. We lose 
almost $9 billion annually because of fire-related property 
damage in this country, and worse, more than 4,000 Americans 
die in fires every year. Our fire death rate is second highest 
in the developed world, as Senator Hollings has pointed out. 
660 American children die in fires every year.
    All of these statistics are particularly tragic because the 
U.S. leads the world in developing technologies that can reduce 
these losses. There is a widening gap between what we are 
technically capable of doing and what our local firefighters 
can afford to do.
    Businesses are losing property and people are dying not 
because we do not know how to reduce these losses, but because 
local jurisdictions have had their resources stretched to the 
limits in many, many cases. We cannot eliminate all the dangers 
that confront firefighters or the public, but we can help to 
ensure that firefighters have up-to-date, safe, and reliable 
equipment. We have an obligation, I think, to try and do so, to 
be a better partner in this common struggle and battle.
    With that, Mr. Chairman, I thank you.
    The Chairman. Thank you.
    Senator DeWine.

                STATEMENT OF HON. MIKE DeWINE, 
                     U.S. SENATOR FROM OHIO

    Senator DeWine. Mr. Chairman, thank you very much. I 
appreciate very much you and Senator Hollings holding this 
hearing, and I appreciate my colleagues being here to talk 
about the bill that we have introduced.
    Mr. Chairman, I do have a written statement which I would 
like to make available to the chair as part of the record.
    The Chairman. Without objection.
    Senator DeWine. I would like to take the time that I have, 
Mr. Chairman, to try to address some of the concerns, and I 
think they are very legitimate concerns, that you expressed in 
your opening statement.
    I do not know that there is anything that is more 
grassroots in America than our fire departments. My home state 
of Ohio probably is a pretty good example. We have numerous 
fire departments. They are at the township level many times, 
they are at the city level, they are at the village level.
    It is grassroots, and it is grassroots also in the sense 
that a great number of our firemen and firewomen are 
volunteers. This is a great bargain that the taxpayers have 
received throughout my entire lifetime, and I am sure much 
before that. You can see the number of volunteers who go out 
every day and make a difference.
    I have seen it in my own family. My wife's uncle and her 
cousins have been actively involved as volunteer firemen for 
many, many years, and I see the tremendous amount of time and 
effort that they put into this.
    Mr. Chairman, my point, though, is that while the system 
works, it is at the local level, it is the most grassroots 
thing probably we have in government today, but the sad reality 
is that because it is grassroots, the disparity in funding is 
probably the greatest than in anything that we do. It is 
probably even more disparity than sometimes we see in our 
school districts.
    When you look at the different fire districts, when you 
look at the different townships and the way it is administered 
across this country, there is tremendous disparity in funding. 
This is one place I think the Federal Government can play a 
limited role, and the limited role, as my colleague Senator 
Dodd has said, is not to supplant, or not to in any way change 
that great grassroots system that we have, but rather to build 
upon that system and to try to use these finite federal dollars 
to make a fundamental difference. Again, the disparity I think 
is very bad, and because of that great disparity we end up 
losing a lot of lives.
    One of the things that I am proudest of about this bill is 
that we set aside--while we give the local departments 
tremendous flexibility--this is a very, very flexible bill, 
because all three of us believe in what happens at the local 
level and the ability of people to make their own decisions, 
but one thing that we do in this bill that sets some direction 
is to say that a percentage of the money, 10 percent of the 
money has to be set aside for prevention.
    When we look at the number of lives that are lost every 
year in fires, what is so disturbing is, as Senator Dodd has 
said, these are preventable. At least 90 percent of them are 
preventable. Fire is responsible for killing more Americans 
than all natural disasters in this country combined. Every 18 
seconds a fire department responds to a fire somewhere in the 
United States.
    In 1998, there were over 4,000 civilian nonfirefighter fire 
deaths, and that amounts to a civilian fire death every 130 
minutes. Many of these deaths are children. As both of my 
colleagues know, my focus, my work in the U.S. Senate has been 
on children, and I know we have all had this experience. I had 
it several weeks ago in Ohio. I pick up a paper and read about 
more fire deaths. Usually they are residential, and usually 
they are children.
    These are very preventable, and our fire departments have a 
great capability, if we could give them more resources, to go 
out into the community and help with fire detectors, help with 
education, help with training to literally penetrate the 
neighborhoods where these deaths are occurring.
    In 1996, which is the last year that I have statistics for, 
nearly 800 children ages 14 and under died in residential 
fires. More than 60 percent of these children were ages 4 and 
under. That is who is dying. In addition, each year fires in 
the home injure nearly 47,000 children ages 14 and under.
    So this is a limited bill, it is a targeted bill, it is a 
bill that I think would fundamentally make a difference and 
will save lives. It is also a bill, Mr. Chairman, that will 
pale in comparison with what we have done in the other area of 
law enforcement, and that is with our police.
    Beginning back in the 1960's this Government, the Federal 
Government, has invested a tremendous amount of money in what 
we do with police. We are not suggesting that we replicate 
that, but what we are suggesting is that this relatively modest 
amount of money will make a fundamental difference in what 
happens.
    My colleague, Senator Dodd, has mentioned maybe some of the 
other justifications for the Federal Government playing a role. 
Terrorism, Mr. Chairman, Senator Hollings, is going to be more 
and more on our mind, and the thing I think that we need to 
keep in mind is that no matter how well the so-called experts 
are who will actually come in to deal with terrorism, or to 
come in to deal with a toxic spill, or come in to deal with 
some weapon of mass destruction that is inflicted on American 
citizens in one area, what we have to understand is, the first 
people to respond are going to be the same people that go to 
your house or go to my house, or the first people that respond 
on the highway when something happens.
    That is going to be the local fire department, and so they 
have to have this additional training, and you are seeing fire 
departments across this country expending a tremendous amount 
of money in additional training for terrorism and other, what I 
would call national issues, whether it is terrorism, whether it 
is toxic spills. These are things we want to deal with as a 
country, and so clearly we have a Federal problem that our 
local jurisdictions are being asked already to bear a very 
heavy burden in expenses.
    So let me just conclude, Mr. Chairman, Senator Hollings, by 
thanking you for your interest in this. Thank you for holding 
the hearing. It is, as we say, only an authorization. It will 
allow us to move forward and to fight the battle out, frankly 
with the appropriators, and to determine how much money in any 
given year might be appropriate.
    But I think this bill sets a very good framework for which 
any money could be poured into, and I think it would 
fundamentally make a difference, it will save lives, it will 
save children's lives, and it is clearly the right thing to do.
    I appreciate your time.
    [The prepared statement of Senator DeWine follows:]

     Prepared Statement of Hon. Mike DeWine, U.S. Senator from Ohio

    Thank you Chairman McCain and Ranking Member Hollings for holding 
this important hearing today to discuss the need for adequate resources 
for America's firefighters. I am pleased to be testifying alongside my 
friends and colleagues, Senator Dodd from Connecticut and Congressman 
Pascrell from New Jersey, who have been the key advocates on the issue 
of fire safety. I am also anxious to hear from the firefighters who are 
here today, as they will give us the most valuable perspective on the 
need for fire prevention education and safety training.
    As you know, we are here to talk about an issue that affects all of 
us. That issue is fire prevention, safety, and the necessity--the 
absolute necessity--of providing our firefighters with the resources 
they need to help prevent fires, the tools necessary to fight fires, 
and the funds for fire prevention education programs for the public.
    I cannot overstate just how important fire fighting and prevention 
education are to our families. Overall, fire is responsible for killing 
more Americans than all natural disasters combined! Do you realize that 
every 18 seconds, a fire department responds to a fire somewhere in the 
United States? In 1998, there were 4,035 civilian (non-firefighters) 
fire deaths--that amounts to a civilian fire death every 130 minutes! 
Sadly, many of those who die each year in fires are children. In 1996, 
for example, nearly 800 children ages 14 and under died in residential 
fires. More than 60 percent of these children were ages 4 and under. In 
addition, each year, fires in the home injure nearly 47,000 children 
ages 14 and under.
    Despite these tragic statistics, the federal government has not 
made funding for firefighting a high enough priority. Last year, the 
federal government spent just $32 million on fire prevention and 
training for the Fire Services Administration. While there are other 
sources of federal funding, the total amount of federal dollars for 
firefighting pales in comparison to what Washington spends annually on 
law enforcement initiatives.
    To address the clear inequity between these two vital public safety 
entities, Senator Dodd and I introduced the Firefighter Investment and 
Response Enhancement Act (FIRE), while Congressman Pascrell has 
introduced a similar measure in the House of Representatives. Although 
additional bills have been introduced in both the House and Senate to 
address the federal funding gap, I believe our Firefighter Investment 
bill offers our fire departments the most flexibility to fund their 
local communities' needs.
    Our FIRE bill is simple. It would authorize $5 billion over the 
next five years in grants to local fire departments. Any fire 
department is eligible for these grants. In addition to prevention 
programs, the grants can be used for training, equipment, or the hiring 
of more firefighters.
    Also, the grant money could be used for the purchase of equipment, 
like thermal-imaging cameras. These cameras are lifesaving devices used 
to locate firefighters and others trapped in burning buildings. These 
new high-tech cameras can pick up heat sources through thick smoke, 
walls, doors, and behind furniture to help locate and rescue those who 
have become lost and disoriented in burning buildings.
    In Monroe, Ohio, near Cincinnati, for example, a thermal imaging 
camera recently helped save the lives of two firefighters, Scott 
Clasgens and Andrew Turner, who were trapped in a building, unable to 
locate an escape route through the thick black smoke of the fire. 
Through a fund-raising drive spear-headed by local residents, the 
Monroe Fire Department received a $15,000 thermal-imaging camera. Using 
the camera, firefighters/paramedics, John King and Jamie Verdin, found 
the missing firefighters. The equipment saved their lives.
    We need to remember, though, that our number one priority should be 
stopping fires before they ever happen. Effective education efforts are 
the first steps in fire prevention. That is why our Senate version of 
the FIRE bill has a specific provision requiring that at least $500 
million go toward fire prevention education programs.
    I am going to work very hard to see to it that the Senate passes 
our Firefighter Investment legislation. It is vital that we do 
everything possible to see to it that the federal government increases 
its commitment to the men and women who make up our local fire 
departments. Thank you again for holding this important hearing and for 
allowing me to testify.

    The Chairman. I thank you, Senator DeWine. I thank both of 
our Senate colleagues for their commitment to the people of 
America and those valiant men and women who go out and risk 
their lives on a daily basis.
    Congressman Pascrell, I am sorry about the longwindedness 
of my colleague. It is a problem we have here in the Senate, 
and I appreciate your patience. Please proceed. We are glad to 
have you.

             STATEMENT OF HON. BILL PASCRELL, JR., 
              U.S. REPRESENTATIVE FROM NEW JERSEY

    Mr. Pascrell. Two good men, Senator. Two good men.
    The Chairman. Thank you, sir.
    Mr. Pascrell. Thank you, Chairman McCain and Senator 
Hollings for holding the hearing.
    I am proud to be the sponsor of the FIRE act in the House 
of Representatives, and I would also like to thank and 
recognize Senators Dodd and DeWine for the hard work that they 
have done on this subject. It is the neglected part of the 
public safety equation that we are addressing here, and we are 
addressing it to the degree that we believe the need exists, so 
I want to thank them both for their great testimony.
    I want to state at the outset, Mr. Chairman, that this is 
solid legislation which recognizes the value of and the need of 
our Nation's firefighters by committing federal funding and 
resources to the brave men and women that serve our 
communities. To date, the FIRE act has been endorsed by 7 major 
fire service organizations in this Nation. We have 276 
bipartisan cosponsors in the House, and in the Senate, S. 1941, 
33 bipartisan cosponsors, 10 of whom are members of this 
Committee.
    The administration has written to me expressing their 
support in writing. I am very encouraged that Members support 
this legislation for its merits, and have refused to make this 
a political or partisan issue. After all, firefighters do not 
go into a burning building and ask the inhabitants whether they 
are Democrats or Republicans.
    The legislation provides dollars and grants for hiring 
personnel, purchasing new and modernized equipment, fire 
prevention education programs, wellness programs for our 
firefighters, modifying outdated fire stations, and more. These 
grants will go to paid departments as well as part-paid and 
volunteer emergency medical technicians as well. EMT's have 
certainly been neglected throughout America.
    I strongly believe that the federal role in the 
firefighting service can and should be increased. Current 
spending for fire services is roughly $40 million, which is 
dreadfully inadequate. The fire side of the public safety 
equation has, as I said, been neglected.
    S. 1941, however, the authorizing level of funding I 
believe is appropriate. This funding is an investment in safety 
for our firefighters, and confirmation to our communities that 
the Federal Government will work to provide our fire service 
personnel with the best equipment and resources available. We 
are talking about 31,000-plus fire departments that are 
recognized. Some of them we do not even know about, I found out 
in my research.
    And it sends the dollars directly to the departments. No 
State bureaucracies are involved here. We have battled that out 
in other issues in the Congress of the United States.
    Let me also remind colleagues that the role of firefighters 
is expanding. There is a different face on firefighting today 
than there was 20 or 30 years ago. Several fire departments in 
this Nation reach across State, county, and city lines to 
assist each other with natural disasters and incidents of 
domestic terrorism such as in Oklahoma City.
    As you know, there are two fire search and rescue units 
that have responded to international disasters on behalf of the 
United States collectively. The Miami Dade Fire and Rescue 
Department and the Fairfax Search and Rescue teams have 
traveled to several countries, including Columbia, Turkey, 
Mexico City, and Mozambique in order to help with disaster 
relief.
    Natural and manmade disasters do not discriminate when and 
where they arise, and proudly the firefighters of the United 
States do not discriminate when and where they provide help. 
The role of our firefighters is ever-changing. It is my belief 
that that role that the Federal Government plays during these 
changes must be commensurate.
    I am certain that many of us here today share a common 
sadness when a firefighter or law enforcement officer is struck 
down in the line of duty, just recently in the Capitol, not too 
long ago, Officer Jacob Chestnut and Detective John Gibson, and 
we responded to that. How sad that was.
    I am all too familiar with the grief that accompanies the 
loss of life in the line of duty. As mayor of Paterson, New 
Jersey, the third largest city in New Jersey, I worked 
intimately with fire and police personnel to protect our city. 
I was always pleased to take phone calls from the men and women 
that serve Paterson in a law enforcement or firefighting 
capacity, because they would share uplifting accounts of 
successful rescues and relate how things were going from their 
perspective with me.
    Unfortunately, I received a phone call 1 day that I was not 
prepared to take. On a freezing day in February 1991, an entire 
block in my city was engulfed in flame. Despite the weather 
conditions, the flames lasted for a day and a half. The first 
firefighting unit responded to the first alarm, first 
responders, Senator Dodd and DeWine have pointed out time and 
time again, and many times the last to leave.
    The firefighters advanced to the basement of one of the 
buildings in an effort to locate the source of the inferno. The 
smoke was too dense. The firefighters hung on to a rope for 
safety, and after a while they withdrew from the basement by 
command, for the heat and smoke were overwhelming. Sadly, John 
Nicosia, a personal friend of mine, both husband and 
firefighter, became disoriented, lost his way in the fire. His 
body was found 2 days later.
    Mr. Chairman, I will never forget the feeling I had after 
losing that brave fireman. I thought of his family often while 
working on this legislation and this experience serves as my 
motivation.
    It is time that we stop paying lip service to our 
firefighters at holiday parades without putting our money where 
our mouth is during the rest of the year. We have the 
opportunity to protect our men and women in firefighting 
service, and the time to act is now.
    I am proud to be among hundreds of colleagues fighting for 
this legislation to be enacted this year so as to ensure that 
firefighters have a fighting chance, and I thank you both for 
hearing what I have to say.
    [The prepared statement of Congressman Pascrell follows:]

            Prepared Statement of Hon. Bill Pascrell, Jr., 
                  U.S. Representative from New Jersey

    Good morning. I would like to thank Chairman McCain and Senator 
Hollings for holding this hearing today on S. 1941, the Firefighter 
Investment and Response Enhancement Act (FIRE).
    I am proud to be the sponsor of the FIRE Act in the House of 
Representatives, and I would also like to thank and recognize Senators 
Dodd and DeWine for their leadership in the Senate on this important 
measure. I thank you both for your kind remarks and appreciate your 
testimonies.
    Mr. Chairman, I would like to state at the outset that this is 
solid legislation, which recognizes the value of and need for our 
Nation's firefighters by committing federal funding and resources to 
the brave men and women that serve our communities.
    To date, the FIRE Act has been endorsed by seven major fire service 
organizations in the Nation, and has 276 bipartisan cosponsors in the 
House and, in the Senate, S. 1941 has 33 bipartisan cosponsors, 10 of 
whom that are on this Committee. The Administration has also written to 
me expressing their support.
    I am very encouraged that Members support this legislation for its 
merits and have refused to make this a political or partisan issue. 
After all, fire fighters don't go into a burning building and ask the 
inhabitants whether they are Democrats or Republicans.
    This legislation provides $1 billion in grants for hiring 
personnel, purchasing new and modernized equipment, fire prevention and 
education programs, wellness programs for our firefighters, modifying 
outdated fire stations, and more. These grants will go to paid 
departments as well as part-paid and volunteer and emergency medical 
technicians as well.
    I believe that the federal role in the fire fighting service can 
and should be increased. Current spending for fire services is roughly 
$40 million, which is dreadfully inadequate. In S. 1941, however, the 
authorizing level of funding is appropriate. This funding is an 
investment in safety for our fire fighters and confirmation to our 
communities that the federal government will work to provide our fire 
service personnel with the best equipment and resources available.
    Furthermore, there is no selective assistance in this bill--all 
31,000 plus departments are recognized and included. And, it sends the 
dollars directly to the departments to the communities in need through 
competitive grants, therefore bypassing potential state level red tape.
    I would also like to remind my colleagues that the role of fire 
fighters is expanding. Several fire departments in this Nation reach 
across state, county and city lines to assist each other with natural 
disasters and incidents of domestic terrorism (i.e., Oklahoma City.) As 
you know, there are two fire search and rescue units that have even 
responded to international disaster on behalf of the United States.
    Collectively, the Miami Dade Fire Rescue Department and the Fairfax 
County Search and Rescue teams (SAR) have traveled to several 
countries--including Colombia, Turkey, Mexico City and Mozambique--in 
order to help with disaster relief.
    Natural and man made disasters do not discriminate when and where 
they arise; proudly, the fire fighters of the United States do not 
discriminate when or where they provide help.
    The role of our fire fighters is ever changing, and it is my strong 
belief that the role that the federal government plays during these 
changes must be commensurate.
    I am certain that many of us here today share a common sadness when 
a fire fighter or law enforcement officer is struck down in the line of 
duty. In fact, we just paid homage yesterday to two fallen heroes of 
the Capitol Police force, Officer Jacob J. Chestnut and Detective John 
Gibson.
    I am all too familiar with the grief that accompanies the loss of 
life in the line of duty. When I was the Mayor of Paterson, New Jersey, 
I worked intimately with both fire and police personnel to protect our 
city. I was always pleased to take phone calls from the men and women 
that served Paterson in a law enforcement or fire fighting capacity 
because they would share uplifting accounts of successful rescues and 
relate how things were going from their perspective with me.
    Unfortunately, I received a phone call one day that I was not 
prepared to take. On a freezing day in February 1991, an entire block 
in the City of Paterson was consumed by fire. Despite the weather 
conditions, the blaze lasted for a day and a half.
    The first fire fighting unit responded to the first alarm at 7:30 
a.m. The fire fighters advanced to the basement of one of the buildings 
in an effort to locate the source of the inferno.
    The smoke was too dense, and the fire fighters hung onto a rope for 
safety. After a while, they withdrew from the basement by command, for 
the heat and smoke were overwhelming and the fire was raging. Sadly, 
John Nicosia, both husband and fire fighter, became disoriented and 
lost his way in the fire. His body was found two days later.
    Mr. Chairman, I will never forget the feeling I had after losing 
that brave fireman. I have thought of his family often while working on 
this legislation, and this experience serves as my motivation.
    It is time that we stop paying lip service to our fire fighters at 
holiday parades without putting our money where our mouth is during the 
rest of the year.
    We have the opportunity to protect our men and women in fire 
fighting service, and the time to act is now. I am proud to be among 
hundreds of colleagues fighting for this legislation to be enacted this 
year, so as to ensure that fire fighters have a fighting chance.
    Thank you, Mr. Chairman.

    The Chairman. Thank you very much, and I thank our 
colleagues for joining us today on this very important issue. I 
know you have to go. Senator Hollings would like to make a 
comment.
    Senator Hollings. Yes. Congressman Pascrell and each of my 
colleagues, you learn something after years. I got annoyed at 
the statement made by a senior judge years ago in my own home 
state who said that the public got way better government than 
what they paid for. I said, that was a rather arrogant 
statement, but I have learned over the years that this is true.
    Specifically, the chairman of President Reagan's Federalism 
Committee, which studied the competence of personnel at the 
federal level, was Mr. Singh of Signal Corporation. I had lunch 
with him up in Nashua, New Hampshire, one day, and he said 
maybe about the Secretaries and the Assistant Secretaries there 
could be some misgivings. But down at the regular rated federal 
personnel, he said in the private sector they would pay them at 
least two times what they make working for the government, 
probably three and four times the amount for the work they do.
    Now, firefighting, like law enforcement, like the guards at 
the penitentiary, and teaching, all of these public service 
jobs emanated from the Depression. In the early days, in the 
forties, when I ran one little village, the fight there was not 
about education or fire or taxes or anything else. If you got 
elected, you could hire the teachers, and the teachers did not 
have to have any qualifications.
    Heavens above, now we all talk about training. In my day 
coming along, nobody at the fire department had any training. 
It just was not contemplated that they would, and they have 
been getting along with, even today, volunteer firefighting.
    I arrived in Washington in 1966. In 1968, during the 
assassination of Martin Luther King and Robert Kennedy, they 
would pull the box here in the District, and then when the fire 
engine came they would shoot the firemen. I found that if you 
get killed in the line of duty at the FBI, you had a $50,000 
death benefit, but there was nothing for the firemen, so I 
corrected that. I think it is now maybe up to $100,000 or 
something, but I know we put it in for the federal 
firefighters. We put in the school out at Marjorie Webster.
    But in my own personal experience, this thing extends right 
to the insurance companies, and I have been getting on my 
senior colleague here, Senator Dodd, with Travelers. They have 
my coverage, and they are wonderful, so I am not complaining 
about Travelers, but I am complaining about Travelers losing 
money.
    If I ran that company I would cancel every policy at the 
town I live in. Why? For the simple reason that I found out the 
insurance companies years ago formulated what they called the 
Insurance Services Corporation over in Atlanta. They ran it for 
a while. Now it is private. They do the rating, and they give 
the policies out as according to the rating.
    So I said, this cannot be rated No. 1 for this town and its 
size. They ought to come over and look at it, because we do not 
have adequate fire protection, and I do not want to get into 
all the details. A fire engine caught fire. Can you imagine 
going there to put out the fire and then obviously extending 
the fire?
    So they were totally inadequate. I called the Insurance 
Services Corporation three different times and they said, no, 
we do not come to reevaluate unless the town asks us. Well, the 
town, the culprit, was not going to call, and the insurance 
companies still have not rerated it. I have even talked to my 
insurance commissioner for the State of South Carolina, and he 
cannot get anything done about it.
    Your bill is highly important, and it makes us begin to pay 
attention to firefighting. Senator DeWine gives me credibility, 
because they would call this a liberal bill--you know, they 
make it a four-letter word down where I live, liberal bill. The 
truth of the matter is, you would think at least they could 
take care of fire protection at the local level.
    Well, we thought that about law enforcement, and we found 
out once we got them spoiled at getting good law enforcement, 
and then having to take it over at the local level, that 
upgraded law enforcement. We had to do that from the federal 
level.
    In the City of Charleston now the majority of the police 
department, for example, are college graduates. When I came 
along, no college graduate was on any police department. Those 
who could not get through high school were in law enforcement. 
Now, to be a law enforcement officer you have got to be 
sophisticated, diplomatic, careful, sensitive, and all of these 
other things, as well as tough, and the same goes with 
firefighting.
    You just cannot get any podunk off the street and say, come 
on, let us fight the fire. They have got to have training, 
expertise, and everything else. They have got to have cars, and 
we are lucky we are getting by. We get way better fire 
protection than what the people are paying for, and your little 
initiative here will begin to upgrade this last tail end of the 
whip of public service. Everybody thought in my day if you 
could not get a job anywhere, go on down to the volunteer fire 
department. At least they cooked meals down there and you would 
get something to eat. And that is what you and I are having to 
pick up for.
    Through all of this I am trying to emphasize the importance 
of this initiative. It is not just finding some fellas to fight 
fires--and they do vote. I go around to the fire department 
first.
    [Laughter.]
    Senator Hollings. But it is not just to get the votes, it 
is really to get the proper protection that we are enjoying 
here at the federal level. Now, we pay them, and they get a 
benefit and everything else of that kind.
    I apologize, Mr. Chairman, for that side remark, but it has 
got to be emphasized. I have studied firefighting from the word 
go, and these folks are on target.
    The Chairman. Thank you, Senator Hollings, and all of us I 
think appreciate the incredible loss that you experienced, 
irreplaceable objects, not only the trauma that your family 
experienced, but your commitment on this issue certainly 
predates your personal tragedy that you experienced.
    I would ask my other three colleagues if they have any 
response to Senator Hollings' comments before--actually, Weldon 
is here. Senator Dodd and Senator DeWine and Congressman 
Pascrell, I know you have other commitments, and we will send 
you a copy of Congressman Weldon's remarks.
    Senator Dodd. Thank you.
    Senator DeWine. Thank you, Mr. Chairman. He says he can 
handle you guys alone.
    The Chairman. There you go. Knowing Congressman Weldon, he 
can handle a lot of us.
    [Laughter.]
    The Chairman. Thank you.

                STATEMENT OF HON. CURT WELDON, 
             U.S. REPRESENTATIVE FROM PENNSYLVANIA

    Mr. Weldon. Thank you, Mr. Chairman and Senator Hollings 
for allowing me to join your company, because you have been 
tireless advocates for the men and women of the American fire 
service.
    Senator McCain, you were one of our original cochairs of 
the Fire Caucus when I started with fire safety issues 12 years 
ago after coming to Congress, and you have been with us for 
some tough battles, and I could not be here without 
acknowledging for the record what you did to help us in the 
struggle for the 24 MHz spectrum range. You went to the wall 
for public safety in this country when almost everyone else was 
against you, and because of that effort we now have the 
opportunity to provide additional frequency allocation for the 
men and women of the fire service across the country.
    I would also be remiss if I did not mention it was you who 
helped us deny the agricultural industry an exemption for 
transporting hazardous materials without proper placarding, 
again a key issue for the fire and the EMS community 
nationwide, so I come here in tribute to the work that you have 
done, and ask you to help us as we move to another level in 
this battle.
    As you know, Senator McCain, I would not be in politics 
were it not for the fire service. I was born and raised in a 
fire service family, became the president and fire chief of my 
local company, went back and got a degree in fire protection, 
and ran the county training department as a volunteer for 80 
fire companies, 2 career and 78 volunteer companies.
    I am a member of the fire service first. I am a politician 
and a Republican politician second, and as you know from 
attending our dinners and from the work that we have done 
together, I have been convinced that neither party has 
addressed the concerns of these brave heroes.
    As a fellow member on the House side of the Armed Services 
Committee, I share your concerns for our military, and you have 
been a tireless advocate for those issues, and I have applauded 
you for that publicly. In fact, I consider them our 
international defenders and, like you, I do not want to ever 
see our military be asked to go into harm's way without proper 
protection and training, and we take every life to the nth 
degree in terms of protecting them with technology, equipment, 
and so forth.
    Well, today we are talking about our domestic defenders. As 
the corollary to our international defenders, these are the men 
and women who do not just fight fires. As you know, there are 
32,000 departments across the country, 85 percent of which are 
volunteer. Every day of the week, since long before this 
country was a country, 230-some years ago, when the fire 
service was born, it has been responding to every disaster.
    It is the first responder on fires, tornadoes, earthquakes, 
floods, hazmat incidents, any type of disaster America has. It 
is not the National Guard there first. It is not the Marine 
Corps teams, it is not the FEMA bureaucrat, and it is not the 
State officials. It is the men and women who serve in those 
32,000 departments.
    And in fact, we have been giving them more and more 
responsibility as we see the need to prepare for the 
consequence management that will come from the potential use of 
a weapon of mass destruction.
    Now, in the history of this country we have seen fit at the 
federal level to help other people respond to disasters like 
our police. Our current federal appropriations are in the 
neighborhood of $4 billion a year. We even pay for half the 
cost of the police vest for local police to be protected 
against bullets that might injure or kill them. We help them 
buy police cars, we help them pay for detectives. 
Unfortunately, the amount of money that we spend on the fire 
and EMS community, in spite of the increased support that they 
need for dealing with weapons of mass destruction or terrorism, 
is basically nonexistent.
    Now, we have plussed-up money. That money has largely gone 
to the Justice Department for use for training, but the fire 
service again is not directly benefiting from the allocation of 
those dollars. What we are saying is, it is time that we 
respond to America's domestic defenders to give them additional 
resources to continue to do what they have been doing.
    We do not want to take those volunteers and stop them from 
volunteering. We want to stop them from having to have chicken 
dinners and tag days to pay for that $750,000 ladder truck. We 
want them to focus more on training while we assist them with 
the tools they need to continue to volunteer to serve our towns 
and our counties and our cities, and that is why it is 
important that we look toward some Federal assistance.
    Now, there is legislation out there to do that. Mr. 
Pascrell has a bill, which I have cosponsored, that will do 
that. There are other bills dealing with hepatitis C, for 
instance, that Bob Brady has introduced, other bills that have 
been introduced, but the important point is, Senator, that I 
think we need to have the Federal Government look to provide 
some support.
    For all these disasters we have suffered we are willing to 
put billions of dollars to help communities respond to 
disasters. We are willing to put billions of dollars to help 
the military respond, for the equipment they have used, but we 
have not put a dime onto the table to help the firefighters 
replace the equipment that they have used, to help the 
firefighters recruit new volunteers, to help the career fire 
departments obtain additional capacity in terms of their 
support. It has been the one group that we have neglected.
    And what really offends me is, there is no other group in 
the country, except for police and the military, where each 
year 100 of them are killed. We do not lose 100 teachers, and I 
am a teacher by profession. There are not 100 teachers each 
year killed teaching school. There are not 100 Red Cross 
volunteers--and I support the Red Cross--killed.
    Every year at Emmitsburg we honor over 100 men and women 
who are killed each year in protecting their towns and their 
cities, and yet this group of people, who are largely 
volunteer, and who are killed in the course of their volunteer 
activities, we have done little to nothing in terms of 
responding to their needs.
    It is time we step up and take care of these people. It is 
time we provide some limited resources. I wish we could take 
some of that money that we give to DOD or the Justice 
Department and earmark it directly for local fire departments, 
because while some of our attempts are well-intentioned, what 
ends up happening, the Federal and the State bureaucracies 
siphon off that money. They get the bucks. They hire more 
bureaucrats, but the dollars do not end up down where they 
should, and that is down with the local fire and EMS 
departments. We need to change that.
    Now, the second thing I want to acknowledge, Mr. Chairman, 
is, we do not need to create legislation that is hollow. As a 
member of the fire service, what I tell the firefighters all 
the time is, I do not want to pass a bill, come back and have a 
press conference in front of your groups and say, well, aren't 
we great, we have passed a multibillion bill but no 
appropriation. That happened with the rural volunteer fire 
protection program. Since I have been in Congress, over a 
decade, the Congress has, in fact, reauthorized time and again 
the rural fire protection program. We have never fully funded 
that program.
    So the one meager attempt we had to assist firefighters 
across the country has never been fully appropriated by the 
Congress, and so I want to be careful that in my statement to 
this Committee, that I am not just for passing authorizing 
legislation. I want to put the money on the table, where the 
rubber meets the road.
    Now, in the House emergency supplemental bill I offered an 
amendment, which was bipartisan, which only 28 Members opposed, 
to allocate $100 million for the fire and EMS community this 
year.
    Senator Roth is championing that cause on the Senate side. 
If we could get your support to move that $100 million, that 
would be real money this year.
    Second to that, and equally important, is the need to 
create ongoing programs to provide support for the fire and EMS 
community in America, such as the Pascrell bill, and such as 
other legislation that is being proposed by other Members.
    We need to take this group of people seriously. The fire 
service does not want itself federalized. They do not want some 
big bureaucracy siphoning off money. They simply want to be 
recognized for who they are, the people who are the heart and 
soul of America, the people who are the core of our 
communities, who do not just fight the fires, as I mentioned.
    You go to every town in Arizona, Mr. Chairman, you know, 
and I have been throughout your State, in the local fire 
departments that is where you vote on Election Day. It is where 
you have the July Fourth parades emanate from, the Memorial Day 
celebrations. It is where the Boy Scout and Girl Scout troops 
meet. In almost every town in America, the fire service is the 
heart of the community.
    When a kid is lost, they call the fire department. When the 
cat is in the tree, they call the fire department. When the 
cellars need to be pumped out, they call the fire department. 
This group of people, who has the original spirit of America 
more than any other group I can think of, except for perhaps 
our military, needs to be recognized. That recognition should 
come with a Federal program to support their efforts, the needs 
they have, the training they have, and the resources that they 
need so desperately.
    Thank you.
    The Chairman. Thank you very much, Congressman Weldon, and 
thank you for your lifelong advocacy for fire safety.
    Just out of curiosity, is it not true that the Fire Safety 
Caucus is the largest in the Congress?
    Mr. Weldon. It is, with your help early on. Actually, one 
of the original cochairs with you was Vice President Al Gore. 
We have been for the last 12 years the largest caucus in the 
Congress. As you know, we meet every year. We honored you last 
year with our highest award because of your advocacy for fire 
and life safety issues, and we value and treasure your 
leadership. It has been untiring.
    You and Senator Bryan, when you both were originally on the 
Committee overseeing the U.S. Fire Administration, fought back 
Republican attempts to zero out that agency, and helped us win 
the battle against our own party to make sure the fire service 
was properly given the support that it needed at that time.
    The Chairman. Well, I thank you, Congressman Weldon, for 
your kind remarks. The fact is, you were the leader in all of 
those efforts and I appreciate your modesty. The fact is, we 
know where the credit goes, and that is to you and Congressman 
Pascrell, so I want to thank you all for being here this 
morning, and thank you for your time. I thank you for your 
commitment. Thank you very much.
    Mr. Weldon. Thank you.
    The Chairman. Could I ask for the next panel, which is 
Chief Luther Fincher, president of the International 
Association of Fire Chiefs, Mr. James Monihan, former chairman 
of the National Volunteer Fire Council, Mr. Billy Shields, vice 
president, Professional Fire Fighters of Arizona, and Chief 
James Whitworth of the Miami Township Fire and Emergency 
Service. Could I thank all of you for being here, and we will 
begin with you, Chief Fincher.

     STATEMENT OF CHIEF LUTHER L. FINCHER, JR., PRESIDENT, 
        INTERNATIONAL ASSOCIATION OF FIRE CHIEFS (IAFC)

    Mr. Fincher. Mr. Chairman and members of the Committee, I 
am Luther Fincher, chairman of the Charlotte, North Carolina 
Fire Department. I am appearing today as president of the 
International Association of Fire Chiefs. I have three goals 
today. First, I want to ensure that the Committee understands 
the increasing scope and responsibilities of today's fire 
service. It does much more than put out fires and provide 
emergency medical care.
    Second, and most importantly, I want to ask you to change 
your view and see the fire service in a new light. The fire 
service is organized locally so it can respond to individual 
needs and threats within each community. However, local fire 
services collectively carry out one of the most important 
national missions. They protect and defend our Nation's 
critical infrastructure, the people, the places, and the things 
that allow our economy, our country, even our way of life to 
function every day.
    Third, I want to ask the Federal Government to assign the 
fire and emergency services the same priority attention that it 
does to the other essential national resources that make this 
country what it is today and will be tomorrow.
    The total of today's public fire service is estimated at 
more than 30,000 fire departments, with approximately 1.1 
million members. Today's fire and emergency services have 
evolved beyond putting out fires. They have become an all-
hazard risk management organization. Even today's fires have 
radically changed.
    While technology has improved firefighter safety, new 
materials and chemicals come to market constantly posing 
greater threats than ever before. As communities expand, urban 
wildland fires threaten more and more populated areas. Then 
there is the example of joint response with law enforcement to 
shut down clandestine drug labs containing potential explosive 
materials.
    In larger communities and many smaller ones, the fire 
service responds to more calls involving emergency medical care 
than all other types of incidents, often providing the highest 
level emergency treatment available outside the hospital. This 
standard of care is constantly rising, and posing new 
challenges. The fire service ambulances transport the majority 
of patients going to our Nation's emergency departments. Here, 
too, the fire service faces numerous risks, ranging from 
infectious diseases to violent and dangerous patients.
    An important mission is our response to a growing number of 
incidents that require highly specialized rescue skills and 
equipment. The fire service is there when the child is trapped 
in the well, or struggles in swift-moving water. The fire 
service acts to bring the injured construction worker safely to 
the ground, digs through the collapsed trench or building, and 
enters the confined space of an industrial tank when the person 
cleaning it is overcome and collapses, and the fire service 
extricates injured persons from automobile accidents on 
America's roads and highways every hour of every day.
    We deal with all natural disasters. The fire service is 
there when nature strikes as well. We were there with the 
California earthquakes, when the great Mississippi River 
flooded, and when Hurricane Andrew and Hugo blew through our 
communities. The fire service was there, too, when Hurricane 
Floyd devastated my home State of North Carolina.
    Terrorism is another role. Natural disasters are not the 
only unpredictable threat, though. The fire service skills 
continue to be challenged by the terrorist who seeks to destroy 
the lives of others. These skills were put to the test when 
brave men and women were organized within local fire 
departments to respond to the Federal building disaster in 
Oklahoma City, as FEMA supported urban search and rescue teams.
    However, the terrorist threat does not always come from a 
bomb made of fertilizer. Today, it may be a device containing a 
nuclear, biological, or chemical weapon. The fire service has 
to be ready for that, too. Our very freedom is at stake if we 
cannot respond.
    Our safety is paramount. We do not choose when to respond. 
We must respond every time a call for help is made. It is 
impossible to eliminate all risk from the wide variety of 
dangers we face. Given this challenge, the fire service is 
obligated to take all reasonable steps to train and equip our 
personnel so that they can operate as safely as possible. We 
have to be the solutions to our customers' problems.
    The fire service is critical to our Nation's 
infrastructure. Fire departments are organized within their 
communities, allowing them to adapt to specific local needs and 
threats. However, what binds this Nation's fire service 
together into a single resource is our national mission, to 
protect the human and physical treasures that allow the economy 
to run and this country to thrive.
    For instance, enormous quantities of hazardous materials 
travel the interstates, on railroad tracks, and through the 
air, and on the water every day. Without the Nation's fire 
service standing by, our citizens would not have the peace of 
mind to allow this transport and commerce to take place.
    Our role in protecting commerce also extends to the 
buildings and workers who carry out the electronic 
communications and financial business fueling our Nation's 
economic growth. The fire service must be a high priority.
    Three years ago, the Presidential Commission on Protection 
of the Critical Infrastructure identified the fire service as 
integral to the protection of our Nation's vital 
infrastructure. Therefore, it must be assigned the same 
priority given to other essential components that make up the 
very fabric of our Nation. We are truly America's domestic 
defenders.
    In closing, a final thought. S. 1941 contains a provision 
that not less than 10 percent of the total funds available will 
be set aside exclusively for fire prevention programs. We 
respectfully suggest that individual fire departments be given 
the latitude to use Federal grant funds to respond to their own 
more urgent needs, instead of a blanket Federal directive that 
may not meet local requirements. In this regard, we support the 
House version without the 10-percent set-aside.
    Mr. Chairman, we thank you for holding this hearing today, 
and I am available to respond to questions.
    [The prepared statement of Mr. Fincher follows:]

    Prepared Statement of Chief Luther L. Fincher, Jr., President, 
            International Association of Fire Chiefs (IAFC)

    Mister Chairman, and members of the Committee, I am Luther Fincher, 
chief of the Charlotte, NC Fire Department. I am appearing today as the 
President of the International Association of Fire Chiefs (ICHIEFS).
    The International Association of Fire Chiefs is a professional 
association comprised of over 12,000 senior fire and emergency 
officials in all fifty states. ICHIEFS provides a variety of services 
to its members including the representation of America's fire 
departments before the federal government.
    Public policy positions are the result of consensus among members 
as articulated by ICHIEFS' elected Board of Directors. ICHIEFS 
maintains eight regional divisions and six special interest sections, 
such as the volunteer chief officers and emergency medical services 
sections. In addition, committees are formed to address specific issues 
such as hazardous materials, health and safety, and communications. 
These committees provide a forum for fire chiefs with relevant 
expertise to formulate national solutions to problems that confront the 
fire service.
    The organization's president is elected at-large by the full 
association membership and serves a term of one year. Each of sixteen 
board members is elected regionally or by special interest section. 
Founded in 1873, ICHIEFS and its 30-member staff are headquartered in 
Fairfax, Virginia.
    We appreciate the opportunity to testify before this Senate 
Committee on Commerce, Science and Transportation in support of S. 
1941, the Firefighter Investment and Response Enhancement (FIRE) Act 
authored by Senators DeWine and Dodd. We have previously testified in 
the House of Representatives in strong support of HR 1168, a measure 
similar to the Senate bill.
    The legislative proposal to establish a federal grant program to 
benefit the fire and emergency services has merit and a basis for 
federal policy. It is important first, however, to understand the 
mission and scope of America's fire and emergency services.
Mission of the Fire Service
    The mission of America's fire service was clearly spelled out in 
legislation that defined fire fighter activities. It passed in this 
Congress and was recently enacted as Public Law 106-151. Fire fighter 
is now defined in the Fair Labor Standards Act as an employee who: ``. 
. . is engaged in the prevention, control, and extinguishment of fires 
or response to emergency situations where life, property, or the 
environment is at risk.'' The activities included are: ``fire fighter, 
paramedic, emergency medical technician, rescue worker, ambulance 
personnel, or hazardous materials worker.''
    The image of the fire service is most often associated with fire 
suppression activities. However, fire departments have evolved into 
multi-hazard risk management and emergency response forces. The mission 
has expanded to include a wide range of threats to public health and 
safety and the fire department is expected to take whatever action is 
necessary in any situation. The fire service has also become 
increasingly involved in protecting the environment.
    While the specific functions performed by different fire 
departments vary considerably, the overall fire service mission can be 
described as encompassing five primary areas:
    1. Fire Suppression
    2. Emergency Medical and Rescue Services
    3. Hazard Control and Risk Abatement
    4. Fire Prevention and Public Education
    5. Enforcement of Fire and Safety Codes, Laws and Regulations

    This broad definition of the fire service mission includes the 
primary responsibility for emergency response and intervention in 
situations that have the potential to harm persons or property, as well 
as efforts to manage risks, reduce vulnerability to potential threats 
and prepare for situations that could occur at some time in the future.

Fire Suppression--The United States has more fire suppression 
capability, in terms of fire fighters, vehicles and equipment, than any 
other industrialized nation. The United States also has a relatively 
high rate of fires in comparison with other industrialized nations, 
which tends to justify the emphasis on fire suppression capability. The 
rate of fires is particularly high in low income areas and older urban 
areas, many of which would be highly susceptible to very large and 
damaging fires if they did not have effective fire fighting forces. The 
U.S. also has an unacceptably high rate of fire fighter injury and 
death.
    The basic strategy of fire suppression combines rapid response to 
control fires while they are small (offensive strategy), along with the 
ability to confine and overwhelm any fires that exceed the capabilities 
of the initial attack (defensive strategy). The great majority of fires 
are successfully controlled, particularly in urban areas where fire 
departments are generally deployed to respond within 3 to 5 minutes to 
any fire that occurs--most structure fires do not spread beyond the 
room of origin and few involve more than a single building. The total 
capability of the fire suppression resources that are available in most 
urban areas can confine or control very large fires.
    The fire suppression capability does not always equal the level of 
fire risk, particularly in smaller communities and rural areas. The 
massive ``urban/wildland interface'' fires that often threaten suburban 
areas and small communities in the western states, illustrate that the 
combination of high winds, low humidity and limited water supplies can 
overwhelm the capabilities of any fire suppression forces.

Emergency Medical Service--In most cities the fire department responds 
to more medical calls than fires or any other types of incidents. Over 
the past 20 years there has been a major shift by fire departments 
toward providing emergency medical service (EMS), accompanied by very 
significant advances in the accepted standards of emergency medical 
care. Approximately 60 percent of the emergency medical service in the 
United States is provided by fire department-based organizations.
    This expansion of the mission has resulted in a large increase in 
the total number of emergency responses by fire departments. In some 
cases the fire suppression and emergency medical service functions are 
fully integrated, with personnel trained and equipped to perform both 
missions, while other fire departments have separate EMS or ambulance 
divisions.
    Where the fire department is not the primary provider of EMS, it is 
often the ``first responder'' agency, working with a separate EMS 
department or a private ambulance company. A ``first responder'' is 
dispatched to situations where a patient's condition requires rapid 
intervention and a fire suppression unit can reach the patient more 
quickly than an ambulance. Whether it is the primary provider or a 
first responder agency, the fire suppression force is likely to be a 
major component of the medical response capability for a mass casualty 
incident, as well as the primary rescue resource.

Rescue--In most areas the fire department is also responsible for 
conducting rescue operations, which range from relatively simple to 
highly complex and dangerous situations. All fire fighters have at 
least basic rescue skills and many fire departments have rescue 
companies that are trained and equipped to perform more complicated 
rescue operations. There have been major advances in training, 
equipment and technical skills related to rescue over the past two 
decades, which have resulted in the development of many specialized 
technical rescue teams for particular types of incidents.
    The list of rescue specialties includes vehicle extrication, 
confined space rescue, swift water and underwater rescue, urban search 
and rescue (rescue of victims from collapsed structures), high angle 
rope rescue, mountain rescue and several others. Specialized rescue 
teams are usually developed to deal with the types of incidents that 
are most likely to occur in a particular community or region. In many 
cases the teams are made-up of individual fire fighters who have the 
advanced training, while others involve fire suppression companies that 
have been designated to perform specific technical rescue functions in 
addition to their regular duties.

Hazard Control, Risk Abatement and Technical Operations--Fire 
departments are generally responsible for the regulation and control of 
other types of hazards particularly the transportation, storage, 
handling and use of hazardous materials (hazmat). This includes the 
responsibility for responding to incidents that involve spills and 
releases of hazardous substances, which would also include terrorist 
incidents that involve explosives, nuclear materials and biological or 
chemical agents.
    Some fire departments, particularly in major cities, have dedicated 
hazardous materials units that specialize in performing the technical 
response functions, while others have organized special teams similar 
to the special rescue teams. Regional response teams often involve 
participants from more than one fire department.

Fire Prevention & Public Education--During the past 20 years there has 
been a significant decline in the number of fires and in the number of 
fire deaths and injuries in the United States, most of which can be 
attributed to improvements in fire prevention and public fire safety 
education. Fire prevention measures decrease the level of fire risk by 
eliminating hazards, requiring safe construction and ensuring that 
systems to detect and control fires are installed and properly 
maintained. Public education efforts are designed to increase public 
awareness of hazards and to teach safe practices. Public education 
programs have also become a vehicle to train the public in appropriate 
self-help procedures and to develop community based response 
capabilities for other types of emergency situations, such as 
earthquakes and hurricanes.
    Because of this success, the Federal Emergency Management Agency 
asked the fire service to join in its Project Impact to help build 
disaster-resistant communities. Just a year ago, ICHIEFS and numerous 
other fire service organizations formed the Project Impact Fire 
Services Partnership for Disaster Prevention. The goal is to broaden 
the traditional fire prevention role of the fire service to assist the 
comprehensive effort to build disaster-resistant communities.

Law Enforcement--The fire department is usually responsible for 
investigating and determining the causes of fires, which is the first 
step in most arson investigations. Some fire departments have full 
responsibility for investigating arson, while others work with state 
fire marshals or with police investigators on criminal cases. Federal 
law enforcement agencies, particularly the Bureau of Alcohol, Tobacco 
and Firearms and the Federal Bureau of Investigation (FBI), have 
increased their involvement in arson cases and expanded their 
relationships with local fire investigations units in recent years.
    In addition to regulating the storage and use of explosives within 
local jurisdictions, several fire departments are directly involved in 
investigating bombings and some operate the local bomb squads. The fire 
service is likely to be the first responding agency to terrorist 
incidents to provide medical treatment, conduct search and rescue 
operations, control fires and deal with explosives, chemical agents and 
other types of hazards. This involvement in terrorist incidents 
requires a close working relationship with investigating agencies to 
identify, protect and recover evidence.
    Many fire departments also work closely with the Drug Enforcement 
Administration and other law enforcement agencies in shutting down drug 
labs that utilize dangerous chemicals. Some fire departments have 
assigned medical personnel to train with police SWAT teams and support 
their operations.
    The application of fire prevention codes, life safety codes and 
building codes to limit the level of fire risk is an additional law 
enforcement function. The fire service is also increasingly involved in 
the enforcement of environmental protection regulations relating to the 
storage and use of hazardous materials.

Fire Department Organization
    The fire service exists in many different forms throughout the 
United States and encompasses a very large number of individuals and 
organizations. Although it is primarily associated with local emergency 
response organizations, the fire service operates at all levels of 
government as well as the private sector. The total size of the public 
fire service is estimated at over 30,000 fire departments with 
approximately 1.1 million members.
    All major metropolitan cities in the United States and most cities 
with more than 50,000 population are protected by municipal fire 
departments and career fire fighters. The career fire service is 
estimated to include about 3,000 fire departments and approximately 
275,000 full-time paid fire fighters. The largest career fire 
department has more than 11,000 full time employees (New York City), 
while the majority have fewer than 50 employees.
    Volunteer fire departments protect most of the rural areas and 
smaller communities in the United States, as well as many of the 
suburban areas surrounding large cities. There are estimated to be 
approximately 27,000 volunteer fire departments and more than 800,000 
volunteer fire fighters in the United States.
    Some jurisdictions have what is known as combination fire 
departments where both career and volunteer fire fighters form the fire 
and emergency response. Two examples of combination departments near 
Washington, DC are Montgomery County, MD and Fairfax County, VA. There 
are many other examples across the country.
    Most of the fire departments in the United States operate at the 
local government level. However, there are many variations in their 
organization and structure in different states and regions. Fire 
department organization structures are often based on a combination of 
history and tradition, as well as state legislation.

Local Government--Most career fire departments are organized as part of 
a municipal government and supported by local tax revenues. The Fire 
Chief usually reports directly to the Mayor or City Manager or to an 
appointed Public Safety Director or Commissioner. While most towns and 
cities operate their own fire departments, others have joined with 
neighboring communities to operate unified fire departments and some 
obtain services from a neighboring community or from a county or 
regional fire department.
    Fire districts are separate governmental bodies that are organized 
specifically to collect and appropriate tax revenues for the limited 
purpose of providing fire department services. Most fire districts are 
established by counties to protect unincorporated areas and they often 
have their own elected fire commissioners or appointed governing 
bodies. Incorporated communities sometimes contract with fire districts 
to serve their areas or delegate a portion of their local taxing 
authority to a fire district to obtain their services. Fire districts 
also have the option of contracting with another provider, such as a 
nearby town or city, instead of operating their own fire department to 
deliver the service.
    The relationships between volunteer fire departments and local 
governments are much more variable, particularly from state to state. 
Volunteer fire departments are often established as independent non-
profit corporations and many are supported by non-tax revenues, 
including a wide range of fund raising activities. In other cases they 
are supported by fire district taxes or direct appropriations from 
counties or municipalities.
    In some states volunteer fire departments are established by state 
charter and are independent of any local government authorities. While 
there may be no direct structured relationship between the volunteer 
organization and the local government, there is usually some form of 
official authorization or delegation of responsibility to the volunteer 
fire department to provide emergency services to the community. These 
relationships are often based on local history and regional traditions.
    Volunteer fire chiefs and officers are often elected by the members 
of their departments, although their authority to act as public safety 
officials is generally established through state legislation or through 
official appointment by the local governmental body. In many cases an 
elected volunteer fire chief has the same legal authority and 
responsibilities as a fire chief who is appointed by the chief 
executive of a city, town or county, although this varies considerably 
with state and local laws.

Other Public Fire Departments--The federal government, many state 
governments and other quasi-governmental bodies, such as airport 
authorities and port authorities, also operate fire departments. Some 
of these fire departments are highly specialized, such as airport fire 
departments, while others are very similar to local fire departments. 
The on-site fire departments often have reciprocal mutual aid 
relationships with surrounding fire departments and some routinely 
respond to calls in the immediate area around their facilities.
    Each of the armed forces operates its own network of fire 
departments to protect their larger bases and facilities. Several other 
federal agencies operate fire departments to protect their large and 
high risk facilities, particularly where the risks exceed the 
capabilities of the local fire service. Local fire departments often 
provide protection for federally owned and operated properties within 
their geographic areas, including many smaller military installations.

Private Fire Protection--There are a few private companies that provide 
fire department services as contractors to municipalities or fire 
districts. Where there is no public fire protection, some of these 
companies offer their services to individual property owners on a 
subscription basis. The relationship of these private fire departments 
with surrounding public fire departments is often limited.

Industrial Fire Departments--Many large industrial facilities operate 
their own fire departments or fire brigades, particularly large 
installations that involve exceptional risks or have special 
requirements. These on-site fire departments protect many strategically 
significant facilities, such as nuclear power stations, oil refineries 
and chemical plants that require very specialized capabilities. The on-
site fire departments may have to be self-sufficient, particularly 
where the location is geographically isolated or the risks are beyond 
the capabilities of conventional fire departments. In a few areas, 
where there are many facilities with their own fire departments, they 
have established extensive mutual aid arrangements with each other, 
similar to mutual aid agreements among public fire departments.
    When the facility is located within a jurisdiction that has a 
public fire department, the operations of the industrial fire 
department are usually subject to the command authority of the local 
fire chief, who has the legal responsibility to ensure that public 
safety is the first priority. In addition to providing the expertise 
and specialized equipment that may be essential for an on-site 
emergency, these organizations can often be a valuable resource to the 
public fire service--some participate in mutual aid networks as 
specialized resources and respond outside their facilities to assist 
public fire departments.
    This fairly describes the mission of the fire service. It is 
apparent that the fire service is multifaceted and, indeed, an all-risk 
emergency response service.

Federal Government Relationships
Operational--The federal government has a major role in relation to 
emergency management and disaster planning, as well as the response to 
and recovery from declared disasters. The Federal Emergency Management 
Agency (FEMA) manages the disaster assistance programs that support and 
assist state and local jurisdictions when a federal disaster is 
declared. When this occurs a strong temporary relationship is often 
established with the local fire service, particularly where the fire 
chief is also responsible for a community's emergency management 
functions.
    In most cases the mobilization of local resources to assist in 
disaster response and recovery operations is coordinated through state 
emergency management agencies. FEMA operates the Urban Search and 
Rescue (USAR) Program, which involves 27 locally based response teams. 
The USAR teams can be dispatched to major incidents anywhere in the 
United States that involve heavy rescue operations, such as collapsed 
buildings. Most of the USAR teams are operated by fire departments and 
fire department members are involved in all of the teams. These teams 
are an integral component of the response plan for earthquakes and 
hurricanes, as well as major terrorist incidents, such as the Oklahoma 
City bombing.
    FEMA also includes the United States Fire Administration and its 
National Fire Academy, which are responsible for several programs and 
advanced education opportunities for the fire service. Both of these 
agencies are located at the National Emergency Training Center in 
Emmitsburg, Maryland, which is also the focal point for training state 
and local officials in emergency management. The U.S. Fire 
Administration programs provide valuable assistance to local fire 
departments, but the agency does not directly fund, regulate or 
participate in the delivery of fire services.
    Several other federal agencies have programs that support or 
involve relationships with the fire service. These include the 
Department of Transportation, which is particularly involved with 
hazardous materials transportation, as well as the Coast Guard and the 
Environmental Protection Agency, which are concerned with spills and 
releases of hazardous materials. The Department of Energy works with 
FEMA in providing training programs for emergency responders relating 
to radioactive materials. The Federal Aviation Administration provides 
funding for many airport fire departments and conducts research related 
to aircraft fire fighting and rescue operations.
    The Department of Transportation supports emergency medical 
services through the National Highway Traffic Safety Administration. 
The Public Health Service is also involved in supporting emergency 
medical services and recently initiated the Metropolitan Medical 
Response Systems (MMRS) program, which involves fire departments in 
several metropolitan areas.
    The Department of Justice is working with fire departments on 
counterterrorism training programs. The Bureau of Alcohol, Tobacco and 
Firearms and the FBI both work with local fire investigators on arson 
investigations, bombings and related cases, and the Drug Enforcement 
Administration has a relationship with many fire department hazardous 
materials teams due to the problem of hazardous chemicals that are 
involved in many drug labs. The Department of Justice also operates the 
Public Safety Officer Benefits Program, which covers deceased and 
disabled firefighters.
    The Department of Defense under the Nunn/Lugar/Domenici Amendment 
will provide training to the fire departments of 120 major metropolitan 
areas to plan and prepare for terrorist activities that involve 
nuclear, chemical and biological agents. This program will end once all 
120 jurisdictions receive the training. In the meantime, the program 
will be turned over to the Department of Justice for management on 
October 1, 2000. The fire departments that are operated by the 
Department of Defense often work closely with local fire departments 
and provide a valuable back-up resource for many communities. The 
Department of Defense has also assisted fire departments in training 
with explosive devices and sponsors many research projects that have 
proven to be valuable to the public fire service.
    The federal and state governments have the primary responsibility 
for fighting wildland fires, particularly on state and federal lands. 
The forces that provide wildland fire protection are usually seen as a 
separate branch of the fire service and have a fairly limited 
relationship to the fire departments that protect most urban and built-
up areas, although it is not unusual for urban fire departments to 
become involved in wildland interface fire fighting operations. Some 
local fire departments have contractual agreements to provide the 
initial attack on wildland fires on state or federal lands and 
participate in the nationwide system for major wildland fires.

Regulatory--The federal government has a number of administrative 
regulations which impact upon the fire service. Some of these 
regulations have been supported by the fire service such as OSHA's 
respiratory protection standard, hazardous materials response, and 
bloodborne pathogens. Other regulations such as EPA's emissions 
standards which significantly affect the costs of diesel engines and 
the FCC authority over wireless radio systems used by emergency 
responders are merely adhered to. But each federal regulation brings 
with it a cost to the fire department in terms of training 
requirements, additional equipment needs, and increased purchase price 
for apparatus and equipment. These are basically unfunded mandates 
where local government entities or volunteer fire and rescue companies 
bear the costs.
Fire Service Part of U.S. Infrastructure
    Three years ago, the Presidential Commission on Protection of the 
Critical Infrastructure identified the fire service as a key component 
of the protection of this country's critical infrastructure. The 
Commission declared the fire service an integral part of that 
infrastructure. The fire service is, in fact, part of the very fabric 
of America.
    But today's fire service is no longer penned-in by jurisdictional 
boundaries. Most metropolitan areas have mutual aid agreements which 
routinely find fire companies operating outside their jurisdiction. 
There is an increase in highway incidents along the federal interstate 
highway systems to which local units respond. Increased cargo tonnage 
moving by truck, rail, ship and aircraft are increasing not only as a 
result of business expansion but from international trade agreements 
approved by the federal government. This increase in commerce is 
directly associated with increased incidents requiring emergency 
response. This is particularly true in the instances of response to 
hazardous materials incidents.

ICHIEFS Calls for Federal Grant Program
    Mister Chairman, I have described the mission of the fire and 
emergency service. Our service covers the entire United States, 
protects the property therein, and serves virtually every citizen and 
visitor in this country. The fire and emergency service is an all 
hazards response service including some aspects of law enforcement. The 
Presidential Commission on Protection of the Critical Infrastructure 
identified five components of the U.S. critical infrastructure. 
America's fire and emergency service protects all segments of that 
critical infrastructure and is part of that critical infrastructure 
responsible for the continuance of government. And this is so, not just 
because a commission says so, but because it is the reality.
    We are our nation's domestic defenders. We are based locally but 
willingly share a national responsibility to protect our nation from 
all forms of disaster--natural and manmade, large and small. Congress 
needs to understand the breadth in scope and the depth in impact of 
today's fire service which touches every part of our nation. And 
Congress needs to support this service with a federal grant program 
that promotes the safety and health of the emergency responders to 
assure that they can better serve the citizens and our nation.
    Thank you for the opportunity to appear before this Committee. I am 
prepared to answer any questions which you or the members of your 
Committee may have.

    The Chairman. Thank you very much, Chief Fincher.
    Mr. Monihan.

    STATEMENT OF E. JAMES MONIHAN, FORMER CHAIRMAN, CURRENT 
 DIRECTOR, STATE OF DELAWARE, NATIONAL VOLUNTEER FIRE COUNCIL 
                             (NVFC)

    Mr. Monihan. Good morning, Mr. McCain and Mr. Kerry. I am 
James Monihan, former Chairman of the National Volunteer Fire 
Council, and now serve as its Director representing the State 
of Delaware. I am also a firefighter in Lewes, Delaware Fire 
Department with 43 years service, and continue to respond to 
alarms.
    During my career, I have had experience in all facets of 
the life of fire and EMS personnel, from firefighting and all 
types of rescue, through hazardous materials, the ambulance 
service and, yes, the cat in a tree. The volunteer service also 
has a unique facet, that of administration, since firefighters 
in the volunteer service are the department.
    The entire fire service needs your help, and it is a 
distinct privilege to be here before you today to bring you our 
message on behalf of the National Volunteer Fire Council. It is 
the voice of the 850,000 men and women who staff some 28,000 
volunteer departments in every state of the Union. There is no 
doubt that we need financial assistance and, believe me, I have 
experience in the last 43 years of asking for it. I have gone 
door-to-door. I have spent Saturday afternoons sitting by a 
collection can next to an ambulance in a shopping center, and I 
have seen other volunteers pass collection boots at traffic 
lights while it is red.
    In fact, we had a department who did not have a traffic 
light, so they stopped traffic. Some people do not have a sense 
of humor, so they got into a little trouble, but they got the 
job done.
    Ingenuity, however only goes so far. One of the largest 
problems faced by America's fire service is funding. Most 
volunteer departments serve small, rural communities, and are 
the only line of defense. Unfortunately, these departments are 
struggling to provide their members with adequate protective 
clothing, safety devices, and training.
    At the same time, the federal government is asking the fire 
service to respond to calls involving terrorism, hazardous 
materials, natural and manmade disasters, urban and wildland 
interface fires. Many of these emergencies occur on federal 
property such as national parks, buildings, and lands.
    Your investment in the fire service in this case ultimately 
protects the Federal property from fire losses and human 
tragedy. In this instance, your support can be viewed as 
payment for services rendered, the same as a homeowner who 
gives a contribution or buys a ticket to a fundraiser for the 
volunteer fire department.
    In addition, when federal dollars are used to build new 
interstate highways, they usually run through small communities 
protected by volunteer departments. These small-town fire 
companies must now respond to a huge influx of auto accidents, 
many involving hazardous materials. They are already struggling 
to handle their own needs and finances, and are now forced to 
provide more services and receive no financial assistance for 
their responses.
    Many rural departments operate on budgets of less than 
$10,000 a year. On that small budget it is very difficult to 
pay for insurance premiums, buy fuel, and upkeep of equipment, 
much less buy new equipment. These departments often are using 
fire trucks from the 1950's and 1960's as first response 
vehicles, and self-contained breathing apparatus that should 
have been taken out of service long ago, according to NFPA 
standards. It is old, but it is all they have.
    An example of how a lack of equipment and training can lead 
to tragedy happened on April 6, 1999, when two firefighters 
lost their lives trying to escape a wildland fire burning 
outside of Morehead, Kentucky, on the edge of the Daniel Boone 
National Forest.
    Subsequently, specialists from the National Institute of 
Occupational Safety & Health, NIOSH, investigated the incident, 
and they concluded that to minimize similar occurrences fire 
departments engaged in wildland firefighting should provide 
firefighters with wildland personal protective equipment. They 
should equip them with approved fire shelters and provide 
training on the proper use of the fire shelters, and we 
certainly agree with that.
    But we are also confident that an increase in Federal 
funding is the only way a small department such as this could 
possibly purchase the equipment and provide the training needed 
to comply with NIOSH's recommendations.
    By the way, we all fight wildland fires. The gear is 
costly, and unfortunately you just have to make a choice. There 
are departments like this in every state across this country. 
It is ironic that all the federal agencies and, yes, even 
Congress, can adopt mandates for the fire service. However, 
these departments are the only line of defense in those 
communities, and if they cannot meet those mandates and 
standards, what happens then?
    The funding problems in America's volunteer service are not 
just limited to rural areas. The suburbs continue to grow, as 
Senator Hollings said earlier. So does the burden on the local 
fire and EMS departments. Even though many of these departments 
have the essentials, they are unable to gain access to new 
technologies.
    At no time in our history have advances been greater in 
equipment to protect the firefighter and make his job easier, 
or her job easier--pardon me--yet because newer technology is 
so expensive many departments are not able to purchase it.
    For instance, there are personal assisted safety signal 
devices that can be attached to a firefighter. The PASS will 
emit a loud signal if the firefighter is trapped or becomes 
disabled.
    There are thermal imaging cameras to locate victims in 
smoke, global position systems which allow dispatchers to 
dispatch the closest fire department to the fire, fiber optic 
ropes that contain tiny lights to lead a firefighter as he 
retraces his way out of the smoke-filled structures, and 
compressed air foam, a fire-retardant that increases the 
surface area of water, helping to extinguish fires three to 
five times more quickly.
    Unfortunately, most volunteer departments are unable to 
take advantage of this new technology because of budget 
restraints. Do you have any idea how many pancake breakfasts it 
takes to buy a $25,000 imaging camera? Many departments can 
tell you, because that is how they bought it.
    These constant fundraising demands also are intertwined in 
every aspect of the volunteer fire and emergency services, 
affecting the recruitment, retention of members, and the 
ability to train them, because they eat up a very valuable 
commodity called time.
    The volunteer fire service represents a national resource 
of enormous value that must be supported and nurtured. This 
Committee and the Senate as a whole can make great strides in 
supporting us through the Fire Investment and Response 
Enforcement, or FIRE Act.
    When I began my testimony, I stated the volunteer fire 
service is in need of your assistance, and that you, as Members 
of the Senate, could make a difference with the necessary 
funding. I hope I have painted a picture that illustrates that 
need as real, that the moneys do go a long way--we can squeeze 
a dollar--and that the support of the fire service by Congress 
is, indeed, a national concern.
    Finally, we recommend that any funding that Congress 
provides for the fire service be handled in a manner similar to 
the volunteer fire assistance program. In that program, almost 
all the moneys appropriated go to the intended purpose in the 
fire service, because it is structured in a way that the 
funding cannot be diverted and is not eaten up with 
administrative fees.
    Thank you for your attention. Thank you for the 
opportunity, and if you have any questions I would be glad to 
answer them.
    [The prepared statement of Mr. Monihan follows:]

   Prepared Statement of E. James Monihan, Former Chairman, Current 
  Director, State of Delaware, National Volunteer Fire Council (NVFC)

    Mr. Chairman and members of the Committee, my name is James 
Monihan. I am the Former Chairman of the National Volunteer Fire 
Council (NVFC) and currently serve as their Delaware State Director. I 
am also a firefighter in the Lewes Fire Department in Lewes, Delaware. 
I have served as a volunteer firefighter for 43 years and still respond 
regularly to calls. I have had experience in all phases of the life of 
a first responder, including chemical and hazardous materials 
incidents, EMS, rescue and fire. On behalf of the volunteer fire 
service, I appreciate the opportunity to comment on the needs of 
America's volunteer fire service addressed in S. 1941, the Firefighter 
Investment and Response Enhancement (FIRE) Act. The National Volunteer 
Fire Council strongly supports passage of this piece of legislation, 
which currently has 32 bipartisan cosponsors in the Senate and 276 in 
the House. America's fire and emergency services are in need of your 
assistance and you, as Members of Congress, can make a difference with 
the necessary funding.
    The NVFC represents the interests of the nation's more than 800,000 
volunteer firefighters, who staff America's 28,000 volunteer fire 
departments located in every state of the Union. According to the 
National Fire Protection Association (NFPA), nearly 75% of all 
firefighters are volunteer. More than half of the approximately one 
hundred firefighters that are killed each year in the line of duty are 
volunteers. In addition to the obvious contribution that volunteer 
firefighters lend to their communities, these brave men and women 
represent a significant cost saving to taxpayers. A 1991 study 
commissioned by the National Institute of Standards and Technology 
(NIST) concluded that it would cost taxpayers $36.8 billion each year 
to convert volunteer fire departments to career departments. According 
to a September 1999 study by the State Auditor of my home state of 
Delaware, the volunteer fire service in Delaware saves taxpayers more 
than $116 million per year.
    One of the largest problems faced by America's volunteer fire 
service is funding. Most volunteer departments serve small, rural 
communities and are quite often the only line of defense in those 
communities. Unfortunately, these departments are struggling to provide 
their members with adequate protective clothing, safety devices and 
training to protect their communities.
    At the same time, the federal government is asking the fire service 
to respond to calls involving terrorism, hazardous materials, natural 
and man-made disasters and wildland/urban interface fires. Many of 
these emergencies occur on federal properties such as national parks 
and lands. Wild fires that are kept small are less expensive to 
extinguish and cause much less damage. Your investment in the services 
of these rural fire departments ultimately protects federal and private 
lands from fire losses and human tragedies. In this instance, your 
support can be viewed as payment for services rendered the same as a 
homeowner who gives a contribution or buys a ticket to a fundraiser for 
their volunteer fire department.
    In addition, when federal dollars are used to build new interstate 
highways, they often run through small communities protected by a 
volunteer fire department. These small town fire companies must respond 
to huge influx of auto accidents, some involving hazardous materials. 
They are already struggling to handle their own needs and finances, and 
are now forced to provide more services, and receive no compensation 
for their responses.
    Many rural departments operate on budgets of less than $10,000 per 
year. On that small budget, it is very difficult for these departments 
to pay for insurance premiums, fuel, and upkeep of equipment, much less 
buy new equipment. These departments are using fire trucks from the 
1950s and 60s and self-contained breathing apparatus that should have 
been taken out of service a long time ago according to NFPA standards. 
In some counties, it can take up to 40 minutes for an ambulance to 
arrive and as long as an hour and 10 minutes for a rescue tool, 
commonly called ``the Jaws of Life,'' to get to the scene of a car 
accident. Some departments have only one or two radios and no alerting 
system. When there is an emergency call for them, the county Sheriff's 
Department notifies them by telephone. If they are not near their 
phone, they've missed the call.
    On April 6, 1999, two volunteer firefighters died while trying to 
escape a wildland fire burning outside of Morehead, Kentucky. 
Subsequently, two Safety and Occupational Health Specialists from the 
National Institute for Occupational Safety and Health (NIOSH), Division 
of Safety Research, investigated the incident. They concluded that, to 
minimize similar occurrences, fire departments engaged in wildland 
firefighting should provide firefighters with wildland personal 
protective equipment (PPE) that is compliant with NFPA standards, they 
should equip firefighters with approved fire shelters and provide 
training on the proper use of the fire shelters, and they should learn, 
communicate, and follow the 10 standard fire orders as developed by the 
National Wildfire Coordinating Group (NWCG). The NVFC is confident that 
an increase in federal funding is the only way a small volunteer 
department such as this one could purchase the equipment and provide 
the training needed to comply with NIOSH's recommendations.
    There are departments like this in every congressional district 
across this country. It is ironic that all of the federal agencies and 
even Congress can adopt mandates on the fire service. However, these 
departments are the only line of defense in these communities and if 
they can't meet these mandates, what happens?
    The funding problems in America's volunteer fire service are not 
just limited to rural areas. As suburbs continue to grow, so does the 
burden on the local fire and EMS department. Even though many of these 
departments have the essentials, they are unable to gain access to new 
technologies. At no other time have advances been greater in equipment 
to protect them and make their jobs safer. Yet because the newer 
technology is so expensive, many volunteer fire departments are forced 
to use outdated equipment.
    For instance, many firefighters can now wear an encapsulated 
ensemble of fireproof gear, along with lined helmets that absorb shock, 
and hoods that protect exposed head and neck parts. There's also a 
Personal Assisted Safety Signal, or PASS, device that is attached to 
the firefighter. The PASS will emit a loud signal if the firefighter 
gets trapped or becomes disabled. Older versions required firefighters 
to sound the device themselves. Newer models sound a 110-decible alarm 
if a firefighter remains motionless for 25 seconds. Each PASS device 
sells for $125.
    Instead of the traditional gear that weighs between 40 and 60 
pounds, lighter weight air bottles and materials have lightened 
firefighters' loads, decreasing their physical stress. However, turnout 
gear costs more than $1,000 per set and self-contained breathing 
apparatus are close to $3,000 each.
    Perhaps the best advance in fire equipment in the past 25 years--
and the most expensive--is the thermal imaging camera. The cameras, 
which can cost up to $25,000, are used to distinguish items of various 
temperatures in a smoke-filled room. Firefighters can make out a human 
body through thick smoke or can hone in on fire ``hot spots'' without 
having to tear entire structures apart. Older models were mounted on 
helmets; newer versions are hand held, adding flexibility to searches.
    Other advances include Global Positioning Systems, which allow 
dispatchers to send out fire companies nearest to a fire; fiber-optic 
ropes, which contain tiny lights to help firefighters retrace their way 
out of smoke-filled structures; and compressed air foam, a fire 
retardant that increases the surface area of water, helping to 
extinguish fires three to five times more quickly.
    Unfortunately, many volunteer fire departments are unable to take 
advantage of this new technology because of budget restraints. Do you 
know how many pancake breakfasts it takes to buy a $25,000 piece of 
equipment? Many departments can tell you, because that's how they pay 
for it. These constant fundraising demands are intertwined into every 
aspect of volunteer fire and emergency services, affecting the 
recruitment of new members, the retention of existing members, and the 
ability to train members.
    This legislation will allow departments to more adequately equip 
and train their firefighters, thereby increasing the safety level of 
the communities they protect. In addition, federal funding of local 
fire companies represents a form of local taxpayer relief. Also, as 
departments become better equipped, their Insurance Services Office 
(ISO) rating goes down, in turn lowering the insurance rates of the 
community's homeowners. The volunteer fire service represents a 
national resource of enormous value that must be supported and nurtured 
if it is to continue to fulfill its critical role in emergency services 
response. This Committee and Congress can do its part by supporting the 
Firefighter Investment and Response Enhancement (FIRE) Act.
    When I began my testimony today, I stated that the volunteer fire 
service is in need of your assistance and that you, as Members of 
Congress, could make a difference with the necessary funding. I hope 
that I have painted a picture that illustrates that the need is real, 
that the moneys do go a long way, and that the support of the fire 
service by Congress is indeed a national concern.
    Mr. Chairman, I thank you for your time and your attention to the 
views of America's fire service, and I would be happy to answer any 
questions you may have.

    The Chairman. Thank you, sir. Mr. Billy Shields. Good to 
see you, sir. I just saw in the newspaper where we have 3 fires 
going on in the state of Arizona as we speak.

 STATEMENT OF BILLY SHIELDS, VICE PRESIDENT, PROFESSIONAL FIRE 
                      FIGHTERS OF ARIZONA

    Mr. Shields. We have our hands full, sir. I want to thank 
you also for holding this hearing. As you know, I am a Captain 
in the Phoenix Fire Department. I have served on a frontline 
fire pumper for 21 years. I am also the Vice President of the 
Professional Fire Fighters of Arizona, which is an affiliate of 
the International Association of Fire Fighters.
    I greatly appreciate this opportunity to appear before you 
today on behalf of the IAFF's 230,000 professional firefighters 
and emergency medical personnel to discuss the need for funding 
to protect firefighter health and safety. I would like to ask, 
Mr. Chairman, that you include my written comments in the 
record.
    The Chairman. Without objection.
    Mr. Shields. I would like to depart from it in the context 
that I would like to try and address some of the concerns that 
you raised in your opening remarks, but first I would like to 
point to the fact that as the chiefs have expressed, and the 
panel before, is that we know there is a need today. It is not 
an if, and it is not a guess. We know that there is a need 
today, and Arizona is no exception.
    Of the 51 full time professional firefighters, fire 
departments in Arizona, all but 6 are short in one of the 
essential areas of minimum staffing, apparatus, equipment 
maintenance or training provided to new hires. Of the 
firefighters that died in the line of duty last year, and the 
ones investigated by NIOSH, every one of those deaths were 
found to have correctable problems based on one of these areas.
    Over half of the fire departments in Arizona frequently do 
not have sufficient personnel to mount a safe interior attack 
on a fire by OSHA standards, which is simply 4 people on the 
scene at the time of the entry so that 2 can go in and 2 can 
remain outside to monitor the building and be there to rescue 
the firefighters, if they themselves get in trouble. Nearly 75 
percent of the departments in Arizona do not have the money to 
provide new hires with the most basic training that is 
recommended by the National Fire Protection Administration 
Association.
    Let me talk for a minute about specific examples. Nogales, 
Arizona, you know is a border community, population of 30,000 
people, but the needs for service there far outstrip any 
jurisdiction that is that size. The daytime population of 
Nogales swells to 75 to 100,000 people, and they have a mutual 
aid agreement with Nogales, Mexico, across the border, which 
has a population of a half a million people.
    Increasingly, Nogales is having more and more hazardous 
materials transported to the tune of millions of tons a year 
through their cities. Nogales, Arizona, only has 3 fire 
pumpers, each one of them is short staffed by 1 person every 
shift every day of the year. They have only 5 trained hazardous 
materials technicians for the whole city, and all of them are 
not on duty at one time, and their equipment is woefully short.
    They do not even have the simple gauges that can test the 
air for signs of leaking fuel and leaking chemicals, and what 
equipment that they do have is carried in the back of a horse 
trailer pulled by a brush truck, and as the chiefs and the 
Congressmen before pointed out, the fire service has always 
been very creative and used the best that we have, but these 
are things I think that we are here today to talk about and 
that you should know.
    In Flagstaff, it is a community that we all know in 
northern Arizona, a small community again but millions of 
people passing through it every day at the juncture of two 
interstates. People on the way to the Grand Canyon, Las Vegas 
or Mexico. They, too, are short staffed by a person every day 
and cannot afford training for their folks.
    El Mirage, which is a ring community of Maricopa County, 
pays their firefighters on the average of $25,000 a year, 
cannot even afford decent protective clothing for their 
firefighters to the point where their firefighters are going 
out and buying their own at the cost of up to a thousand 
dollars apiece.
    Now, we can go on and on about specific examples in 
Arizona, but my point is it is not just Arizona, it is 
national, and I believe that it is a national problem. I do not 
believe it fully falls under the Federal government, but I 
believe that part of the burden does. I traveled with the urban 
search and rescue team from Phoenix to the Oklahoma City 
bombing.
    Our team was on the scene within 8 hours of the explosion 
preparing to shore up that building for search and rescue 
operations and sifting through the rubble for victims, and at 
the end of a shift when we would leave the building and walk 
down the sidewalks, people of Oklahoma stood on the sidelines 
and offered us thanks and cookies and sandwiches and drinks of 
water.
    No one questioned that that was an appropriate response of 
the Federal government, and I believe that it goes even 
further. I believe that the small communities are not able to 
provide the types of training and education, protection, and 
staffing that makes the firefighters themselves safe in order 
that they can protect their communities.
    Let me address for 1 second this notion of what are state 
and local governments doing. I can speak to that very well 
because we have been working on this in Arizona for a long 
time. As you know, Arizona has a shared revenue form of tax 
collection where they share back with the cities to help 
support local services. The larger cities have been able to do 
pretty well with that, and in a few of them we have augmented 
it by going to the voters and asking to increase the sales tax 
by a tenth of a percent to support public safety, which is 
police and fire, the lion's share of that going to police.
    I am not complaining about our services in those cities, 
but in Nogales the same thing was done. They passed the tenth 
of a percent sales tax. It is just simply not enough of a tax 
base there to give them an adequate fire service and response 
in that city. Additionally, when we approach the legislature of 
Arizona, we have always had to defend the shared revenue 
formula because in good budget years where there's surpluses, 
there's always a move to reduce the shared revenue formula and 
hold cities to a flat dollar amount rather than a percentage, 
so we are defending what we have there.
    We are not able to ask for additional amounts, and you also 
know that the pressing issues of the day in Arizona have been 
education because of the lawsuits that the state has lost 
causing the equalization of school construction finance and the 
legislature appropriating 2 years ago $150 million for that to 
find out only that that was woefully short, that the cost of 
school construction and equalization in Arizona is going to be 
closer to a billion dollars, and additionally the popular move 
for tax cuts.
    These are the things that we face. It is not that we have 
not tried. These are the things we face and the real concerns, 
and I would submit that state by state, firefighters are 
working with their cities and with their legislatures to try 
and improve their service and try and eke out the funding that 
they need.
    In closing, Mr. Chairman, I would just like to say that the 
real issue here today is the health and safety of America's 
firefighters and our ability to protect lives and property. All 
this talk about states' roles and federal roles and agencies' 
jurisdictions, obscures what the bill is about. Firefighters 
are dying. We can prove that. We can prove that there is a 
need, Mr. Chairman, and because the government cannot find the 
money to protect them, and that alone should be sufficient 
reason to enact S. 1941 without delay.
    I thank you for your attention to our views, and I would be 
happy to answer any questions you may have, and I understand 
the firefighters in Manchester treated you to a bowl of chili, 
and I would like to make a standing invitation to you and your 
family to come to station 1 in downtown Phoenix for a green 
chili burro dinner.
    [The prepared statement of Mr. Shields follows:]

         Prepared Statement of Billy Shields, Vice President, 
                 Professional Fire Fighters of Arizona

                              Introduction

    Mr. Chairman. My name is Billy Shields. I am a Captain in the 
Phoenix, Arizona Fire Department and the Vice President of the 
Professional Fire Fighters of Arizona, an affiliate of the 
International Association of Fire Fighters. I greatly appreciate this 
opportunity to appear before you today on behalf of the IAFF's 230,000 
professional fire fighters and emergency medical personnel to discuss 
the need for funding to protect fire fighter health and safety.
    Mr. Chairman, each year our nation's fire fighters respond to 
millions of calls for help from our fellow Americans. These calls range 
from fires to hazardous materials incidents to search and rescue 
operations to emergency medical care. Every day we put our lives on the 
line to protect the safety and property of our fellow citizens. In the 
last year, more than 100 of our brothers and sisters have made the 
ultimate sacrifice. The job of fire fighting is the most dangerous in 
the world, and we accept that. But we can not accept that our safety is 
being recklessly and needlessly endangered because too many fire 
departments are unable to provide the most basic training, equipment 
and staffing.
    Like most of my brother and sister fire fighters, I have attended 
too many funerals. The knowledge that many of these deaths were 
preventable angers me just as it ought to anger all Americans. In every 
one of its investigations into fire fighter fatalities, the National 
Institute for Occupational Safety and Health (NIOSH) found correctable 
problems. Proper training and equipment, adequate staffing, and other 
programs save fire fighters' lives. Unfortunately, too many 
jurisdictions are unable to provide these basic protections.

                                The Need

Arizona
    America's fire service is in crisis due to extreme funding 
shortfalls, and Arizona is no exception. Of the 51 full-time 
professional fire departments, all but 6 appear to be deficient in an 
essential area, such as minimum safe staffing levels, apparatus and 
equipment maintenance, and training provided to new hires.
    More than half of our departments either always or frequently do 
not have sufficient personnel to mount a safe interior fire attack. 
This puts us in the position of either having to await the arrival of 
additional personnel or endanger the lives of the fire fighters at the 
scene by commencing the attack without adequate back up support.
    Nearly 75% of our departments do not provide new hires with the 
basic level of training identified by the National Fire Protection 
Association (NFPA) as necessary to perform the job of a fire fighter 
safely and effectively. These jurisdictions lack funds for instructors, 
training equipment and training facilities. Throughout the state, fire 
fighters essentially receive on-the-job training, a situation which 
endangers not only the lives of the new hires but their fellow fire 
fighters and the public.

Nogales
    Nogales is a border community of approximately 30,000, but the 
demands on the fire department far outstrip many comparable sized 
jurisdictions. An extremely busy port of entry, the daytime population 
swells to an estimated 75,000-100,000 people. In addition, the fire 
department has a mutual aid agreement with the neighboring city of 
Nogales, Mexico which has a population of least half a million people.
    The Nogales fire department has two ladder companies, one of which 
is currently not in use due to lack of funding. The apparatus that is 
in use is over 20 years old, and in need of maintenance. The department 
staffs 3 engine companies, all of which run one person short every 
shift. The department shares one mechanic and one shop to maintain its 
aging apparatus with several other city departments.
    Nogales is a hub for hazardous materials transport, both by rail 
and by truck, with millions of tons of dangerous cargo passing through 
the community each year--much of it crossing an international border. 
For example, the fire department is required to escort 40,000 pound 
truckloads of ammonium nitrate through the city to the border on a 
weekly basis.
    And yet, the fire department has been able to afford the training 
of only five hazmat technicians. There is no dedicated hazmat unit, and 
the equipment is either substandard or non-existent. Hazmat equipment 
is carried on a horse trailer pulled by an aging brush truck.
    In order to meet even bare minimum safety requirements, the fire 
chief of Nogales estimates the need for a minimum of 45 additional fire 
fighters, with at least a dozen cross-trained as hazmat technicians. 
Hazmat emergency response equipment, additional maintenance personnel, 
and various pieces of apparatus are also urgent necessities.

Flagstaff
    Flagstaff is a high desert community of 60,000 that sits at the 
junction of two interstate highways, I-40 and I-17. The fire department 
is responsible not only for the safety of the citizens of the 
community, but also the millions of travelers and commercial vehicles 
passing through on their way to the Grand Canyon, historic Route 66, 
and Mexico. In addition, the community has dealt with devastating 
forest fires and faced difficult rescue missions when blizzards hit the 
11,000 foot peaks.
    Every engine and ladder company in Flagstaff is currently running 
one person short every shift. At least 24 fire fighters are needed to 
meet minimum safe staffing levels. The community can not afford to 
provide new hires with basic fire fighter training.

Bisbee
    A once thriving mining community and now a popular tourist 
destination, Bisbee is a historical and cultural treasure. The aging 
town's charm, however, provides special challenges to its fire 
department. The old buildings are especially fire prone, and packed 
closely together on narrow, winding streets. The city's water supply 
system is more than a century old.
    The Bisbee fire department has no Ladder truck, and does not have 
enough personnel for two engine companies. Most fire fighters are 
wearing personal protective equipment that is 9-10 years old, and 
little money is available for training. The city has no hazmat 
technicians or equipment, and can not afford to perform necessary 
maintenance on its aging apparatus.

El Mirage
    The economically challenged city of El Mirage is struggling to 
provide the most basic fire protection. The fire department often runs 
engines with only two fire fighters, and has been unable to replace 
defective turnout gear for its fire fighters. Some fire fighters, 
fearing for their own safety, have paid for a turnout ensemble out of 
their own pocket at a cost of over $1000.

The United States
    Mr. Chairman, I wish I could tell you that Arizona was unique in 
this dire need for funding for fire departments. The shocking truth is, 
we are sadly representative of the nation.
    Early this year the IAFF, which represents more than 90% of all the 
professional fire departments in the nation, conducted a survey of its 
State Associations. Twenty-two states participated in the survey, 
representing 1364 fire departments (54% of all IAFF Locals).
    Among the survey's findings:

  <bullet> 77% of fire departments operate with staffing levels below 
        what is needed for safe fireground operations.

  <bullet> 43% of fire departments are in need of additional turnout 
        gear (i.e. coats, gloves, helmets and boots).

  <bullet> 50% of fire departments are in need of additional 
        respirators.

  <bullet> 70% of fire departments do not have adequate maintenance 
        programs for their protective gear.

  <bullet> 66% of fire departments are in need of better communications 
        equipment.

  <bullet> 66% of fire departments are in need of additional training.

  <bullet> 59% of fire departments have poorly ventilated fire stations 
        which expose fire fighters to dangerous diesel fumes on a daily 
        basis.

                     The Federal Government's Role

    I am aware of the argument that the problems I've been describing 
are local problems and should be addressed at the state and local 
level. Congress is rightfully reluctant to fund a service without 
assurance that states and localities are doing what they can.
    But please understand, Mr. Chairman, we are not asking for the 
federal government to become the major--or even a major--funder of 
America's fire service. Local and state governments should continue to 
be the primary providers of fire service funding. But the federal 
government, too, has a role to play and a responsibility to shoulder 
its fair share of the financial burden of protecting Americans.
    Every day fire departments across the nation engage in emergency 
response activities that are national in scope. When a terrorist kills 
hundreds of federal employees in Oklahoma City, or when wildland fires 
devastate communities in New Mexico, these are national issues. When a 
trailer carrying hazardous materials overturns on an interstate 
highway, or when border inspectors discover leaking chemicals in a rail 
car coming from Mexico, these are national issues. When a fire 
threatens a Native American reservation or hikers are injured in the 
Rocky Mountains, these are national issues.
    Moreover, the argument that local government functions should be 
funded exclusively at the state and local level flies in the face of 
reality. The federal government spends billions of dollars every year 
to support such local government functions as law enforcement, 
education and roads. States and local governments remain the primary 
funders of these activities, but the federal government has long 
acknowledged that it, too, has an obligation to shoulder some of the 
responsibility.
    Providing federal funding for a wide variety of local government 
services, while denying any support for the fire service based on the 
argument that it is a local responsibility is tantamount to 
discriminating against me because I am a fire fighter. Teachers and 
cops are not told ``go talk to your Governor,'' so why should I be?
    Finally, it is important to stress that we would not be asking the 
federal government for assistance if we did not believe that states and 
localities were already doing their share. Of course, I want them to do 
more, but it would be misleading for anyone to suggest that states and 
localities are apathetic to the needs of the fire service.
    In Arizona, the state distributes a certain percentage of all tax 
receipts to localities to pay for various local services including fire 
protection. Realizing this was not sufficient, many communities--
including Phoenix, Nogales, Tempe and Glendale--have approved the 
assessment of a special tax on themselves to fund public safety 
services. On some of the Native American reservations, a portion of the 
proceeds from legalized gaming has been devoted to public safety.
    But this is still not enough. It is especially difficult for those 
of us in states such as Arizona to raise additional revenue. As you are 
well aware, Mr. Chairman, our state has a strong individualist 
tradition, that is skeptical of all forms of government. We are 
currently facing a ballot referendum to abolish the state income tax--
which accounts for 50% of all state revenue. This will have a 
devastating impact on fire protection.
    No, Mr. Chairman, it is not enough to say that fire protection is a 
state and local responsibility. The federal government has a role too, 
and it is past time to shoulder its share of responsibility.

                               Conclusion

    Allow me to end, Mr. Chairman, by going back to what this issue is 
really all about: the health and safety of America's true heroes, our 
domestic defenders, our fire fighters. All this talk about state roles 
and federal roles, and this agency's jurisdiction and that agency's 
responsibilities, obscures what this bill is all about.
    Fire fighters are dying, Mr. Chairman, because the government can 
not find the money to protect them. That alone should be sufficient 
reason to enact S. 1941 without delay.
    I thank you for your attention to our views, and I will be happy to 
answer any questions you may have.

    The Chairman. You send me the invitation, and I will be 
there.
    Mr. Shields. You have got it.
    The Chairman. If you promise not to make me work out with 
them. In my declining years, it is not something that I look 
forward to, and I mean that. I am very impressed by the 
physical condition of your firefighters. It is quite 
remarkable, and I know it is very important with some of the 
very difficult tasks they face.
    Also, again, I do not mean to sound parochial, but you 
represent one of the fastest growing places in America, which 
makes it increasingly difficult to keep up with the fires and 
emergencies that take place in a place that is, I believe, the 
fastest growing part of the United States of America, certainly 
the valley is and I know that has added financial burdens on 
the firefighting capabilities in our valley in Arizona as well 
as other parts of the state.
    I think you made a very good point about on the border, and 
perhaps we ought to look at it in this legislation because the 
same problem exists in San Diego, the same problem exists in 
parts of Texas, all across our border we have relatively small 
cities, and I say that, relatively, and very huge populations 
on the other side of the border with certainly tragically much 
lower standards, codes of construction, et cetera, and many 
times they are called upon and there is no place to help, and 
there is no place in the budget for that, so I think that is 
something that I think we would appreciate all the witnesses' 
input into as to how we can address that serious problem. No 
one is going to let a devastating fire take place just on the 
other side of the border without trying to assist.
    Do you want to respond to that Mr. Shields, very quickly?
    Mr. Shields. That is the case. Senator McCain, I would like 
to thank you for your long and continued support of us in 
Arizona and nationally. But this is a problem. You have been 
there, you have seen the need yourself. It is amazing, 
especially, you know, with NAFTA and with some of the 
deregulations that you have got more large truck traffic coming 
through these border towns than you have ever had, and to the 
point where that is becoming a problem with the residents of 
the southern parts of these border states. Along with that 
comes the needs and the services that we have got to provide 
and the taxing, overtaxing, I should say, of the services that 
exist in those small communities. I think you have got that 
picture very well from your comments.
    The Chairman. Well, again, you also bring up another issue, 
truck safety we have addressed in this Committee on several 
occasions. The growing, rising number of accidents, and so 
often our firefighters are called to the scene of one of these 
accidents for obvious reasons, and that is a growing problem in 
America as we see this dramatic increase in truck traffic, and 
according to National Highway Transportation Safety Board an 
increase in the number of accidents as well.
    So we have a lot of challenges. Chief Whitworth, thank you 
for your patience, and thank you for being here. I would like 
to say I have visited your city, and it was a great pleasure to 
do so in my failed campaign. Please proceed.
    Mr. Whitworth. I hope it was not because of our city.
    The Chairman. It was because of the firefighters actually.
    Mr. Whitworth. I should just leave now. Mr. Chairman, thank 
you very much.
    The Chairman. I loved visiting and I love your state, and I 
am looking forward to visiting, as a matter of fact, come 
August. Please proceed.
    Mr. Whitworth. As a Vice Presidential candidate, sir?
    The Chairman. Oh, no. Actually as a friend of Senator 
DeWine's.

 STATEMENT OF JAMES H. WHITWORTH, CHIEF, MIAMI TOWNSHIP FIRE & 
           EMERGENCY MEDICAL SERVICE, CLERMONT COUNTY

    Mr. Whitworth. Very good. Well, first of all, I want to 
thank you for having this hearing. It is a great step for us. 
Mr. Chairman, Members of the Committee, I am Jim Whitworth, 
Chief of the Miami Township Fire Emergency Medical Service, and 
if I might correct the record, that is in Clermont County, it 
is a much prettier county than Butler County.
    The Chairman. Let the record show.
    Mr. Whitworth. I have been involved in the fire service for 
approximately 27 years, and I am here representing Miami 
Township and the Ohio Fire Chiefs Association.
    Miami Township is a growing suburban community located 20 
miles northeast of Cincinnati. The township encompasses 32 
square miles, about 34,000 residents, and is bisected by 
Interstate 275. The department operates from 3 stations, 
staffed 24 hours per day, 365 days a year. The complement of 
uniformed personnel is 38 career, 35 part time, and 8 
volunteer. This is what constitutes a combination department as 
opposed to one that is all career or one that is all volunteer.
    The department has made over 3,100 fire and emergency 
medical responses just this past year. Increasingly the fire 
service is the go-to agency for newly identified needs in the 
area of public safety. My community has been no exception in 
this. The last 20 to 30 years have seen rapidly increasing 
involvement in fire prevention, fire investigations, emergency 
medical care, hazardous materials, natural disaster mitigation, 
injury prevention, technical rescue and most recently response 
to acts of terrorism.
    The fire department is continually asked to be the risk 
managers for the community and take responsibility for life, 
property, the environment, and the infrastructure. In 1999 FEMA 
director James Lee Witt appointed a commission and charged them 
to revisit the 1973 report, ``America Burning.'' The commission 
found that, among other things, the responsibilities of today's 
fire departments extend well beyond the traditional fire 
hazard. A reasonably disaster resistant America will not be 
achieved until there is greater acknowledgment of the 
importance of the fire service and a willingness at all levels 
of government to adequately fund the needs and responsibilities 
of the fire service.
    Crime is considered a national problem, receiving attention 
from the Federal government in the form of $11 billion 
annually. The fire problem is not just a local one. Hazardous 
material releases cross community, county, and state borders. 
Vehicles crash and lives are lost on federal highways. Natural 
disasters occur without regard to government jurisdictional 
boundaries, and terrorists strike federal installations.
    Who is risking life and limb to respond to these incidents? 
Your local public safety services do. The fire emergency 
medical services have many challenges with which to cope. Those 
having the most serious effect on our ability to conduct 
business are inadequate staffing, government regulations and 
national standards, the cost of apparatus, equipment, and the 
associated technologies, and inadequate funding.
    There are many federal regulations affecting how 
departments operate by governing how employees are scheduled, 
to how the department must operate at the scene of an 
emergency. In 1985 the U.S. Wage and Hour Fair Labor Standards 
Act was imposed on fire departments covering how they may 
schedule personnel and pay overtime.
    The Occupational Safety and Health Administration's 2-in/2-
out rule which Captain Shields alluded to earlier requires that 
interior firefighting take place until there are 2 personnel on 
interior attack hose line and 2 more on a hose line outside 
ready to rescue the interior crew. In addition there must be a 
fire ground commander and a pump operator.
    Miami Township, as well as many other communities in 
southwest Ohio, does not have the luxury of staffing apparatus 
at this level. This results in either a delayed attack while 
waiting for additional personnel to arrive or risk being found 
out by OSHA.
    While no one argues that this is a safer condition for 
those attacking the fire, in the absence of the required 
staffing, fire is allowed to grow, which ironically makes the 
building less safe for interior operations.
    In addition to blood-borne pathogen and infection control 
regulations, OSHA's latest foray into the emergency response 
field is their proposed ergonomics rule. This, too, will have 
an impact on how a department conducts business.
    The cost of fire emergency medical apparatus and equipment 
has steadily increased over the past 20 to 30 years. A pumper 
purchased in the early 1970's that cost $40,000 now costs about 
$300,000. That is a lot more pancake dinners.
    An ambulance that cost $25,000 now costs $120,000. 
Technology has driven many of the changes in apparatus and 
equipment and continues to do so at a rapid pace.
    Over the last several years the fire department has been 
expected to be the risk manager for their community and take 
responsibility for life, property, and environmental safety 
concerns. The service has demonstrated in most communities that 
they are equal to the task. However, many lack the tools to 
produce an effective end product or sustain the effort.
    If the fire service is to continue in this wide-ranging 
role and they are willing and capable of doing so, the Federal 
government will need to provide some funding and technical 
support needed to address these important tasks. The FIRE Act 
is broad based, allowing for funding of fire prevention 
initiatives, equipment, stations, training, staffing, and other 
life safety programs. This flexibility is essential, as it will 
help departments tailor their programs to local needs, deal 
with the many federal regulations, and respond to those areas 
of critical infrastructure affected by disaster.
    I respectfully request that you approve funding for 
firefighter safety and public safety programs as specified in 
S. 1941. The fire service has been good at making due. It is 
now time to fund the firefighter and life safety programs at an 
appropriate level. This could be the first step toward a 
partnership with states and local governments to improve the 
safety of its firefighters and our Nation's citizens. Thank 
you, sir.
    [The prepared statement of Mr. Whitworth follows:]

               Prepared Statement of James H. Whitworth, 
Chief, Miami Township Fire & Emergency Medical Service, Clermont County
                               Biography

James H. Whitworth
    I am James Whitworth, Chief of the Miami Township Fire and 
Emergency Medical Service. I began my career as a volunteer with the 
Golf Manor Fire Department in 1973 while working in industry. At the 
beginning of 1982 I accepted a career position with the Blue Ash Fire 
Department, remaining with them until 1992, at which time I accepted 
the Chief's position with Miami Township.
    During the past twenty-seven years I have been trained and am 
currently serving as a Paramedic, Fire Fighter, Fire Safety Inspector, 
Hazardous Materials Technician, Cardiopulmonary Resuscitation 
Instructor, Emergency Medical Technician Instructor, Hazardous 
Materials Awareness Instructor, and Response to Terrorism Instructor. I 
have held high offices in the Life Safety Services Association of 
Clermont County, the Northwest Clermont County Rotary Club, the 
Juvenile Fire Setter Education Council of Clermont County, the Incident 
Management Assistance Team of Southwest Ohio, Board of Christian 
Education for the Trinity United Church of Christ, and elder for the 
Covenant Community Church.
    I currently serve as president of the Greater Cincinnati Hazardous 
Materials Unit, first vice president of the Life Safety Services 
Association of Clermont County, secretary of the Rotary Club of 
Northwest Clermont County, member of the Clermont County Communications 
Advisory Board, member of the Local Emergency Planning Committee, and 
member of the Ohio Fire Chief's Association Legislation Committee.

Miami Township, Clermont County, Ohio
    Clermont County is the western most Appalachian county in Ohio. As 
such, it contains a fair number of residents who are in the low-to-
moderate income bracket. Miami Township is the exception in that it is 
rapidly transitioning from an agricultural community into an upper 
middle income residential community. Miami Township consists of about 
32 square miles and 34,000 residents (1990 census = 33.2 Square miles 
and 28,199 residents). The Township is divided 80 percent residential 
and 20 percent commercial/retail/light industrial and is bisected by 
Interstate 275.

Miami Township Fire and EMS
    The Miami Township Fire and Emergency Medical Service operates from 
three stations, making over 3,100 emergency responses annually. The 
department is staffed with thirty-nine (39) career (1 non-uniformed), 
thirty-five (35) part time, and eight (8) volunteer employees. This 
constitutes what is referred to as a ``combination department'': 
neither career nor volunteer. All career and most part time employees 
are cross-trained as both fire fighters and paramedics. Part time 
employees are scheduled to work on station based on their availability. 
Many are career employees with other suburban departments. Volunteer 
positions are entry level and do not require previously obtained 
certifications or cross training. The department furnishes their 
training and uniforms. The volunteers are scheduled to respond from the 
station, but serve without pay.
    A fourth classification used to staff emergency responses, but not 
utilized by Miami Township, is paid-on-call personnel. They are paid 
either by the run or by the hour for responding from home to 
emergencies.
    Revenues to support Miami Township's Fire and Emergency Medical 
Service come primarily from property taxes with a relatively small 
supplement derived from billing non-residents for emergency medical 
response. In addition, a tiny amount is available annually (about $4 
million divided among the entire state), through grants from Ohio's 
Emergency Medical Services Board, for training and equipment.

                              Introduction

    Increasingly the fire service is the ``go to'' agency for newly 
identified needs in the area of public safety. The last twenty to 
thirty years have seen rapidly increasing involvement in fire 
prevention, fire investigations, emergency medical care, hazardous 
materials, natural disaster mitigation, injury prevention, technical 
rescue, and, most recently, response to acts of terrorism. The fire 
department is continually asked to be Risk Managers for the community 
and take responsibility for life, property and environmental safety 
concerns.
    In 1999, James Lee Witt, Director of the Federal Emergency 
Management Agency, recommissioned America Burning. This was in response 
to a finding that the ``indifference with which Americans confront the 
subject,'' which was found by the 1973 Commission to be so striking 
continues today. According to the Commission, America today has the 
highest fire losses in terms of both frequency and total losses of any 
modern technological society.
    The 1999 Commission reached two major conclusions:

        1. The frequency and severity of fires in America do not result 
        from a lack of knowledge of the causes, means of prevention or 
        methods of suppression. We have a fire ``problem'' because our 
        nation has failed to adequately apply and fund known loss 
        reduction strategies. Had past recommendations of America 
        Burning and subsequent reports been implemented there would 
        have been no need for this Commission. Unless those 
        recommendations and the ones that follow are funded and 
        implemented, the Commission's efforts will have been an 
        exercise in futility.

        The primary responsibility for fire prevention and suppression 
        and action with respect to other hazards dealt with by the fire 
        services properly rests with the states and local governments. 
        Nevertheless, a substantial role exists for the federal 
        government in funding and technical support.

        2. The responsibilities of today's fire departments extend well 
        beyond the traditional fire hazard. The fire service is the 
        primary responder to almost all local hazards, protecting a 
        community's commercial as well as human assets and firehouses 
        are the closest connection government has to disaster-
        threatened neighborhoods. Firefighters, who too frequently 
        expose themselves to unnecessary risk, and the communities they 
        serve, would all benefit if there was the same dedication to 
        the avoidance of loss from fires and other hazards that exists 
        in the conduct of fire suppression and rescue operations.

        A reasonably disaster-resistant America will not be achieved 
        until there is greater acknowledgment of the importance of the 
        fire service and a willingness at all levels of government to 
        adequately fund the needs and responsibilities of the fire 
        service. The lack of public understanding about the fire hazard 
        is reflected in the continued rate of loss of life and 
        property. The efforts of local fire departments to educate 
        children and others must intensify. Without the integrated 
        efforts of all segments of the community, including city and 
        county managers, mayors, architects, engineers, researchers, 
        academics, materials producers and the insurance industry, as 
        well as the fire service, there is little reason to expect that 
        a proper appreciation of the critical role played by the fire 
        service will materialize, in which case the necessary funding 
        will continue to be lacking.

        Losses from fire at the high rate experienced in America are 
        avoidable and should be as unacceptable as deaths and losses 
        caused by drunk driving or deaths of children accidentally 
        killed playing with guns.

        The Congress should increase its involvement in fire loss 
        prevention in America, and exercise more fully its oversight 
        responsibilities under the 1974 Act. The Congress should also 
        appropriate for the fire problem appropriate resources 
        commensurate with those it provides to community policing or 
        highway safety.

    Crime is considered a national problem receiving attention from the 
federal government in the form of $11 billion, while the fire problem 
is considered a local and state issue receiving federal funds to 
support the U.S. Fire Administration at $32 million. The problem is not 
just a local one: hazardous material releases cross community, county 
and state borders, vehicles crash and lives are lost on federal 
highways, natural disasters occur without regard to government 
jurisdictional boundaries, and terrorists strike federal installations. 
Who responds to these crises? The local public safety services do.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The FIRE Act is among the most important legislative initiatives 
offered in recent years affecting the fire service. When passed and 
appropriately funded the FIRE Act will enhance a department's ability 
to provide an all hazards approach, and not be limited to a partial 
solution to make America a safer place from fires, accidents and 
natural disasters.
    The following is an attempt to provide insight into local needs 
that have an impact on the national issues affecting public safety.

                          The Problem Defined

Staffing
    As stated previously the fire service has become the ``go to'' 
agency for newly identified needs in the area of public safety. The 
last twenty to thirty years have seen rapidly increasing involvement in 
fire prevention, fire investigations, emergency medical care, hazardous 
materials, natural disaster mitigation, injury prevention, technical 
rescue, and, most recently, response to acts of terrorism.
    Accompanying each emergency response discipline is the need for 
education and continual retraining to maintain skill levels. In a small 
combination department like Miami Township's the already limited 
resources are stretched even thinner. A partial solution is the 
formation of regional response units like the Federal Emergency 
Management Agency's Urban Search and Rescue Team. Miami Township is 
then obligated to supply far less personnel and resources than it would 
take to have full responsibility for a unit of this type. However, with 
the number of regional ``teams'' needed to respond to hazardous 
materials incidents, technical rescue incidents, fire investigations, 
and etc. there is still significant pressure placed on a department's 
resources.
    As mentioned earlier, Clermont County is an Appalachian county. 
Outside of the three or four western most communities Clermont County 
consists primarily of agricultural land and residents in the low-to-
moderate income bracket. The availability of personnel with the 
willingness to volunteer to place their lives in danger responding to 
other people's emergencies, the ability to learn and achieve the 
necessary certifications, and the time to participate as a volunteer is 
limited.
    In most communities the true volunteer fire fighter or emergency 
medical technician no longer exists. The vast majority receives some 
form of compensation--pay-per-call or an hourly wage--to respond to 
emergencies from home.


------------------------------------------------------------------------
             MTF & EMS Employees                  1985          1999
------------------------------------------------------------------------
Full Time                                              18            39
------------------------------------------------------------------------
Part Time                                               1            35
  (on station)
------------------------------------------------------------------------
Volunteer                                             129             8
------------------------------------------------------------------------


    As a rule it is more difficult to find volunteers today that have 
the time to do more than respond to emergencies. Consequently 
departments struggle with adequate staffing for emergencies as well as 
fire and injury prevention, hazardous materials, and technical rescue 
activities. The Insurance Services Office uses 7 volunteers to equal to 
1 career employee. Miami Township's experience is that it takes 3-4 
part time employees to equal one career employee. This has resulted in 
many departments transitioning to part time employees on station, and 
eventually moving to full time personnel.
    The flow chart on the next page illustrates three distinct 
transition paths identified in the Southwest Ohio area by Chief Stephen 
Ashbrock of the Indian Hill-Madeira Joint Fire District, while working 
on his Master's in Public Administration.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Of those few departments who have been able to maintain a 
significant number of volunteer (paid-on-call) members the common 
statement heard is that things are ``not like they used to be . . .'' 
Today, departments must compete to hire and retain ``volunteers.'' The 
competition is among family, jobs, school, civic organizations, and 
neighboring departments, to name some. The increasingly technical 
nature of the fire fighter's job, reflected in increased state 
requirements for certification for firefighting, and especially EMS, 
has been included in discussions about the decreased availability of 
volunteers. In addition, the changing demographics of a community, 
aging of the residents without an influx of younger citizens willing 
and able to serve, contributes to the decrease in available volunteers.
    According to Chief Ashbrock's research the following chart 
indicates a significant increase in Career and Part Time fire fighters 
while the numbers of Paid-on-Call and Volunteer fire fighters 
diminished.


----------------------------------------------------------------------------------------------------------------
                                                              1985          1990          1996        % Change
----------------------------------------------------------------------------------------------------------------
Career                                                           1065          1060          1253           118
----------------------------------------------------------------------------------------------------------------
Part Time                                                         269           464           715           266
----------------------------------------------------------------------------------------------------------------
POC/Vol                                                           953           764           580           -40
----------------------------------------------------------------------------------------------------------------
Totals                                                           2287          2288          2548           111
----------------------------------------------------------------------------------------------------------------


    The above numbers were derived by adding the claimed number of fire 
fighters on the rosters of the agencies surveyed. The total number of 
fire fighters, however, is suspect due to career and part time fire 
fighters having memberships in as many as four departments (One was 
found on the roster of five departments!). This phenomenon has become 
increasingly prevalent since about 1985 and, derived from surveys, 
likely involves about 15%-25% of the fire fighters locally. With the 
above issues in mind, Chief Ashbrock's research indicates that there 
may be about 2,100 fire fighters filling the 2,548 positions. Please 
note that the 2,100 figure is less than the 1985 estimate of 2,287 fire 
fighters.
    As a result the Southwest Ohio area is experiencing a wage war 
among departments hiring part time fire fighters and emergency medical 
technicians. Several of the departments are now paying an hourly wage 
the same as that earned by their career personnel. Some offer limited 
health benefits. Also, to be competitive in the employment arena, 
residency requirements have been relaxed or eliminated. This impacts 
the ability of a department to recall its members for the ``big one'' 
and expect them to respond in a timely manner.

Regulations Affecting Departments
    Affecting how departments operate is the myriad of federal and 
state regulations governing everything from how employees are scheduled 
to how the department must operate at the scene of an emergency.
    In Ohio, Townships may not work part time employees more than 1,500 
hours unless they offer them the same health insurance program offered 
their full time personnel. (Municipalities are not constrained by this 
or a similar law.) A principal reason to hire part time personnel is to 
avoid the cost of fringe benefits. Since fire departments have year 
round, 24 hours per day needs the 1,500 hours is a limiting factor that 
causes the hiring of more fire fighters to fill the schedule. The costs 
associated with the hiring process, outfitting, scheduling and training 
increase in the face of this requirement.
    In 1985 the U.S. Wage and Hour Fair Labor Standards Act was imposed 
on fire departments, especially those working their personnel on a 24 
hours on/48 hours off schedule. Several amendments have refined the 
regulations, but one still remains that has a serious impact on 
countywide systems: career personnel may not volunteer during their off 
duty time for the same department, for that department's volunteer 
component. Although not a significant issue in Southwest Ohio this 
regulation has a serious impact on a department's ability to provide 
adequately staffed services in Maryland and Virginia, to name two areas 
of which I am aware. This situation creates staffing issues as well as 
having cost implications.
    The Occupational Safety and Health Administration's ``2-in/2-out'' 
rule requires that no interior fire fighting take place until there are 
two personnel on an interior attack hose line and two more on a hose 
line outside ready to rescue the interior crew, if needed. In addition, 
there must be a fire ground commander and a pump operator. Most area 
departments, including Miami Township, staff their first-out apparatus 
with two or three personnel. That means that fire fighting is delayed 
until arrival of personnel from another station, or another community 
under a mutual assistance agreement, or the department invests in 
increased staffing. While no one argues that this is a safer condition 
for those attacking the fire, in the absence of recommended staffing 
the fire is allowed to grow while waiting for additional troops, which, 
ironically, makes the building less safe for interior operations. This 
is a staffing, funding, and service level issue.
    On Saturday, July 15, 2000, Miami Township Fire and EMS responded 
to a fire in the local VFW hall. It began in the eave near the incoming 
power line due to an electrical short circuit. All occupants were out 
of the building on our arrival within 4 minutes of the alarm. Flames 
were showing at the eave and smoke exiting the ridge vent on the roof. 
Because the first responding pumper had 3 persons on board and a 
supervisor there were not enough personnel to affect an interior 
attack. The second pumper arrived about 3 minutes later and the first 
attack hose was advanced into the building after the rapid intervention 
(rescue) team was ready outside. While waiting for the rapid 
intervention team to arrive and assemble the fire was growing rapidly. 
When the attack team entered the building they had difficulty getting 
at the seat of the fire due to having to breach two ceilings. The fire 
continued to grow and by now had extended almost the entire length of 
the building's common attic. Within 15 minutes the roof collapsed: five 
minutes after evacuating all interior attack crews.
    The after-action-analysis suggests that the delay in being able to 
attack the fire contributed to its spread and the ensuing collapse. 
Fire grows exponentially with each passing minute. This was both an 
OSHA regulation issue and a staffing issue.
    In addition, to infection control regulations, OSHA's latest foray 
into the emergency response field is their proposed ergonomics rule. 
This, too, will have an impact on how a department conducts business. 
The small volunteer departments that have no administrative staff will 
``suffer'' the most under the reporting, tracking and training 
requirements in the proposed ergonomics rule. It will cause additional 
responsibilities for the already stretched one-person office in Miami 
Township.
    There are many other federal regulations having an impact on a fire 
department's ability to provide services. These ``unfunded mandates'' 
create administrative and financial burdens.
    The National Fire Protection Association has promulgated voluntary 
standards guiding fire departments in how they operate in the multiple 
disciplines to which they are committed. The NFPA has supported the 
establishment of minimum staffing per fire apparatus in recognition of 
studies citing improvement in extinguishing fires. A study mentioned in 
the International City and County Managers Association publication 
Managing Fire Services, cites that ``five-person fire suppression 
companies were judged to be 100 percent effective in their task 
performance, four-person companies 65 percent effective, and three-
person companies 38 percent effective.'' Miami Township affords to have 
one three-person company and two two-person companies. (The national 
average was derived from a 1994 study done by the Phoenix Fire 
Department and information from the International Association of Fire 
Chiefs.)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Although the standards are voluntary the court system has 
demonstrated they recognize them as ``industry best practices'' and 
holds a department accountable for non-compliance. There is little 
disagreement that standards are needed to help provide a consistent, 
effective and efficient service to the community and, many times, to 
protect us from ourselves. However, as with OSHA regulations, there are 
serious costs to comply.

Cost of Equipment and Technology
    The cost of fire and emergency medical apparatus and equipment has 
steadily increased over the past 20-30 years. A pumper purchased in the 
early 1970's that cost $40,000 now costs about $300,000. An ambulance 
purchased for $25,000 now costs $120,000. A defibrillator in the late 
1970's that cost $9,500 now sells for $16,000. Technology has driven 
many of the changes in apparatus and equipment and continues to do so 
at a rapid pace.
    Miami Township Fire and EMS is faced with replacing its forty-year-
old radio system with an 800-megahertz trunked radio system. Touted to 
be state-of-the-art it will cost the community about $250,000-$300,000 
(assuming the system performs as advertised). This begs the question, 
will Miami Township receive a benefit equivalent to the cost? I believe 
not. However, with the Federal Communications Commission shrinking the 
bandwidth and reassigning the frequencies on which public safety 
operates there is little choice but to ``bite the bullet'' and make the 
change.

Funding
    Miami Township Fire and EMS is almost exclusively funded through 
property taxes. However, in Ohio, property tax millage is rolled back 
annually to keep the dollar amount fixed for the property owner. This 
method does not keep pace with inflation. The six permanent tax levies 
passed in the 70's and 80's, to support Miami Township Fire and EMS, 
have rolled back to about 55 percent of their original millage. Unless 
the community is on a reasonably fast growth track this requires going 
back to the public every few years for increases in property taxes. The 
irony here is that the greater the growth the greater the impact on 
public safety services.
    The department receives a small amount of additional revenues 
through billing non-residents for emergency medical responses ($65,000 
in 1999). Unfortunately, a large portion of this amount is used to 
offset increased costs due to local hospitals discontinuing to restock 
the supplies used on patients delivered to their facility. The Health 
Care Financing Administration anti-kickback rule has been applied here. 
Representative Robert Ney has introduced HR 557 to provide a ``safe 
harbor'' for those hospitals and EMS units who participate in a 
restocking program. In addition, a tiny amount ($15,500 for 2000-2001) 
is received by annually qualifying for training and equipment grants 
through the Ohio EMS Board ($4 million for the entire state).
    Ohio offers three other grant programs for its fire services 
through the Public Utilities Commission Office, Fire Marshal's office 
and the Department of Natural Resources. Two of the programs are for 
communities with populations less than 10,000, and, therefore, do not 
apply to Miami Township. The PUCO grant targets hazardous materials 
training. However, if Miami Township submits an application they will 
be competing against the Clermont County Local Emergency Planning 
Committee. The Township does get benefit of the training grant through 
the LEPC, so it was decided not to seek the PUCO money.

Response Times
    An important benchmark for determining level of service to the 
community is response times. The variables having the most impact on 
response times are station location and career vs. volunteer/paid-on-
call personnel. In Miami Township's case the average response time is a 
product of station location. There are areas of the community that take 
up to 10 minutes to reach. (The national average was derived from a 
1994 study done by the Phoenix Fire Department and information from the 
International Association of Fire Chiefs.) A one-year retrospective 
review of 13,238 incidents in Clermont County revealed an average 
response time of 7 minutes 59 seconds. Some of the volunteer/paid-on-
call departments in Clermont County have occasional response times as 
long as 20 minutes.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The American Heart Association issues the only national standard 
that exists for response times. The AHA recommends that basic life 
support be delivered in less than four minutes and advanced life 
support in less than eight minutes.
    The Insurance Services Office grades a fire department on its 
response to structure fires only, but does not issue a standard for 
performance. Nor does ISO grade any other services the department may 
offer.

                                Summary

    Over the last several years the fire department has been expected 
to be the Risk Manager for their community and take responsibility for 
life, property and environmental safety concerns. The service has 
demonstrated in most communities that they are equal to the task. 
However, many lack the tools to produce an effective end product or 
sustain the effort. If the Fire Service is to continue in this wide-
ranging role, and they are willing and capable of doing so, the federal 
government will need to provide some of the funding and technical 
support needed to address these important tasks. This support should be 
appropriate and ``commensurate with those it provides to community 
policing or highway safety,'' as stated by the Commission in America 
Burning, 1999. The $32 million provided through the U.S. Fire 
Administration pales in comparison to the $11 billion funding for 
criminal justice programs. Ostensibly, the federal funding for criminal 
justice programs receives support because crime is a national problem. 
Local departments make responses to crashes and fires on federal 
highways and at federal installations. Losses due to fires affect the 
insurance premiums of all citizens across the country. The large losses 
attributed to fires, in terms of life and property, is not only a 
national problem, it is a national travesty. Our country should be 
embarrassed to be among the worst of the industrialized nations, 
especially in light of its knowledge of fire prevention, its 
technological capabilities, and wealth.
    In addition, the FIRE Act is broad based allowing 90 percent of the 
proposed funding to be used for equipment, stations, staffing and other 
life safety programs. This flexibility is essential; as it will help 
local departments deal with the many federal regulations that require 
the expenditure of limited funds to comply with the mandates.
    The FIRE Act is not a magic bullet. It will take commitment by 
local departments to deliver the programs, and expend the energy to 
make the needed improvements in service delivery. This is a cooperative 
venture, but hinges on the appropriate level of support from the 
federal government.
    I ask that you approve funding for fire prevention and public 
safety programs at $1 billion per year for five years. The fire service 
has been expert at getting by with whatever it was given. It is now 
time to fund life safety programs at an appropriate level. You can save 
countless lives, reduce suffering, and reduce property loss by 
supporting the FIRE Act. Send a clear message that it is no longer 
acceptable to ignore public welfare when it comes to fire and life 
safety issues. I urge you to support the FIRE Act and do what it takes 
to make it happen.

                                Appendix
                        Northeast Suburban Life
          By Dave Phillips, Editor and Jason Norman, Reporter
                        Published: July 19, 2000

    Attracting those to carry a person down a ladder from burning 
buildings, man the hoses and hydrants or use the jaws of life to 
extract a critically-injured driver from a mangled wreck is getting 
more and more difficult.
    Some fire departments are understaffed--mostly in the part-time, 
supplemental area.
    Local fire chiefs agree that less than a full contingent creates 
dangers to the residents they are paid to protect, and the firefighters 
themselves.
    Blue Ash Fire Department Chief James Fehr said the city's 
department is presently understaffed.
    ``We're in the process of hiring three full-time people,'' Fehr 
said. He also said they're trying to hire more part time people. He 
said it's become harder to find part-time people.
    He said most part-time firefighters work for three or four 
departments, hoping to latch on full time with one of them. He said one 
major challenge is keeping part-time workers under the maximum hours 
they can work. He also said, ``We're using full-time people on 
overtime.''
    One of the dangers of having an understaffed department, Fehr said, 
is fatigue. ``You create a burnout situation,'' Fehr said.
    Montgomery Fire Chief Paul Wright faces similar problems finding 
part-time staffers.
    ``Some of our part-timers work for three or four departments. It 
has become almost a `mercenary' pool, so a lot of staffers are not as 
loyal to one department.'' Getting someone to fill-in for those who 
call-in when not coming in to fill a shift creates major problems, 
Wright said.
    ``A lot has to do with money. A lot of people can go to work in 
different occupations and make as much money (as we have to offer),'' 
Wright said. Montgomery starts its part-timers at $9.74 per hour and 
then in five incremental raise steps to $11.35.
    Sycamore Township Fire Department Chief B.J. Jetter said his 
department is presently operating at full-staff. Jetter said his 
department faces the same strain of part-time staffing. ``The part-time 
program is always an issue,'' Jetter said. ``It's a county-wide 
issue.''
    Jetter said he won't allow his department to become understaffed. 
He said he feels the residents of Sycamore Township are ``pretty well 
taken care of'' in terms of fire safety.
    Wright says he has a full contingent of nine full-time 
firefighters/paramedics and his roster of 30 part-timers is also full.
    ``That gives us five personnel to cover every shift 24 hours per 
day, seven days a week,'' Wright said.
    The Montgomery department also gives its applicants a stiff series 
of three tests--written, physical and skills.
    Otto Huber, assistant fire chief and chief of operations, said the 
Loveland-Symmes Fire Department is fully staffed with 55-50 full-time 
firefighters/paramedics or firefighters/EMTs and five office staff.
    One of the reasons LSFD has a full roster is that Huber, a few 
years ago, brought together a few chief from area departments, ``to 
discuss like problems--especially staffing--and the Fire Chiefs 
Consortium was devised,'' he said.
    Besides sharing information with one another concerning an 
employee's work history, work ethic, etc., the 10 departments that make 
up the organization save money sharing written and physical ability 
testing, background checks and medical examinations, said Huber.
    Member departments are Anderson, Colerain, Delhi, Green and 
Sycamore townships in Hamilton County, Mason and West Chester and Union 
and Miami townships in Clermont County, besides Loveland-Symmes.
    ``When we went to 100 percent full-time, we corrected a lot of 
problems,'' Huber said. ``Mercenaries (a term used by most departments 
for part-timers) don't enter into our picture anymore.''
    He said that there was an economy to using a resource pool and LSFD 
still uses it to fill any openings.
    Huber went on to explain that all 10 departments' staff is free to 
chose where they wish to work and there is some transferring.
    LSFD pays firefighter/EMTs $21,000 to start, topping out at 
$29,000. Firefighters/paramedics start at $27,500, with the top salary 
at $38,500.
    Loveland-Symmes is one of only six fire departments in Ohio to 
achieve a Class 2 rating from the Commercial Risk Services of the 
Insurance Services Office and that ranking is rough to maintain--
especially as far as full-staffed status is concerned. (There are only 
17 Class 1 departments nationwide, none in the Buckeye State.)
    This highly trained, nationally accredited department employs a 
staff of 55 and operates out of four stations located in strategic 
areas of Symmes Township and Loveland to serve 30,000 residents within 
13.8 square miles.
    Wright also said the reason for a shrinking pool of part-timers is 
that some departments are going to a 100 percent full-time department.
    ``Forest Park recently did away with its part-timers altogether and 
now has a department with all full-time staffers,'' he said.
    ``Where we used to advertise for supplemental staff, we would get 
20 or 30 applications,'' Wright said. ``Now we get two or three. I 
guess every organization that is hiring has the same problem of a 
shrinking pool of potential employees. It is just our society.''

    The Chairman. Thank you, Chief Whitworth, thank you for 
being here. The FIRE Act would direct FEMA to award the grants 
on a competitive basis. However, the bill does not provide any 
specific criteria. Chief Fincher, do you believe the bill 
should be changed to ensure the funding would be available to 
the neediest departments?
    Mr. Fincher. I am sure that with input from the fire chiefs 
and the firefighters associations working with FEMA in 
developing a grant program and developing a needs assessment of 
the entire fire service of the United States, I trust that we 
could develop a program like that.
    The Chairman. Are you worried if we put in a sort of a 
means test that states would then reduce their funding with the 
philosophy that the Federal government would make it up? Do you 
see my problem here? And I think that is why it is not in the 
bill as written.
    Mr. Fincher. I do not know if I understand your question 
exactly.
    The Chairman. So we say, we write in the bill that we say 
it is a basis of need, that in some part of Nogales, Arizona we 
know the state has funded the least, so therefore the Federal 
grant money would go to it. Sometimes the natural reaction to 
legislation that we have seen with other programs is that they 
then deliberately underfund, knowing that the Federal 
government will intercede. I will ask all of the witnesses that 
question.
    Mr. Fincher. Well, I would think it should work as the same 
thing as asset forfeiture with the police department, that no 
way can they reduce the budget of the police department because 
of how much money they get through asset forfeiture, and I 
think the direct grant program to the fire department is the 
way to make it work. FEMA should work directly with the fire 
department, develop a definition of what a fire department 
really is and develop a needs assessment which may take a year, 
develop that in association with these same groups here.
    The Chairman. Mr. Monihan.
    Mr. Monihan. I agree there has to be some kind of safety 
net, that seems to be the best. I would point out that there 
are some states that cannot give less. There are--I know a 
couple volunteer departments where after a fire they draw 
straws to see who is going to buy the gas to put in the truck 
for the next fire. Now, you cannot get much further down than 
that.
    The Chairman. Mr. Shields.
    Mr. Shields. Mr. Chairman, there may be some sort of a 
mechanism that we can put in place that would cause successful 
recipients in those states if their funding were reduced 
afterwards that they would lose a commensurate share of the 
grant also, which is similar to what is done, I think, in 
matching fund programs for health care and that sort of thing.
    The Chairman. Chief Whitworth.
    Mr. Whitworth. Mr. Chairman, Ohio has about five grant 
programs right now, and most of them are targeted toward the 
low to moderate income communities, most of them targeted 
toward communities that have 10,000 people or less. That leaves 
the larger communities to fend for themselves. I also know that 
some of the smaller communities have difficulty applying for 
these grants because of little or no administrative staff to 
accomplish that. We have in our county worked with those low to 
moderate income communities to try to even that base, provide 
them the needed staff support. I know my community has 
contributed to that, and we will probably continue along those 
same lines, but it is a struggle, and as the gentleman over 
here said, I am not sure Ohio can fund their fire EMS at a much 
less rate than what they do now.
    The Chairman. Mr. Monihan.
    Mr. Monihan. Excuse me, if I may, the National Volunteer 
Fire Council has been advocating that as part of any sort of a 
grant program there be grant writing assistance provided by 
FEMA, or by whoever as part of the program because many of the 
most needy departments just do not have anybody to do the grant 
writing, and first of all do not have the talent, second of all 
do not have the time.
    The Chairman. Sometimes they do not even have the 
information these grants are available.
    Mr. Monihan. That is the other problem. We have a concern 
about a study. Now, I know some sort of a study probably has to 
be done, but a study would be very difficult because it would 
have to really cover all departments, not a statistic, as they 
say, a statistically significant sample because there is such a 
wide variation across the country.
    The Chairman. Well, I thank you. I thank you for all you 
do. I thank you for taking time from your busy schedules to be 
here today. Senator Kerry has been heavily involved in these 
issues for a long time, and we have discussed this issue and we 
intend to work to try to iron out any differences on both 
sides. This Committee works generally, in fact uniformly on a 
bipartisan basis, and we will look forward to working with you 
as we develop this legislation. Senator Kerry.

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. [Presiding.] Well, Mr. Chairman, thank you 
very much. First of all, thank you for having this hearing, 
which we appreciate enormously, and thank you for your 
testimony, all of you. I will be very, very brief. I do not 
think we need to belabor this, but let me say first of all, I 
have been astounded to learn the degree to which on a national 
level there is this gap in the available resources to 
firefighters all across the nation. It is really quite 
remarkable.
    In fact, I was struck that more than two million fires are 
reported in the United States every year, 4,000 deaths, 24,000 
civilian injuries, 8 billion in direct property losses, and 50 
billion in costs to taxpayers. Obviously more than 80 percent 
of the yearly fire deaths and injuries occur in residential 
fires, and there is just an enormous reluctance for local 
communities to either live up to the responsibilities or in 
some cases it is impossible for them to live up to their 
responsibilities. Clearly we have a federal priority in making 
sure that people are safe, that our communities are safe, and 
needless to say, most importantly, that those who put their 
lives on the line, they are not doing so without state-of-the-
art technology, state-of-the-art ability.
    We in Massachusetts regrettably learned this lesson all too 
starkly last year in Worcester where we lost six of our brave, 
courageous firefighters in a terrible situation where I think 
the courage of firefighters was underscored all across the 
nation. These firefighters went in to pull homeless people out 
of a building. In a more callous world, I suppose, some people 
might have sort of had a reservation and done a balancing of 
the equities, but there was none of that. People were in there, 
they went in. No questions asked.
    But technologically there were things we might have known, 
things we might have done in terms of tracking. There were 
things we might have done in terms of rescue and so forth that 
we are aware of, but those technologies were not available.
    Everybody expects that kind of uncommon bravery, frankly. 
It is almost so automatic that people expect it, and it is 
given, and often given by people who are volunteers, not even 
full time. So this legislation is very personal to me and to a 
lot of us in Massachusetts, as it is across the country because 
we lose firefighters in communities all across the country 
every year.
    I would like to underscore, therefore, the need to try to 
provide this $5 billion over a 5-year period, which I think is 
not asking too much. I am proud to be a sponsor of the 
legislation, and I am eager to see us act on it.
    Now, I was one of the principal people who--in fact, I led 
the fight on the floor of the U.S. Senate--to put 100,000 
police officers on the streets of America. We ran into 
resistance from people who said, wait a minute, this is a local 
responsibility. The federal government should not be providing 
direct money that pays the salary or hires the police officer.
    So we had to get over that resistance. But since that 
program passed in 1993, there has been an enormous reduction in 
crime at the national level. Americans are safer, our 
communities are safer, and we have really been able to help 
leverage behavior at the local level.
    I have always viewed the FIRE Act in the same way, but let 
me ask you, gentlemen, each of you, because you come from 
different local communities and different parts of the country. 
Speak for a moment, if you will, to that resistance that still 
exists among some people here, which is why we have not been 
able to move this yet in prior efforts, as to what the 
compelling rationale is for why the Federal government ought to 
step in to what has traditionally been viewed as a local 
responsibility, and if each of you might say a word about that.
    It goes to the question Chairman McCain asked when he said 
what happens if we supply this money, will not the states look 
and say, oh, well, OK, now that the Feds are supplying this we 
do not have to put so much in? We will put it somewhere else, 
how do you prevent that psychology and is this a commitment 
forever? How do you view this? Would each of you maybe address 
that, Chief Fincher, do you want to begin?
    Mr. Fincher. I would be more than happy to, sir. I do not 
think we are going to have the same problems that they 
exhibited with the police department that type of resistance, 
because that program started without the police up here asking 
for the program, quite candidly. We are here asking for it, and 
we know what our needs are. We have got to develop a needs 
assessment, but we have got these terrorism programs and the 
mandates that come with it. The Department of Defense gave 
training to 120 of the largest cities in the United States plus 
the equipment to deal with it, but at the same time they gave 
us no money to replace or maintain that equipment. They gave us 
no money to buy vehicles that can carry the equipment, they 
gave us no money for staff to do those operations.
    We are also charged with fixed nuclear facility response, 
and in my city, a city that borders on the State of South 
Carolina and North Carolina, there is a fixed nuclear facility 
in South Carolina. When emergencies happen, it causes our 
response in a city of a half a million that is not even in the 
same state, so we have those border problems.
    The OSHA 2-in and 2-out, some of these cities like Miami 
Township cannot physically afford to put 4 people on every 
piece of apparatus. Some cities have the luxury to be able to 
do that, and so I do not think we are going to have those same 
types of problems, but there is----
    Senator Kerry. And, of course, since this is a grant 
program----
    Mr. Fincher. Absolutely.
    Senator Kerry. It would be based on need, correct?
    Mr. Fincher. Absolutely. It should be based on need, some 
of the needs like Miami Township may be people, mine may be 
equipment. It may not be staffing. It has got to be training, 
personnel, and equipment, protective clothing, self-contained 
breathing apparatus with radio interface and the tracking of 
firefighters like you alluded to in Massachusetts. That is 
critical.
    That transition of technology from defense down to the 
local fire department has got to take place, but right now we 
cannot afford to buy thermal imaging cameras at $15,000 to 
$20,000 apiece. If you only get one or two with a city like 
Charlotte, North Carolina, which has 48 companies, I cannot get 
that through my budget, and neither will the state afford to do 
that. Education is a top priority right now.
    Senator Kerry. A very helpful answer. Mr. Monihan.
    Mr. Monihan. To address one of our major problems also, we 
need this money available to assist where retention and 
recruitment of volunteers because this is another major 
problem, again due to time, and the time factor is worsened 
every time we have to have more training, additional fund-
raising all eats up time, and so we are anxious to see that.
    Also, I quite frankly, Mr. Kerry, I do not know what the 
psychology is here in Washington to be so reluctant to support 
the fire service. I have been on the stump since 1979 with the 
volunteer fire assistance program, and I must say that Congress 
has been very, very supportive of us because the volunteer fire 
assistance program was totally zeroed out at one point. It has 
never been fully funded, as Congressman Weldon said, but it was 
totally zeroed out for about 4 years in a row by the 
administration, both sides of the aisle, and the Congress has 
come to our rescue.
    I do not honestly know. I do know that there has to be some 
sort of a fence built around the grants that prevent state and 
localities from reducing their participation.
    Senator Kerry. In other words, the existing funding should 
be held harmless somehow.
    Mr. Monihan. If they reduce their contribution, then the 
Federal grant goes away, and I think that has to play hard 
ball.
    Senator Kerry. Yes.
    Mr. Monihan. There are State and local interests and 
priorities, and one of the questions that Senator McCain 
mentioned in the beginning was with all the surpluses in the 
states and so forth right now----
    Senator Kerry. Why can't they do it?
    Mr. Monihan. What success are we having. Well, 
unfortunately it varies across the country, but there has 
actually been very little success for getting funding for the 
fire service because there are other local priorities. There 
are health care priorities, there are educational priorities 
and tax reductions, because that is politically, as you well 
know, very vital this time of year, or this year, so we have 
not had a lot of success across the country, and I think that 
is probably true throughout all facets of the fire service, not 
just the volunteer.
    Senator Kerry. Does anybody else want to add to that? You 
do not have to, but if you want to----
    Mr. Shields. Senator Kerry, thank you for the opportunity. 
As I said to Mr. McCain, or Senator McCain--I am not sure that 
you heard my comments, but there is a different situation in 
every State.
    Obviously, you know that well, in Arizona in this time of 
booming economies and budget surplus is that we have been 
struggling with a formula, a court-mandated formula for 
equalization of school funding in addition to the tax cuts 
movement that the fire chief has talked about, and although 
there is a shared revenue formula from the State back to the 
local governments to support local services and fire 
departments are part of that, there is always a move in the 
State legislature in Arizona to reduce that percentage, and so 
we are always in a position of fighting for what we have.
    It is not a question of can we improve the fire service in 
Nogales or Flagstaff or Bisbee. It is a question of, can we 
maintain what we have, even in a good economy, so I believe and 
the IAFF believes that there is a role for the Federal 
government.
    We do not believe that it should be the major or even a 
major funding source for local fire services, but in these 
areas of deficiency the training we talk about, in some cases 
staffing, and definitely the equipment and equipment 
maintenance, health and safety programs, that the Federal 
government could take the lead that it has in law enforcement 
and education and in transportation and put that same concern 
into the fire service and help us with these situations that 
protect lives.
    Mr. Whitworth. Mr. Kerry, thank you for the opportunity to 
comment. Miami Township is funded at the local level, strictly 
through property taxes, and 85 percent of the property tax bill 
that each resident pays goes to support the school system. The 
remaining 15 percent is then divided among county services and 
the local services.
    As far as Ohio is concerned, I did mention earlier that 
they offer several grant programs. My best guesstimate is that 
that is to the tune of $8 million or less annually. That 
primarily is geared to training through the public utilities 
commission, the Ohio Department of Natural Resources offers a 
rural fire grant, as well as the fire marshal's office.
    The EMS board offers some reimbursement for training and 
equipment. We competed this year. It is a competitive grant 
program. We competed this year, and managed to get the whopping 
sum of $15,000, so I will try to use that wisely, and I will 
spend it all in one place.
    We are also finding that Ohio is reducing the fire 
marshal's budget each year. There is pressure to reduce 2 
percent and 5 percent, so consequently they are trying to keep 
up the same programs and, very frankly, the funding that they 
do offer to some of the small rural departments is in jeopardy 
because of that.
    We also have to comply with Federal mandates, OSHA, FCC, 
wage and hour, Fair Labor Standards Act. We have Federal 
highways running through our community, and all of those have 
an impact.
    What we would ask for is for this to be a partnership, not, 
as Mr. Shields says, simply one-sided funding, that this 
partnership that the government would be entering into with 
state and local governments to help support and provide those 
services for our nation's firefighters, improve their safety.
    Senator Kerry. Just a quick question. What would be the 
first thing that you would want to apply for?
    Mr. Fincher. In Charlotte, North Carolina?
    Senator Kerry. Yes, the first thing you would want from a 
grant.
    Mr. Fincher. I would like to develop our terrorist program 
to where I can provide adequate response to any types of acts 
of terrorism, equipment maintenance, wellness fitness programs, 
health and safety programs.
    Senator Kerry. Well, the first thing. You have got a list, 
obviously, but I want to know the first thing.
    Mr. Monihan. Unfortunately I did not bring a list.
    Senator Kerry. What is the first thing you would think of?
    Mr. Whitworth. Probably training, generalized training.
    Senator Kerry. Mr. Shields.
    Mr. Shields. For the cities that I spoke of, I would say 
staffing.
    Senator Kerry. Staffing levels.
    Mr. Shields. The smaller cities I spoke of.
    Mr. Monihan. Training.
    Senator Kerry. What happens when you talk to your local 
officials about this, both state and local? Do they simply say 
to you, we just do not have the ability, we cannot? What comes 
back to you?
    Mr. Fincher. Right now, just keeping up with growth. With 
the economy like it is and the cities expanding through 
annexation, just keeping up with the growth is expanding my 
budget 10 percent a year.
    Senator Kerry. Well, I understand that, but--oh, you mean 
just in terms of additional departments?
    Mr. Fincher. Absolutely.
    Senator Kerry. Additional personnel.
    Mr. Fincher. Hiring additional personnel, training them and 
equipping them, is increasing my budget already beyond what the 
city's growth and revenue is.
    Senator Kerry. Well, there is obviously no more important 
task than providing fire protection to people in the community. 
If the community is growing, does the community not have a 
responsibility--and this is a question we get asked here--to 
assess accordingly?
    Mr. Fincher. Yes, it does.
    Senator Kerry. I mean, is the community and all the local 
politicians simply trying to avoid local responsibility and 
shove it up to the federal government and say, hey, you guys 
give us the money, we are not asking for the taxes?
    Mr. Fincher. I do not know if I am the adequate person to 
respond to that type of comment, sir, but I think there is a 
move on at every local level to keep taxes on property at a 
certain level. Education is high on every local list.
    Senator Kerry. We like to give tax cuts, too.
    Mr. Fincher. Yes.
    Senator Kerry. So I mean, there is a little of that going 
on, maybe. What do you think, Mr. Shields?
    Mr. Shields. Senator Kerry, I deal with a lot of elected 
officials in a lot of cities, and I think one of the biggest 
problems that we face as advocates for the fire service is that 
the citizens themselves, and the elected officials, do not 
sense a problem for us of the magnitude that we would, for 
instance, with law enforcement. When gangs were on the rise, 
and that sort of thing----
    Senator Kerry. They feel it every day.
    Mr. Shields. Oh, yes. The problem of the day, and the 
squeaky wheel, and to a degree that is still true.
    Education in Arizona, we rank dead last in the country in 
per capita spending for education, so it is easy for them to 
focus on and natural for them to focus on, I think, the sort of 
problems of the day.
    They tend to look at firefighters and emergency medical 
responses as a problem that we have solved and taken care of, 
because it is not that squeaky wheel and has not been out there 
on the forefront, but that does not take into account that 
through all these means and mechanisms that you have heard 
about is that we have just patched together systems in 
different ways in different communities, whether it is 
volunteer or paid, to make do. That is the nature and the sort 
of history of the fire service.
    Senator Kerry. Sure.
    Mr. Shields. We are here today to highlight the fact that 
it is time to sort of come into the next millennium in our 
thinking on supporting our people, safety so that we can better 
protect the people that we serve.
    Senator Kerry. Well, you are doing a good job of it, and I 
appreciate all of you taking the time to be here and share that 
with us.
    As I said earlier, I am convinced we in the federal 
government do have a role. We have, indeed, made these 
mandates. We have national priorities that are reflected in 
what happens in cities and towns. Clearly for the training, for 
the certain kinds of technology, for other kinds of things, we 
ought to be able to be helpful. I think our help can leverage 
greater local and state participation, and I think that ought 
to be one of the roles here. So we need to structure this grant 
program in a way that does that.
    I am asked by the Chairman if I would announce that the 
record will stay open for 2 weeks for potential additional 
statements and/or questions by other members who are not able 
to be here today. I want to thank each of you.
    Is there anything you have not had a chance to say, or some 
point that you would like to make that you think is important 
before we close the hearing?
    Mr. Monihan. I would like to add to something Mr. Shields 
just said. You know, in some respects we are our own worst 
enemy. When the alarm comes in we go fight the fire. We are 
playing in an environment that does not work that way, and we 
are not in a position to be able to play the game, and 
unfortunately it is a big issue.
    For example, you lost six firefighters. It is a big issue 
when that happens, but then it is very quickly forgotten, and 
most of the people who die die in ones and twos. It is in the 
newspaper in the morning, somebody says, isn't that a shame 
that baby burned to death, and they keep right on going.
    So in my own state we have the luxury of having tremendous 
support from the state and also from the city government. I 
have always said, if every fire department in the country had 
the support that we have in Lewes, there would not be any 
problem, but that is not true across the country, and we have a 
mutual aid agreement that says--it is not a written agreement. 
It says, ``you call, we haul,'' so we make do with what we 
have, and that is our biggest shortcoming, I think, as far as 
influencing people who play by different rules.
    Senator Kerry. Well, I am well aware of that, and 
obviously, when you look at the total statistics that I recited 
earlier, you see it in the conglomerate, and you are absolutely 
correct. If you have a fire and it hits a particular defined 
community people are very aware of it. The people outside kind 
of gloss by it and say, oh, gosh, you know, another one. Until 
you have a very significant disaster that hits a larger area, 
people do not really connect to it, and everybody assumes you 
know.
    You drive by the firehouse and see the fire engines, see 
the folks, and say oh, OK, that is what it is. You do not think 
about the numbers of people, or what kind of shifts there may 
be, or how well-trained people are, or whether or not the 
equipment is up to date. There is a lot that is, indeed, taken 
for granted.
    Mr. Monihan. It is only a little over a month since Los 
Alamos, New Mexico almost burned down. You see nothing in the 
press about it. Nobody talks about it. It is past.
    Senator Kerry. Understood. Well, point well-made. That is 
why you have got some strong advocates up here, and hopefully 
we will get this done. I thank you all very, very much for 
taking the time to be with us today.
    We stand adjourned. Thank you.
    [Whereupon, at 11:15 a.m., the Committee adjourned.]

                            A P P E N D I X

    Response to Written Questions Submitted by Hon. John McCain to 
                      Chief Luther L. Fincher, Jr.

Question 1. As I noted earlier, state governments are reporting record 
surpluses each year and, as you well know, traditionally, fire 
protection has been funded at the state and local level. What programs 
are in place at the state level to help meet the needs of the fire and 
emergency services?
    Answer. Traditionally, fire and rescue departments are funded 
locally. Most states do not have fire operations under their 
jurisdictions although most have state training programs and a state 
fire marshal function.

Question 2. Are you taking steps to enact funding programs similar to 
the FIRE Act at the state level?
    Answer. Many state fire service organizations have approached state 
legislatures but uniformly without success.

Question 3. I understand that based on each of your experiences you 
have reached the conclusion that the fire and emergency services are in 
need of increased federal funding. Have any of your organizations 
conducted an empirical study to pinpoint where additional funding would 
be most helpful?
    Answer. No. The International Association of Fire Chiefs would 
strongly support a national survey of America's fire and emergency 
service to identify critical needs.

Question 4. I realize the lure of federal funding can be very 
appealing. In the past, however, we have seen similar grant programs 
evolve and become burdened with federal requirements that usurp local 
control of government. Do any of you have concerns that federal 
mandates may eventually be a part of the grant program you envision?
    Answer. There already are federal mandates in a number of areas of 
fire service operations (e.g., bloodborne pathogens, hazardous 
materials, self contained breathing apparatus, vehicle standards, 
communications equipment, EMS). We doubt there would be new federal 
mandates as a result of a competitive grant program. A major purpose of 
the program will be to bring fire and emergency departments up to 
current federal and consensus standards to ensure safe operations for 
fire fighters/medics as well as the public they serve.

Question 5. What information was used to derive the $1 billion per-year 
funding level?
    Answer. Representative Pascrell developed this funding level 
without consultation with this organization.

Question 6. The bill would allow the use of the grants to hire 
personnel. I can see how this would help the career departments but 
what does the bill do to help attract and retain volunteer fire 
fighters?
    Answer. The primary assistance for volunteer fire departments will 
be in the form of training, providing personal protective equipment, 
supplying sufficient self contained breathing apparatus, and helping to 
ensure safe fire and rescue vehicles. The purpose of the legislation is 
safety and health for emergency responders. To the extent volunteer 
fire and rescue departments can demonstrate safer operations that will 
assist in recruiting and retaining volunteer members.

Question 7. The bill would allow the use of the grant money for 
wellness and fitness programs. Can you describe to me what specific 
need this addresses and how this need is currently going unmet?
    Answer. One of the major safety issues for fire and rescue 
personnel is fitness and wellness. Many of the large, well-funded fire 
departments have fitness/wellness programs to improve service delivery 
and to reduce fire fighter injury and death. Fitness/wellness is just 
one of many aspects in preparing personnel and departments to respond 
safely and to operate effectively. This is an unmet need in the 
preparedness of the medium sized and smaller departments.

Question 8. As currently drafted, the FIRE Act provides no mechanism 
for auditing the grants made under the program to ensure that the funds 
are being used for the appropriate purposes nor does it include 
provisions to measure the effectiveness of the program over time. Would 
you support the inclusions of such provisions in the bill?
    Answer. Yes. An audit function MUST be a provision in the enabling 
legislation and the implementing regulations.

Question 9. In the Senate version of the FIRE Act, ten percent of the 
funds are set aside for education programs. However, fire departments 
would not be the only organizations that would qualify for the funds, 
but national, state, local or community organizations as well. What is 
the position of the IAFC/IAFF/NVFC regarding non-fire service 
organizations qualifying for these funds?
    Answer. As we stated in our testimony, the ICHIEFS preference would 
be for the grant program to be exclusively for the fire and emergency 
service.

Question 10. Reviewing the list of uses for the grant funds, I question 
whether serious thought was given to targeting these funds on 
challenges national in scope and whether departments would use the 
funds to address actual needs rather than to purchasing ``wants.'' How 
can we ensure that individual applications demonstrate an actual need 
for these funds?
    Answer. A national needs assessment would enable FEMA to adopt a 
strict criteria against which applications for grant funding would be 
judged. It will be the responsibility of the grant administrator, 
reviewing grant requests on a competitive basis, to ensure that funds 
are appropriately directed.

Question 11. During the testimony, one of the witnesses suggested that 
the average amount of a grant would be relatively small based on the 
number of fire departments in this country. On the other hand, these 
funds would be exhausted in short order if every department seeking 
grants used the funds to purchase apparatus. Do you support the use of 
these funds for purchasing apparatus and what type of impact would this 
have on reducing the threat of fire and other dangers in our nation?
    Answer. We do not support using the funds to purchase apparatus.

Question 12. Would you support a requirement for departments seeking 
funds to provide National Fire Incident Reporting data to the United 
States Fire Administration?
    Answer. Yes. I testified for ICHIEFS before the Subcommittee on 
Basic Research of the House Committee on Science March 23, 1999 as 
follows:

        ``. . . to substantially increase funding for the National Fire 
        Incident Reporting System. This is an extremely important 
        recommendation since the mission of the U.S. Fire 
        Administration cannot be fully implemented until a detailed 
        analysis documents the full extent of our nation's fire 
        problem. Accurate and complete fire loss information is 
        critical for the complete analysis and documentation of the 
        nation's fire problem. It is essential to track cause of fire, 
        fire injuries and deaths, arson patterns, the effectiveness of 
        fire prevention programs, and other information needed for the 
        U.S. Fire Administration to identify a plan of action.

        ``Federal programs designed to support state and local law 
        enforcement are based largely on statistical evidence 
        demonstrating and identifying areas that would benefit from 
        such support and assistance. For decades, law enforcement has 
        had a national incident reporting system that covers just about 
        100% of America. Not so with the fire incident reporting 
        system.

        ``There is a clear need for an updated and mandatory fire 
        reporting system. This will help identify areas where federal 
        support can make a critical difference in local fire and 
        emergency response, and enhance the ability of the federal 
        government to design appropriate programs to assist local fire 
        departments with their protective mission.''
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                            E. James Monihan

Question 1. As I noted earlier, state governments are reporting record 
surpluses each year and, as you well know, traditionally, fire 
protection has been funded at the state and local level. What programs 
are in place at the state level to help meet the needs of the fire and 
emergency services?
    Answer. The degree to which state and local governments fund their 
emergency service varies across the nation. However, regardless of the 
assistance received at the local and state level, it does not change 
the fact that the federal government does have a role in supporting the 
emergency services. The fire service's ever-increasing responsibilities 
are a consequence of both local directives and actions of the federal 
government. The federal government is asking the fire service to 
respond to calls involving terrorism, hazardous materials, natural and 
man-made disasters and wildland/urban interface fires. In addition, 
many of these emergencies occur on federal properties such as national 
parks and lands, interstate highways and in federal buildings.

Question 2. Are you taking steps to enact funding programs similar to 
the FIRE Act at the state level?
    Answer. Part of the National Volunteer Fire Council's (NVFC) 
membership is made up of each state association. The NVFC serves as a 
conduit of information between those state associations regarding 
programs being worked on at the state level. Unfortunately, the degree 
to which state governments fund their emergency service varies across 
the nation.

Question 3. I understand that based on each of your experiences you 
have reached the conclusion that the fire and emergency services are in 
need of increased federal funding. Have any of your organizations 
conducted an empirical study to pinpoint where additional funding would 
be most helpful?
    Answer. The NVFC has not conducted an empirical study to pinpoint 
where additional funding would be most helpful. However, we feel there 
has long been a need to perform a nationwide fire service needs 
assessment in the fire service. This assessment would help the federal 
government to better understand just how severe the shortages in some 
fire departments are.
    We think that an organization with a substantial knowledge of the 
fire service and a proven track record of gathering data should conduct 
this type of survey. However, due to the large diversity of the fire 
service, a statistical sample may not tell the whole story. The needs 
of this nation's rural volunteer fire departments must be accounted 
for. In addition, any nationwide assessment survey should come under 
the direction and be funded by the U.S. Fire Administration.

Question 4. I realize the lure of federal funding can be very 
appealing. In the past, however, we have seen similar grant programs 
evolve and become burdened with federal requirements that usurp local 
control of government. Do you have any concerns that federal mandates 
may eventually be a part of the grant program you envision?
    Answer. The fire service already has to deal with unfunded mandates 
that have come down from federal government. The federal government has 
told the fire service the minimum amount of firefighters needed to 
attack a fire, and has asked the fire service to respond to calls 
involving terrorism, hazardous materials, natural and man-made 
disasters and wildland/urban interface fires. These are just a few of 
the burdens and requirements that we are already dealing with without 
monetary support. Therefore, the prospect of `strings' being attached 
is nothing new.
    In addition, when federal dollars are used to build new interstate 
highways, they often run through small communities protected by a 
volunteer fire department. These small town fire companies must respond 
to a huge influx of auto accidents, some involving hazardous materials. 
They are already struggling to handle their own needs and finances, and 
are now forced to provide more services, and receive no compensation 
for their responses.
    Finally, we suggest that stakeholders such as the NVFC should be a 
part of developing criteria for these grants to ensure that they do not 
become burdened with federal requirements that usurp local control of 
government.

Question 5. What information was used to derive the $1 billion per-year 
funding level?
    Answer. The $1 billion per-year funding level was a number come up 
with first by Rep. Curt Weldon (R-PA) and Rep. William Pascrell (D-NJ) 
when they introduced the FIRE Act (H.R. 1168). Sen. Mike DeWine (R-OH) 
and Sen. Christopher Dodd have included the same funding level in the 
Senate version of the FIRE Bill (S. 1941). With some fire apparatus 
costing more than $500,000 and other new life saving but expensive 
technology constantly becoming available, this funding level is 
necessary to properly assist the more than 30,000 fire departments in 
the United States.

Question 6. The bill would allow the use of the grants to hire 
personnel. I can see how this would help the career departments but 
what does the bill do to help attract and retain volunteer fire 
fighters?
    Answer. Constant fundraising demands are intertwined into every 
aspect of volunteer fire and emergency services, affecting the 
recruitment of new members, the retention of existing members, and the 
ability to train members. If a volunteer fire department is better 
equipped, the firefighters can spend more time training and less time 
fundraising. In addition, the NVFC does support adding a provision to 
this bill that would allow volunteer fire departments to apply for 
grants in order to carry our recruitment and retention programs. Also, 
some fire departments can use the grant money to hire staff to 
supplement their volunteers in the daytime when many volunteers are 
unavailable.

Question 7. The bill would allow the use of grant money for wellness 
and fitness programs. Can you describe to me what specific needs this 
addresses and how this need is currently going unmet?
    Answer. According to the National Fire Protection Association, 
heart attacks are the number cause of death in the fire service. 
Unfortunately, most volunteer fire departments do not have the 
resources to implement a program to keep their firefighters in proper 
physical shape.

Question 8. As currently drafted, the FIRE Act provides no mechanism 
for auditing the grants made under the program to ensure that the funds 
are being used for the appropriate purposes nor does it include 
provision to measure the effectiveness of the program over time. Would 
you support inclusions of such provision in the bill?
    Answer. YES.

Question 9. In the Senate version of the FIRE Act, ten percent of the 
funds are set aside for education programs. However, fire departments 
would not be the only organizations that would qualify for the funds, 
but national, state, local, or community organizations as well. What is 
the position of the IAFC/IAFF/NVFC regarding non-fire service 
organizations qualifying for these funds?
    Answer. The NVFC has always advocated a program where funds go 
directly to individual fire departments. However, if the provision 
allowing other non-fire groups to qualify for the funds were in the 
final bill, we would support any of their efforts to reduce fire deaths 
in the United States.

Question 10. Reviewing the list of uses for the grant funds, I question 
whether serious thought was given to targeting these funds on 
challenges national in scope and whether departments would use the 
funds to address actual needs rather than to purchasing ``wants.'' How 
can we ensure that individual applications demonstrate an actual need 
for these funds?
    Answer. It must be left up to the fire department applying for the 
grant to show there is a real need for these funds. The grant review 
process must take into account a department's budget, the area 
protected, etc. In addition, stakeholders such as the NVFC should be a 
part of developing criteria for these grants to ensure that they are 
targeted on challenges national in scope.

Question 11. During the testimony, one of the witnesses suggested that 
the average amount of a grant would be relatively small based on the 
number of fire departments in this country. On the other hand, these 
funds would be exhausted in short order if every department seeking 
grants used the funds to purchase apparatus. Do you support the use of 
these funds for purchasing apparatus and what type of impact would this 
have on reducing the threat of fire and other damages in our nation?
    Answer. The NVFC does support the use of funds to purchase or 
refurbish apparatus. However, this legislation addresses your concerns 
that the funds may be exhausting too quickly by containing a provision 
allowing only 25% of the funds to go to purchasing apparatus.

Question 12. Would you support a requirement for departments seeking 
funds to provide National Fire Incident Reporting data to the United 
States Fire Administration?
    Answer. The NVFC does support a requirement for departments seeking 
funds to provide National Fire Incident Reporting data to the U.S. Fire 
Administration. If more departments provide information to the National 
Fire Incident Reporting System (NFIRS), we would better be able to 
grasp the depth of the fire problem in the United States. However, it 
must be noted that many volunteer fire departments lack the time and 
resources to be able to report this data.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                             Billy Shields

Questions 1 and 2.  As I noted earlier state governments are reporting 
record surpluses each year and, as you well know, traditionally, fire 
protection has been funded at the state and local level. What programs 
are in place at the state level to help meet the needs of the fire and 
emergency services?
    Are you taking steps to enact funding programs similar to the FIRE 
Act at the state level?
    Answer. A variety of programs exist in different states, many of 
which are included in the data Senator DeWine's office compiled and 
provided to your staff. But clearly states need to do more. As 
proponents of the FIRE Act, we do not envision the federal government 
becoming the major or even a major funder of the fire service. That 
responsibility will continue to rest with states and localities, and we 
call on all states to do whatever they can to ensure adequate funding 
of the fire service.
    We are certainly sympathetic to concerns that the federal 
government should not be thought of as a first alternative when it 
comes to funding. Federal funds should not go to jurisdictions where 
there are untapped financial resources. We would therefore support 
requiring grant applications to include a discussion of alternative 
sources of funding. Such a requirement would enable FEMA to take local 
financial conditions into account in deciding which grant applications 
are most deserving.
    But the issue before Congress is not whether the states are doing 
enough, but whether the federal government is doing enough. While fire 
protection will always be primarily a local government responsibility, 
there clearly is a federal role. Numerous aspects of fire protection 
ranging from border issues to hazardous material transportation to 
terrorism have a major federal component, yet the federal government 
has yet to live up to its responsibility to shoulder its fair share of 
the funding burden.
    Moreover, the federal government already spends billions of dollars 
every year to support such local government functions as law 
enforcement, education and roads. Providing federal funding for a wide 
variety of local government services, while denying any support for the 
fire service based on the argument that it is a local responsibility is 
tantamount to discriminating against me because I am a fire fighter. 
Teachers and cops are not told ``go talk to your Governor,'' so why 
should I be?

Question 3. I understand that based on each of your experiences you 
have reached the conclusion that the fire and emergency services are in 
need of increased federal funding. Have any of your organizations 
conducted an empirical study to pinpoint where additional funding would 
be most helpful?
    Answer. As I discussed in my testimony, the IAFF conducted a survey 
of our State Associations. While unscientific, the survey provides a 
shocking glimpse of just how dire the funding situation is. For example 
3 out of 4 fire departments are currently estimated to be operating 
with unsafe staffing levels. We would certainly support a more 
scientific survey of fire department needs to help pinpoint areas of 
greatest need, but there is no need to hold up the legislation while 
the survey is being conducted. We already know a great need exists, and 
it would be a waste of precious resources to study what is essentially 
a rhetorical question.

Question 4. I realize the lure of federal funding can be very 
appealing. In the past, however, we have seen similar grant programs 
evolve and become burdened with federal requirements that usurp local 
control of government. Do any of you have concerns that federal 
mandates may eventually be a part of the grant program you envision?
    Answer. Because the FIRE Act would require fire departments to seek 
funding for specific purposes rather than general operating expenses we 
believe the program is much less susceptible to being burdened with 
federal requirements. But even if it were, we would not view this as an 
impediment to enacting the legislation. If the federal government did 
choose to attach strings to the funding, localities would be free to 
avoid federal entanglements simply by not applying for a grant.

Question 5. What information was used to derive the $1 billion per-year 
funding level?
    Answer. We were not involved in the initial drafting of the 
legislation where the $1 billion figure first surfaced, but we can 
assure you that this amount is more than fully justified. The actual 
need is much greater. It is important to note that the $1 billion 
figure is an authorization, not an appropriation. Congress would be 
free to appropriate whatever amount it deemed appropriate each year, so 
long as it did not exceed $1 billion. For example, the Local Law 
Enforcement Block Grant program is authorized at $2 billion a year, but 
is appropriated at approximately $500 million.

Question 6. The bill would allow the use of the grants to hire 
personnel. I can see how this would help the career departments but 
what does the bill do to help attract and retain volunteer fire 
fighters?
    Answer. Volunteer fire departments are often the ones most in need 
of funding for a variety of essential fire service needs such as 
equipment and training. More training and equipment could help lead to 
more volunteer fire fighters. In areas where there simply are not 
enough people willing to volunteer, funding could be used to hire a few 
paid fire fighters to supplement the work of the volunteer fire 
fighters thus assuring the continued role of the volunteer fire 
company.

Question 7. The bill would allow the use of grant money for wellness 
and fitness programs. Can you describe to me what specific need this 
addresses and how this need is currently going unmet?
    Answer. Physical fitness is an absolute must in the fire service. 
If a fire fighter is not in prime physical condition, he or she can not 
perform their duties and they jeopardize not only their own safety but 
also the safety of other fire fighters at the scene, and ultimately the 
public. Wellness/Fitness programs--which include such things as 
nutrition counseling, smoking cessation programs, and exercise--have 
proven effective in promoting a physically fit workforce.
    In Phoenix, our wellness/fitness program resulted in a dramatic 
decline in the number of Workman's Compensation claims and days lost 
due to injury. Unfortunately, most fire departments are unable to 
afford such a program or this is the last priority in their budgets 
which never gets funded.

Question 8. As currently drafted, the FIRE Act provides no mechanism 
for auditing the grants made under the program to ensure that the funds 
are being used for the appropriate purposes nor does it include 
provisions to measure the effectiveness of the program over time. Would 
you support the inclusions of such provisions in the bill?
    Answer. Yes.

Question 9. In the Senate version of the FIRE Act, ten percent of the 
funds are set aside for education programs. However, fire departments 
would not be the only organizations that would qualify for the funds, 
but national, state, local or community organizations as well. What is 
the position of the IAFC/IAFF/NVFC regarding non-fire service 
organizations qualifying for these funds?
    Answer. We believe money provided under the FIRE Act should go to 
local fire departments, which are quite capable and have a long history 
of running effective fire prevention education programs.

Question 10. Reviewing the list of uses for the grant funds, I question 
whether serious thought was given to targeting these funds on 
challenges national in scope and whether departments would use the 
funds to address actual needs rather than to purchasing ``wants.'' How 
can we ensure that individual applications demonstrate an actual need 
for these funds?
    Answer. First, the matching fund requirement assures that 
localities are committed to expending their own resources. We would not 
be averse to increasing the match required if this became a significant 
obstacle to passage of the legislation.
    Second, FEMA should be directed to consider the seriousness of the 
need in deciding which grant applications to award. The number of 
applications is sure to dwarf the funds available, so FEMA would be 
able to assure that FIRE Act funding only go to jurisdictions that can 
demonstrate a compelling need.

Question 11. During the testimony, one of the witnesses suggested that 
the average amount of a grant would be relatively small based on the 
number of fire departments in this country. On the other hand, these 
funds would be exhausted in short order if every department seeking 
grants used the funds to purchase apparatus. Do you support the use of 
these funds for purchasing apparatus and what type of impact would this 
have on reducing the threat of fire and other dangers in our nation?
    Answer. We believe the amount used to purchase apparatus should be 
severely limited to ensure that funding is available to protect fire 
fighter health and safety through better equipment, training and 
staffing.

Question 12. Would you support a requirement for departments seeking 
funds to provide National Fire Incident Reporting data to the United 
States Fire Administration?
    Answer. Absolutely.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                         Chief James Whitworth

Question 1. As I noted earlier, state governments are reporting record 
surpluses each year and, as you well know, traditionally, fire 
protection has been funded at the state and local level. What programs 
are in place at the state level to help meet the needs of the fire and 
emergency services?
    Answer. Ohio offers grants through the State Fire Marshal's Office, 
Ohio Department of Natural Resources, and the Ohio Department of Public 
Safety Division of Emergency Medical Service. The Fire Marshal's grant 
is directed toward volunteer departments serving communities with a 
population of 10,000 or less. The annual grant offered $1,388,236 for 
the 2000 fiscal year. The Fire Marshal received 546 applications 
requesting over $7.3 million.
    The Ohio Department of Natural Resources directs their small grant 
program toward rural fire departments and is a cost-sharing grant for 
minor fire fighting equipment or training. As you can imagine the 
response to their grant is similar to that experienced by the Fire 
Marshal's Office.
    The grant program offered by the Ohio Department of Public Safety 
Division of Emergency Medical Service is focused on emergency medical 
service training, equipment, and research. The amount available for 
fiscal 2000 is about $4 million. All public emergency medical services 
and those private services under contract to a municipality or township 
qualify for this grant program. Miami Township was awarded about 
$15,300 split 60/40 between training and equipment.
    Ohio also offers a low interest loan program for small rural 
communities to build fire stations and purchase apparatus.

Question 2. Are you taking steps to enact funding programs similar to 
the FIRE Act at the state level?
    Answer. To my knowledge there has not been a recent effort to 
increase funding for Ohio's fire service similar to the FIRE Act. 
Currently the Ohio Fire Chief's Association, Fire Fighter's 
Association, and Professional Fire Fighter's Association are trying to 
discover why, in the face of increasing revenues from insurance 
premiums, the budget for the Fire Marshal's Office is shrinking. The 
funds are the sole support for the Marshal's Office and the State Fire 
Academy.

Question 3. I understand that based on each of your experiences you 
have reached the conclusion that the fire and emergency services are in 
need of increased federal funding. Have any of your organizations 
conducted an empirical study to pinpoint where additional funding would 
be most helpful?
    Answer. I am not aware of any empirical studies conducted in Ohio 
to pinpoint or prioritize where money should be spent to have the 
greatest impact on service delivery to its citizens. However, it is 
difficult to do meaningful empirical studies when the fire departments 
are the ``go-to'' agencies, doing almost all types of emergency 
service. Most programs have been designed to address the needs 
identified in America Burning, the statistics generated by the National 
Fire Incident Reporting System, and the report generated in the 1970's 
regarding the delivery of emergency medical services on our national, 
state and local roadways.

Question 4. I realize the lure of federal funding can be very 
appealing. In the past, however, we have seen similar grant programs 
evolve and become burdened with federal requirements that usurp local 
control of government. Do any of you have concerns that federal 
mandates may eventually be a part of the grant program you envision?
    Answer. Certainly, I am concerned about additional mandates 
affecting how service is delivered on the local level. However, we are 
currently saddled with multiple unfunded mandates that have a profound 
effect on our ability to deliver services at the local level. As cited 
in my written testimony we are required to follow regulations 
promulgated by the U.S. Department of Labor, U.S. Environmental 
Protection Agency, U.S. Occupational Safety and Health Administration, 
Federal Communications Commission, etc. In addition, there are 
standards making organizations, such as the National Fire Protection 
Association, that establish important safety and operating standards. 
However, the result is the same as with federal regulations: no money 
or resources are provided to achieve the utopian world created in the 
regulations and standards. We are left to conduct even more pancake 
breakfasts, bingos, or request the community to fork over more of their 
hard earned money in the form of property taxes. And, when taken to 
court after an unfortunate incident, the department is held to those 
standards.
    Many departments operate with minimal or no training, inadequate or 
no fire fighter protective clothing, inadequate or unsafe apparatus, 
minimal or inadequate tools, provide no public education or fire safety 
inspections, etc. If federal mandates to improve community safety and 
the safety of the emergency responder are imposed and, are accompanied 
by adequate federal funding, then we, and those we serve, are better 
off.

Question 5. What information was used to derive the $1 billion per-year 
funding level?
    Answer. I do not know. And, I am concerned that it may not be 
enough to bring local emergency response agencies to an adequate level 
to address the myriad of needs in our communities today, and comply 
with federal regulations and standards. But, it is a start.

Question 6. The bill would allow the use of the grants to hire 
personnel. I can see how this would help the career departments but 
what does the bill do to help attract and retain volunteer fire 
fighters?
    Answer. With all due respect, the staffing issue is exceedingly 
more complex than your question implies. Many of the medium and small 
size departments employ a combination of career, part time, paid-on-
call and volunteer employees. These departments are a result of 
evolution due to a lack of volunteers who have the time to be trained 
to an adequate and safe level, and commit to emergency responses. The 
true volunteer is a dying breed. I believe that in most regions of the 
country those we call volunteers are actually paid-on-call (for a flat 
fee or an hourly rate) and respond from their homes and businesses when 
they are available.
    Yes, there are those who are willing to be true volunteers. 
However, what motivates them to make this most serious of commitments, 
and take personal risks to serve strangers for multiple years, varies 
almost by the individual. Some desire simply to serve their fellow man. 
Others want quality training and equipment. Some need the camaraderie 
of a group united in a single purpose. And, there are those that are 
only interested in the excitement provided by the use of lights and 
sirens. Still others desire a supplement to their income, health 
insurance coverage, or a small retirement benefit.
    Successful volunteer recruitment and retention are based on 
providing a variety of opportunities and ``benefits''. There is no 
``one size fits all'' solution.

Question 7. The bill would allow the use of grant money for wellness 
and fitness programs. Can you describe to me what specific need this 
addresses and how this need is currently going unmet?
    Answer. Over 100 fire fighters died in the line of duty during 
1999. About half of the deaths were due to a cardiac event. Although 
not quantified in the studies I have read, many of these deaths were 
likely due to a lack of physical conditioning in a physically demanding 
profession. Many times the fire fighter goes from being at rest to a 
high level of physical activity for several hours, in a very short time 
period. Even when the tone sounds and the incident is for another 
station the fire fighter who gets to stay at the station or home 
receives an auto-injection of adrenalin. This is called ``alarm-
stress''. Over the years this takes its toll on an emergency 
responder's physical plant.
    There are thousands of emergency responders (career, part time, 
paid-on-call, and volunteer) who are injured every year. Many of these 
injuries are consistent with, and likely due to, a lack of adequate 
physical conditioning.
    Miami Township is fortunate to be able to provide a small exercise 
room with minimal aerobic and strength conditioning equipment (some 
provided by employees) in each of our three stations. In addition, we 
reimburse an employee's monthly membership fee (about $20) at a local 
exercise club, if they exercise 8 times that month. However, this is 
not the case among smaller departments or those with fewer resources 
than Miami Township: especially those departments who are volunteer 
and/or paid-on-call.
    This points out the importance of having flexibility to use the 
FIRE Act funds in the manner most beneficial to the local emergency 
response agency and its community.

Question 8. As currently drafted, the FIRE Act provides no mechanism 
for auditing the grants made under the program to ensure that the funds 
are being used for the appropriate purposes nor does it include 
provisions to measure the effectiveness of the program over time. Would 
you support the inclusions of such provisions in the bill?
    Answer. Grant money without strings is unheard of in today's world. 
However, the smaller the department the less able they are to provide 
the administrative accountability and clerical support to satisfy any 
but the simplest grant accounting requirements. This presents a 
``Catch-22'' situation wherein a department will need to hire someone 
to administer a grant thereby needing additional funds just for this 
purpose.
    Miami Township assisted a couple local departments with their 
initial application for Ohio's Department of Public Safety Division of 
Emergency Medical Service grant when they were first offered in the 
early 1990's. The positive side of this grant is that there is minimal 
follow-up reporting required. The downside is that the grant awards are 
generally small and narrowly focused on emergency medical training and 
equipment.
    Audit mechanisms and criteria to measure program effectiveness must 
be kept to a minimum, especially for small and volunteer departments. 
Also, the application process needs to be simple so as not to 
discourage medium and small departments from applying.

Question 9. In the Senate version of the FIRE Act, ten percent of the 
funds are set aside for education programs. However, fire departments 
would not be the only organizations that would qualify for the funds, 
but national, state, local or community organizations as well. What is 
the position of the IAFC/IAFF/NVFC regarding non-fire service 
organizations qualifying for these funds?
    Answer. This is a bill to fund fire and emergency services. The 
intent is to improve fire and emergency service response to the wide 
variety of emergencies confronting our communities today, as well as 
helping us make our communities safer through early mitigation and 
public education. Miami Township has an active and, we believe, 
effective public safety education program. The bill, as I understand 
it, would allow another non-fire community organization to qualify for 
funding to offer competing/duplicate programming. I'm not jealous, but 
I am concerned that this will dilute the already minimal funds proposed 
in the FIRE Act. In turn, this will likely have a negative impact on 
the funds available to Miami Township for meaningful improvements in 
the areas in which they are needed.
    Miami Township tries to expend the valuable funds we receive from 
the public in the most efficient manner possible. If measures can be 
included in the FIRE Act to avoid duplicate or unnecessary programming 
I would feel a little better about the designation of ten percent of 
the funding to education programs. (However, as was discussed in the 
question regarding the accountability of grant funds, this type of 
provision would undoubtedly cause a more complicated application and 
grant review process.)

Question 10. Reviewing the list of uses for the grant funds, I question 
whether serious thought was given to targeting these funds on 
challenges national in scope and whether departments would use the 
funds to address actual needs rather than to purchasing ``wants.'' How 
can we ensure that individual applications demonstrate an actual need 
for these funds?
    Answer. The further from the source that funds are distributed the 
more likely that fraud and frivolous spending will occur. Without 
putting an expensive bureaucracy in place to oversee the spending I am 
not sure that anyone can give you assurances that needs and not 
``wants'' are met. I can say that Ohio already disburses money to the 
emergency services and has mechanisms in place to oversee appropriate 
spending of grant funds, without creating a daunting application and 
accountability process.
    As far as assuring that the funds are targeted on challenges of 
national scope let me reiterate that the fire loss and fire injury 
problem is a national travesty. Also, local emergency responders attend 
to emergencies on federal highways and in federal installations, 
respond to terrorist acts, respond to hazardous material releases that 
cross local and state boundaries, and first respond to natural 
disasters that occur without regard to political jurisdictions. Most of 
the resources and assets needed to address national issues are the same 
as those needed for response to ``local'' emergencies.

Question 11. During the testimony, one of the witnesses suggested that 
the average amount of a grant would be relatively small based on the 
number of fire departments in this country. On the other hand, these 
funds would be exhausted in short order if every department seeking 
grants used the funds to purchase apparatus. Do you support the use of 
these funds for purchasing apparatus and what type of impact would this 
have on reducing the threat of fire and other dangers in our nation?
    Answer. Apparatus and equipment do not reduce the threat of fire. 
However, they are instrumental in the process to minimize the impact of 
the disaster on the critical infrastructure and our nation's citizens. 
Miami Township has a need to replace its aging fleet of emergency 
response apparatus, and through creative financing methods we are 
slowly managing to fill that need. Our critical need is for personnel 
to meet the safety standards and regulations imposed on us. The point 
is, every department will not need to purchase apparatus, or hire 
people, or implement public safety education programs. The bill allows 
for flexibility to fund the most critical needs of the local emergency 
response agency and its community.
    I agree that $1 billion per year disbursed across this great 
country will pale in comparison to the actual need. However, Miami 
Township is not looking to the federal government to provide for all 
our community's emergency response needs. Miami Township is looking for 
a partner to help address the federal regulations and standards we are 
required to meet. Miami Township is looking for a partner to help us 
respond to emergencies that occur on the interstate highway that 
bisects our community. Miami Township is looking for a partner to help 
us protect the nations critical infrastructure. Miami Township is 
looking for a partner to help us prepare for response to a release from 
the Uranium Hexafluoride shipments traveling from Portsmouth, Ohio to a 
Nevada waste site, and to respond to acts of terrorism.
    My compatriot is right. The average potential grant award would be 
small when spread across all the nations fire departments. However, we 
need to start somewhere and the FIRE Act is the appropriate means.

Question 12. Would you support a requirement for departments seeking 
funds to provide National Fire Incident Reporting data to the United 
States Fire Administration?
    Answer. NFIRS data is critical to defining the problem and tracking 
improvements in the fire and emergency response field. In addition to 
tying a reporting requirement to the grant, consideration should be 
given to providing funding to assist a department in meeting the 
reporting requirement. There will probably be some fire departments 
that will not participate in NFIRS data submissions or the grants 
resulting from the FIRE Act. However, efforts should be made to 
encourage participation in both.
                                 ______
                                 
Prepared Statement of Robert A. DiPoli, Chief, Needham Fire Department, 
                         Needham, Massachusetts

Introduction

    My name is Robert A. DiPoli. I am the Fire Chief in Needham, 
Massachusetts, a suburb of Boston. I am a thirty-year veteran of the 
Fire Service and Fire Chief for the past twelve years. In addition, I 
am the Past President of both the Fire Chiefs Association of 
Massachusetts and the New England Division of the International 
Association of Fire Chiefs. For three years, I traveled all over the 
United States in a campaign effort for Vice President of the 
International Association of Fire Chiefs. I currently serve as Director 
of Governmental Affairs, for the Fire Chiefs Association of 
Massachusetts.

Statement

    Mr. Chairman. Let me begin by thanking you for holding a hearing on 
the FIRE ACT. I was present in your chambers, but not on the panels. I 
thought the hearing was sincere, and some legitimate issues were 
discussed.
    While, I have a pretty good handle of the issues facing the 
nation's Fire Service, I will concentrate on matters closer to home. 
For the past twelve years, I have been at the helm of the Needham Fire 
Department. Needham is a fairly affluent community of approximately 
thirty thousand people, located to the southwest of Boston. The 
Interstate I-95 corridor runs through the community, as well as rail 
lines. Needham is in a heavily traveled flight path, from Logan 
International Airport. The Needham Fire Department is a career 
department, with seventy full time employees. The department responds 
to approximately three thousand emergency calls per year. These calls 
are a mix of fire responses and emergency medical calls. The department 
operates a fleet of apparatus consisting of three Pumping Engines, one 
Ladder Truck, two Rescue Ambulances and numerous small vehicles. The 
apparatus is housed in two stations.
    Proposition 2\1/2\, a tax limiting measure was enacted by a 
statewide election in 1981. This measure limits new revenue by property 
taxes to 2\1/2\% per year. Even in a robust economy, the cost of 
operating the fire department increases by at least that much. Fuel 
costs have doubled in the last year alone. Education takes the lion's 
share of the available revenue each year, leaving the remaining 
services to compete for what is left. My instructions each year as I 
prepare my operating budget, is to level fund the fire department. When 
you factor in cost of living raises and inflation, I lose a piece of 
the department every year. I have been forced to layoff young 
firefighters, just starting out in their careers. My department runs 
apparatus short staffed every day. Most days, whole companies are 
placed out of service. This hampers our ability to protect our 
citizens, as well as contribute to our Mutual Aid program to the 
thirty-three communities in our region.
    You raised a question about, what is the State doing for the Local 
Fire Departments. We are probably better off than most, when it comes 
to State involvement of the local fire service. This is due to a 
combination of innovative and aggressive leadership of the fire chiefs 
in the state, along with a good level of respect and cooperation of our 
state legislators. We have a highly effective State Fire Marshals 
Office that provides many support services to the local fire 
departments. We have an excellent Statewide Regional Hazardous 
Materials Response Program. We have an excellent State Fire Training 
System. We witnessed the effectiveness of these services recently, 
during the Worcester Fire tragedy.
    We also have fire departments operating out of station houses 
condemned by the local building inspector. We have fire departments 
responding to alarms in apparatus that should have Antique plates on 
them. What we are lacking is a program to assist the poorer communities 
in building new stations and acquiring new apparatus. We are not 
looking for a free lunch program, or a federal bailout for local 
services.
    We need the FIRE ACT, and the assistance it will provide to 
America's domestic defenders. We need to take a positive step to reduce 
the loss of life and property damage every day across our great nation. 
I cannot think of a better investment of some federal dollars, than 
preventing fires, and the resulting losses.
    Thank you for allowing the hearing on this badly needed 
legislation, and for the opportunity to add my testimony. Please 
support the FIRE ACT!
                                 ______
                                 
              The Proof Is In--Thermal Imagers Save Lives!

    Of all the operations in which thermal imaging can improve a 
firefighter's tactics, this technology probably has its most dramatic 
impact on search and rescue operations. Firefighters using thermal 
imaging cameras have regained their vision and can now quickly navigate 
to identify victims based on sight.
    In the past year, Bullard, the leading thermal imager manufacturer 
in the US, has been tracking stories from the field--about firefighters 
who have rescued civilians and firefighters who have been spared from 
injury when they were using a Bullard Thermal Imaging Camera on the 
job. These stories are summarized as follows.

Four Lives Spared/Florence, SC/May 22, 2000--A strip mall fire on May 
22 in Florence, South Carolina, nearly took the lives of four 
firefighters who were battling the blaze. These firefighters narrowly 
escaped a building collapse when a concealed ceiling fire nearly cut 
off their exit.
    Firefighters arrived on scene around 1:30 a.m. Firefighter/Driver 
Phillip Lee pulled one of the department's Bullard Thermal Imagers from 
Engine 141 and entered a front window to size up the fire. Lieutenant 
Jim Sills employed another Bullard Thermal Imager to help the two-
person attack team begin their navigation through the building.
    Though the smoke was blinding, Lee was able to see fire conditions 
clearly with the Bullard Thermal Imager. ``It was so hot in the room 
that my skin was tingling. I trained the camera on the ceiling, and I 
saw a solid pure white image, with a brighter white in the front of the 
room,'' Lee said. ``The fire had spread through the ceiling and was 
already behind the crew, cutting off our exit.''
    Lee sensed an imminent structural collapse and reported the 
situation to Lieutenant Charles Matthews, who was in command inside the 
structure. Lieutenant Matthews responded quickly. ``I told them to get 
out, and get out now. Within just a few minutes, the building collapsed 
where we had been working.''
    Lee believes that without the thermal imager, the crew could have 
easily been trapped in the building. ``The building was built with 
bowstring construction, and the metal has a tendency to give when it 
gets hot. We would have never thought the fire could have gotten behind 
us like that. Without the thermal imager, the building would have 
fallen in on us,'' he said.

Thermal Imager Helps Five Firefighters Escape Before Collapse/Windham, 
NH, March 17, 2000--On Friday, March 17 at about 2 a.m., the Windham 
Fire Department was dispatched to a fire at a strip mall. The structure 
was filled with heavy smoke, and indications were that the fire had 
started on the lower level. With Bullard Thermal Imager in hand, 
Lieutenant Jay Moltenbrey took the lead position into the smoke-filled 
lower level, followed by Firefighter Tom McPherson and Firefighter Mike 
Mistretta. A second crew of two made separate entry on the same level 
to search for the source of the fire.
    Though the smoke was blinding, Moltenbrey was able to see with the 
thermal imager. Training the imager on the ceiling, he saw that the 
entire ceiling showed as gleaming white on the screen, indicating that 
it contained heavy concealed fire. Moltenbrey sensed an imminent 
structural collapse and pulled both crews out of the building. Just 
five minutes later, the ceiling collapsed.
    Fire Chief Steven Fruchtman said the incident could have turned out 
very differently if thermal imaging technology hadn't been available on 
the scene. ``Had the camera not been available, I believe there would 
have been some serious firefighter injuries or even a fatality due to 
the heavy loads above when the floor collapsed,'' he said.
    Lieutenant Moltenbrey agrees. ``If we hadn't had the camera, we 
would have pushed in further looking for the seat of the fire, and we 
probably wouldn't have looked in the ceiling. Truss floors are 
lightweight and strong, but when you add heat and fire, they fail very 
quickly. About half of firefighter deaths in the US are caused by 
collapses of buildings of lightweight construction,'' he said.

43 Year-Old Man Rescued/Enterprise, Ala./February 19, 2000--When 
firefighters arrived at Jimmy Ray Huguley's house at 6:30 p.m. on 
February 19, flames were shooting out of the windows, and bystanders 
reported that a voice had been heard coming from the front bedroom. 
Firefighter Tim Driscoll led a team of three with the department's 
Bullard Thermal Imager in hand--breaking the bedroom window and 
climbing through it to search for the victim.
    After navigating around the bed in zero visibility, Firefighter 
Driscoll identified the shape of Mr. Huguley's body on the screen of 
the thermal imager--lying face-down on the floor of the bedroom. 
Firefighter Driscoll picked up the victim and passed him out the window 
to Firefighter Eric Massey and Lieutenant Michael Kelley. Seconds after 
Mr. Huguley was removed, there was a flashover in the bedroom. Driscoll 
quickly jumped through the window, escaping the structure without 
injury. Mr. Huguley is currently in critical condition at the 
University of Alabama Birmingham.
    Enterprise Fire Department Chief Byron Herring explained that the 
camera allowed firefighters to immediately find the victim. ``Due to 
the smoke and excessive heat, the firefighters would not have had time 
to find him under normal procedures,'' Chief Herring said. ``Without 
the camera, there's no doubt in my mind that we would have had loss of 
life in the building.''

Firefighters Use Camera to Escape Flashover/Monroe, Ohio/January 8, 
2000--A house fire in Monroe, Ohio, that took the lives of three 
civilians on January 8 nearly took the lives of two firefighters who 
were battling the blaze. Firefighters Scott Clasgens and Andrew Turner 
narrowly escaped entrapment after a nearby room exploded in flames. 
Their comrades used the department's Bullard Thermal Imaging Camera to 
find them and lead them to safety.
    Firefighter Clasgens recounted the situation. ``We tried to get out 
of the house, but there were flames in the stairwell on one end of the 
hallway, and flames shooting out of the bedroom on the other end. We 
were trapped in about a three by three space,'' he said. ``All kinds of 
things flash through your mind in a situation like that. When we 
perceived we were trapped, the heat seemed even hotter.''
    At that point, Firefighter Turner made a distress call on his 
radio: ``Mayday, Mayday, Mayday, firefighters trapped.'' Firefighters 
Verdin and King were on their way out of the structure when they heard 
the call. Using their thermal imaging camera to navigate, they rushed 
into the hallway, extinguishing flames on the staircase, and found 
their comrades in about 20 seconds. Clasgens estimates that without the 
thermal imaging camera, it could have taken three to four minutes for 
Verdin and King to find them ``by feel'' in the hallway.
    Fire Chief Mark Neu said that the situation could have turned out 
very differently if thermal imaging technology hadn't been available on 
the scene. ``We could have lost two firefighters that day,'' Chief Neu 
said. ``I can't tell you how happy I am that we had that camera.''

Elderly Woman Rescued/Somers, Conn./Dec. 23, 1999--When firefighters 
were called to the home of Antoinette Pirog, they had a report of an 
elderly bed-ridden woman trapped in the house. Firefighter Steve 
Minikowski arrived on scene with the protection of a hoseline and the 
Bullard Thermal Imaging Camera.
    Minikowski recounted the scene from his perspective. ``I scanned to 
the right and saw that the kitchen was clear. Then I scanned to the 
left into the living room, and I saw her right away--about 15 feet away 
from the camera. She really stood out because she was the hot spot in 
that particular room. She showed as glowing white on the screen.''
    Minikowski carried Pirog out of the house, while Van Tassel 
navigated with the thermal imaging camera. The rescue was made about 15 
seconds after entry into the burning structure. Pirog was quickly 
lifted into the ambulance and rushed to Johnson Memorial Hospital in 
Stafford, where she was treated for smoke inhalation and released later 
that night.

Toddler Rescued/Franklin, Ind./Oct. 9, 1999--Two year-old Zachary 
Sheets was lying face down in the hallway outside of his blazing 
bedroom, barely breathing when firefighters arrived on the scene. Two 
firefighters charged through the thick black smoke into Zachary's room, 
knocking down the fire with their hoseline and beginning a search of 
the room on their hands and knees.
    Mark Hash arrived with the second unit and ran into the house with 
the Bullard Thermal Imaging Camera. Within seconds of entering, he saw 
the heat signature of Zachary's body on the screen of the camera, 
tapped Firefighter Tim Coble for assistance and quickly removed the 
toddler.
    Firefighter Mark Hash recounted the rescue from his perspective. 
``He jumped right out at me. There was no mistaking him for anything 
else. In the screen of the camera, he looked like a baby doll as plain 
as day lying on the floor.''

Speedy Search Aides Rescue/Charlottesville, Va./July 21, 1999--When 
Charlottesville Firefighter Mike Oprandy forced open the door of the 
burning house, the smoke was so thick that he might as well have had 
his eyes shut. Somewhere in that house was Jesse Wicks, and Oprandy 
knew that he would find him.
    Crawling along the floor with his camera, Oprandy searched the 
first level of the structure in less than a minute in zero visibility. 
Oprandy and another firefighter, Clinton Wingfield, moved swiftly to 
second level of the home, finding the stairs easily with the camera. 
When they forced open the door at the top of the stairs, Wicks was 
sitting on his bed. Firefighters safely removed him to the fresh air 
outside.
    Battalion Chief Charles L. Werner said thermal imaging technology 
was critical in saving the 43 year-old man's life. ``Without the 
camera, it would have taken us five minutes to search through the thick 
smoke before going to the second floor. And after five minutes, Mr. 
Wicks would have suffered serious injury and most likely would have 
died from smoke inhalation.''

Firefighters Avoid Falling Through a Floor/Delta Township, Mich./July 
8, 1999 --When firefighters near Lansing, Michigan responded to a call 
in July about house fire, they arrived to find the structure filled 
with blinding smoke and the fire burning through the roof. Firefighters 
were uncertain about whether anyone was trapped inside when they forced 
open the kitchen door.
    Fire Marshall Paul Fabiano led with the Bullard Thermal Imager. 
``The kitchen was black with smoke, so we couldn't see anything without 
the camera,'' Fabiano said. ``When I scanned the floor, I saw that the 
first part of the kitchen floor was still intact, but the center of the 
floor was completely gone. So we turned around and made entry through 
the front door.''
    Fabiano continued, ``Firefighters are trained to ``sound'' or test 
the floor while crawling along. In the heat of the excitement and the 
with the possibility of trapped people, the firefighters may have 
hurried and actually gone through the floor.''

Firefighters Escape Before Roof Collapse/Granbury, Tx./December 29, 
1998--The Granbury, Texas, Volunteer Fire Department was called to a 
fire at an old wooden auto repair warehouse in this community just 
outside of Fort Worth. They entered the office area and scanned the 
ceiling, seeing that the support beams were almost completely burned 
through in several locations. Firefighters evacuated. Minutes later, 
the building collapsed where they had been standing.
    Captain Scott Cook of Granbury was one of the four firefighters who 
escaped. ``No firefighters were trapped; no one was injured, and the 
fight continued. This entire event occurred less than 5 minutes after 
the initial entry. Without the view the imager gave us, the four-man 
crew might not have come out,'' Cook said.


</pre></body></html>
